<html>
<title> - CHALLENGES AT THE BORDER</title>
<body><pre>[Senate Hearing 113-776]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-776
 
                        CHALLENGES AT THE BORDER

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             SECOND SESSION

                               ----------                              

                              JULY 9, 2014
   EXAMINING THE CAUSES, CONSEQUENCES, AND RESPONSES TO THE RISE IN 
                  APPREHENSIONS AT THE SOUTHERN BORDER

                             JULY 16, 2014
      EXAMINING AND ADDRESSING THE ROOT CAUSES BEHIND THE RISE IN 
                  APPREHENSIONS AT THE SOUTHERN BORDER

                               ----------                              

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
                          






























                                                        S. Hrg. 113-776

                        CHALLENGES AT THE BORDER

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             SECOND SESSION

                               __________

                              JULY 9, 2014
   EXAMINING THE CAUSES, CONSEQUENCES, AND RESPONSES TO THE RISE IN 
                  APPREHENSIONS AT THE SOUTHERN BORDER

                             JULY 16, 2014
      EXAMINING AND ADDRESSING THE ROOT CAUSES BEHIND THE RISE IN 
                  APPREHENSIONS AT THE SOUTHERN BORDER

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                       U.S. GOVERNMENT PUBLISHING OFFICE 

91-171 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001












        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                  Gabrielle A. Batkin. Staff Director
               John P. Kilvington, Deputy Staff Director
                    Mary Beth Schultz, Chief Counsel
           Blas Nunez-Neto, Senior Professional Staff Member
                    Holly A. Idelson, Senior Counsel
      Stephen R. Vina, Deputy Chief Counsel for Homeland Security
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
                  Andrew C. Dockham, Minority Counsel
         Daniel P. Lips, Minority Director of Homeland Security
                  Sara Beth Groshart, Minority Counsel
                 Jordan E. Kaye, Minority Investigator
         Cory P. Wilson, Minority U.S. Secret Service Detailee
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................1, 285
    Senator Coburn...............................................4, 314
    Senator McCain...............................................    22
    Senator Johnson.............................................25, 305
    Senator Baldwin.............................................28, 302
    Senator Landrieu............................................30, 310
    Senator McCaskill............................................    33
    Senator Ayotte..............................................35, 307
    Senator Heitkamp.............................................    38
Prepared statements:
    Senator Carper..............................................55, 333
    Senator Coburn...............................................    58

                               WITNESSES
                        Wednesday, July 9, 2014

Hon. W. Craig Fugate, Administrator, Federal Emergency Management 
  Agency, U.S. Department of Homeland Security...................     6
Hon. R. Gil Kerlikowske, Commissioner, U.S. Customs and Border 
  Protection, U.S. Department of Homeland Security...............     7
Thomas S. Winkowski, Principal Deputy Assistant Secretary, U.S. 
  Immigration and Customs Enforcement, U.S. Department of 
  Homeland Security..............................................     9
Mark H. Greenberg, Acting Assistant Secretary, Administration for 
  Children and Families, U.S. Department of Health and Human 
  Services.......................................................    11
Francisco L. Palmieri, Deputy Assistant Secretary for the 
  Caribbean and Central America, Bureau of Western Hemisphere 
  Affairs, U.S. Department of State..............................    12
Juan P. Osuna, Director, Executive Office of Immigration Review, 
  U.S. Department of Justice.....................................    14

                     Alphabetical List of Witnesses

Fugate, Hon. W. Craig:
    Testimony....................................................     6
    Joint prepared statement.....................................    61
Greenberg, Mark H.:
    Testimony....................................................    11
    Prepared statement...........................................    66
Kerlikowske, Hon. R. Gil:
    Testimony....................................................     7
    Join prepared statement......................................    61
Osuna, Juan P.:
    Testimony....................................................    14
    Prepared statement...........................................    81
Palmieri, Francisco L.:
    Testimony....................................................    12
    Prepared statement...........................................    76
Winkowski, Thomas S.:
    Testimony....................................................     9
    Joint prepared statement.....................................    61

                                APPENDIX

Chart submitted by Senator Coburn................................    88
Information submitted by Senator Landrieu........................    89
Charts submitted by Mr. Kerlikowske..............................    93
National Immigration Forum statement for the record..............    95
Responses to post-hearing questions for the Record:
    Mr. Fugate...................................................   101
    Mr. Kerlikowske..............................................   101
    Mr. Winkoswki................................................   101
    Mr. Greenberg................................................   173
    Mr. Palmieri.................................................   201
    Mr. Osuna....................................................   248

                        Wednesday, July 16, 2014

Michael Shifter, President, Inter-American Dialogue..............   289
Eric L. Olson, Associate Director, Latin American Program, 
  Woodrow Wilson International Center for Scholars...............   291
Eric Farnsworth, Vice President, Americas Society/Council of the 
  Americas.......................................................   293
Richard Jones, Deputy Regional Director for Global Solidarity and 
  Justice in Latin America and the Caribbean, Catholic Relief 
  Services.......................................................   295
Bryan Roberts, Senior Economist, Econometrica, Inc...............   297

                     Alphabetical List of Witnesses

Farnsworth, Eric:
    Testimony....................................................   293
    Prepared statement with attachment...........................   347
Jones, Richard:
    Testimony....................................................   295
    Prepared statement...........................................   396
Olson, Eric L.:
    Testimony....................................................   291
    Prepared statement...........................................   341
Roberts, Bryan:
    Testimony....................................................   297
    Prepared statement...........................................   408
Shifter, Michael:
    Testimony....................................................   289
    Prepared statement...........................................   336

                                APPENDIX

National Immigration Forum statement for the Record..............   428
Responses to post-hearing questions for the Record:
    Mr. Shifter..................................................   433
    Mr. Olson....................................................   438
    Mr. Farnsworth...............................................   447
    Mr. Jones....................................................   451
    Mr. Roberts..................................................   458





                       CHALLENGES AT THE BORDER:
   EXAMINING THE CAUSES, CONSEQUENCES, AND RESPONSES TO THE RISE IN 
                  APPREHENSIONS AT THE SOUTHERN BORDER

                              ----------                              


                        WEDNESDAY, JULY 9, 2014

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, Chairman of the Committee, presiding.
    Present: Senators Carper, Landrieu, McCaskill, Baldwin, 
Heitkamp, Coburn, McCain, Johnson, and Ayotte.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. Let me begin today by calling us to order 
and thanking our witnesses for joining us to discuss the 
current humanitarian challenge that is playing out along our 
Southern Border with Mexico, with unaccompanied children as 
young as 4 years old arriving in record numbers almost every 
day.
    Before discussing the Administration's robust response to 
this current situation, however, I think it is important to try 
to put things into context. Over the past decade, we have made 
significant progress in securing our borders. Since 2003, for 
example, we have spent about a quarter-of-a-trillion dollars to 
enforce our immigration laws, more than doubling the size of 
the Border Patrol along the way. We have also built 670 miles 
of fencing and have deployed force multipliers such as high-
tech cameras, radars, drones, and other aircraft up and down 
our border.
    In 2006, just 8 years ago, the Border Patrol apprehended 
more than a million people at the border. Last year, we stopped 
just over 420,000. Some got through, but most did not. And 
while the most recent recession played a role in that drop, I 
think it is clear that the investments we have made in recent 
years have paid off. Although overall migration is still at 
historic lows, we are now facing a large surge, as we know, in 
undocumented immigration from the Central American countries, 
including unprecedented numbers of unaccompanied children and 
families showing up at our borders.
    Some are saying that the current situation shows that our 
borders are not secure. I do not believe this is true. And, let 
me be clear. These children and their families are not slipping 
past our borders undetected. They are being apprehended in 
large numbers by the Border Patrol almost as soon as they touch 
the United States, often turning themselves in voluntarily.
    People from Central America, unlike Mexico, must be flown 
back to their countries. This is a costly process that can take 
months and sometimes even years. This process is even more 
complicated for unaccompanied children and families because our 
laws, appropriately, require different treatment for these 
groups. Children must be handed over to the Department of 
Health and Human Services (HHS) and families must be detained 
in special facilities that include educational opportunities 
for children.
    Our border security system has been overwhelmed by the 
sheer numbers of these children and families. The 
Administration and Secretary Johnson have responded to the 
situation with what I describe as an ``all hands on deck'' 
approach. The Federal Emergency Management Agency (FEMA) is 
coordinating with the Department of Homeland Security (DHS)-
wide response to the problem. The Department of Defense (DOD) 
has provided space on some of its military installations to 
house unaccompanied minors until Health and Human Services can 
find a placement for them. And, we surged Border Patrol agents, 
we surged immigration judges and other personnel to the border 
to help process these individuals.
    Finally, just yesterday, the Administration proposed some 
$3.7 billion in emergency funding to deal with this situation. 
And, while we are still trying to drill down on it and 
understand fully what it calls for, we do know that the 
Department of Homeland Security will receive $1.5 billion to 
detain and deport more families, build some temporary 
additional detention facilities for the Border Patrol, and 
enhance investigations into human smuggling networks. These 
resources are urgently needed.
    I am concerned, however, that while we continue to focus a 
great deal of attention on the symptoms of the problems along 
the border, we also continue to focus too little attention in 
addressing the underlying causes. As I mentioned earlier, we 
spent nearly a quarter-of-a-trillion dollars securing our 
borders since 2003. At the same time, only a small fraction of 
this amount has been invested in addressing the root causes in 
Central America that are encouraging young people and their 
families to risk life and limb and make the long and dangerous 
trek to South Texas.
    Seeking a better life in the United States is nothing new. 
Most of us here today are here because someone in our family a 
generation or more ago decided to come here to take advantage 
of what America has to offer. But, for some of those Central 
Americans, especially the children and parents who often send 
them on their journeys, the decision can be a desperate one. 
Life in parts of Guatemala, El Salvador, and Honduras is more 
than difficult today. It can be deadly. I have seen it 
firsthand, even this year.
    Violence has been steadily increasing in the region, with 
homicide rates in all three countries among the highest in the 
entire world. Kidnapping and extortion are endemic. Meanwhile, 
these countries have stagnant economies that create too few 
jobs and opportunities for their citizens. Faced with this 
violence and lack of hope at home, people from the region are 
voting with their feet and risking their lives on the nearly 
1,500-mile journey to the United States.
    I believe that the United States, along with Mexico, 
Colombia, and along with many others, need to do a better job 
of helping Central American countries help themselves. How? In 
large part, by helping them create a more nurturing environment 
for job creation. Restore the rule of law. Lower energy costs. 
Improve workforce skills and access to capital. And, improve 
the prospects for the young people so that more of them are 
willing, even eager, to stay home and help build their country 
up.
    I am dismayed to hear some of our colleagues suggest that 
the answer is to cutoff funding for these countries. And, while 
I am a strong advocate of tough love, it strikes me as an 
extremely short-sighted step to take and one that will likely 
do more good than harm in the long run. If we had taken that 
approach with Colombia some 20 years ago, a country I visited 
earlier this year, it would be a failed nation today instead of 
one with a vibrant economy that has become a strong ally of 
ours.
    Do our neighbors and their leaders in Central America need 
to do more to provide a brighter future for their own citizens? 
You bet they do! But, this is not the time to abandon them. Do 
we really think that making things worse in these countries is 
going to somehow improve the situation on our borders? I do not 
think so.
    I am encouraged that the Administration has included $300 
million in its emergency supplemental request for the State 
Department, some of which will be used to deal with the root 
causes of South American migration. But, these funds should be 
seen as a downpayment. This cannot be one and done. If we are 
serious about improving conditions in this region, we will need 
to do more, and, frankly, so will others. And, I would 
emphasize this. This is a shared responsibility. This should 
not be all on America's shoulders. This is a shared 
responsibility. That includes the Mexicans. It includes the 
Colombians. It includes other countries in Latin America. It 
includes many development banks and so forth.
    But, keep in mind, Plan Colombia took more than a decade to 
bear fruit. I think we face a similar commitment here today, 
hopefully, not that long, but a similar commitment. And, making 
that commitment will not only prove ourselves good neighbors, 
but ensure that we will not continue to face an expensive 
humanitarian crisis at our borders a decade from now.
    Addressing the factors that are pushing people out of 
Central America is important, but we also need to address the 
factors that are pulling them here in the first place. Some are 
saying that the current surge in migration from Central America 
is somehow tied to the actions that President Obama has taken 
to help undocumented immigrants who were brought here as 
children years ago come out of the shadows and live without 
fear. Many of those making this argument are the same people 
who oppose immigration reform and have rejected our bipartisan 
Senate efforts to update the outdated immigration laws that 
often drive people to try and enter our country illegally.
    From what I have seen and heard, the biggest factor that 
pulls people to come here is the desire to have a better life, 
a job, and in the United States. But, our broken immigration 
systems do not do enough to provide legal avenues for workers 
we want and need, nor does it provide the most effective tools 
to ensure that employers do not exploit undocumented workers.
    The Senate passed a comprehensive immigration reform bill 
more than a year ago. I would be the first to say it is not 
perfect. Are there parts of it I would like to change? You bet, 
I would, and I am sure Dr. Coburn and others feel the same way. 
And, parts of it need to be changed. But, it would tackle some 
of the root causes that are pulling these migrants to come here 
and to live and to work by providing legal avenues for them to 
do so and then return to their own countries. It would also 
further increase the security of our borders and enhance our 
ability to enforce our immigration and workforce laws in the 
interior of the country.
    Last, The Congressional Budget Office (CBO) concluded that 
the immigration reform bill passed by the Senate would increase 
our country's gross domestic product (GDP)--increase our 
country's GDP--by, I think, anywhere from 3 to 5 percent, and 
decrease our budget deficit by a trillion dollars over the next 
20 years. And yet, just last week, we learned that our friends 
in the House of Representatives have decided not to even debate 
immigration reform this year. I believe this is a mistake. I 
truly hope they will reconsider this decision.
    With that having been said, let me turn to my friend, Dr. 
Coburn, and then we will hear from our witnesses today. Thank 
you all for joining us.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. I would ask unanimous consent that my 
remarks be submitted.
    Chairman Carper. Without objection.
    Senator Coburn. I would welcome each of you here.
    I would make some observations, as I have studied this. No. 
1 is that we have known about this problem escalating since 
January, and yet there was no mention of it or any request for 
it in the President's budget.
    No. 2, the best way to stop the flow is to send them back. 
I understand our 2008 trafficking law prohibits us to do that 
at this time in a timely manner, but, in fact, we want to stop 
this flow.
    No. 3, the root cause of this can be mediated somewhat by 
our ally, the Mexican government, and whether or not we have 
done everything that we can do in that regard to utilize their 
help in this problem remains to be seen.
    I want to welcome each of you here. Thank you for being 
here and I look forward to your testimony. As many of you know, 
I sent questions to you ahead of time so that we could get 
complete answers rather than waiting on answers for the record, 
and I thank you for being here.
    Chairman Carper. Thank you, Dr. Coburn.
    We welcome our colleagues, as well.
    I am going to provide brief introductions for our witnesses 
and then listen to you and then we will have a good 
conversation.
    Our first witness is no stranger here, William Craig 
Fugate. Mr. Fugate is Administrator of the Federal Emergency 
Management Agency at the Department of Homeland Security. In 
this role, Mr. Fugate has helped coordinate emergency 
management efforts between all levels of government and 
external partners in the private and the community sectors. 
Prior to joining FEMA, Mr. Fugate served as the Director of the 
Florida Division of Emergency Management. Craig, nice to see 
you. Thanks for joining us and for your service.
    Our second witness today is Gil Kerlikowske. Mr. 
Kerlikowske is the Commissioner of U.S. Customs and Border 
Protection (CBP). In this position, he oversees this Nation's 
dual mission of protecting national security objectives while 
promoting economic prosperity and security. As Commissioner, he 
runs the largest Federal law enforcement agency and the second 
largest revenue collecting source in the Federal Government. 
Prior to joining CBP, Mr. Kerlikowske was the Director of the 
White House Office of National Drug Control Policy, and as I 
recall, he has been a police chief in a place or two, maybe 
even Buffalo and Seattle, if I am not mistaken.
    Our next witness is Thomas Winkowski. Mr. Winkowski is the 
Principal Deputy Assistant Secretary of the U.S. Immigration 
and Customs Enforcement (ICE). In this position, Mr. Winkowski 
advances ICE's missions to promote homeland security and public 
safety through the criminal and civil enforcement of 
approximately 400 Federal laws governing border control, 
customs, trade, and immigration. Mr. Winkowski has also served 
in a variety of leadership roles during a long and 
distinguished career with CBP. Most recently, he served as the 
Acting Commissioner prior to the appointment of Mr. 
Kerlikowske.
    Next, we have Mark Greenberg. Mark is Acting Assistant 
Secretary for the Administration for Children and Families 
(ACF) at the Department of Health and Human Services. Prior to 
this, Mr. Greenberg directed the Georgetown University Center 
of Poverty, Inequality, and Public Policy. During his career, 
he has frequently provided technical assistance to State and 
local government regarding poverty reduction strategies. Mr. 
Greenberg also serves as both the Principal Deputy Assistant 
Secretary and the Acting Commissioner for the Administration of 
Children, Youth, and Families.
    Our next witness is Francisco Palmieri. He is the Deputy 
Assistant Secretary for the Caribbean and Central America, 
Bureau of Western Hemisphere Affairs for the Department of 
State. Mr. Palmieri has served in the Dominican Republican, in 
El Salvador, in Honduras, and is a Senior Desk Officer for 
Venezuela. He has also led the Bureau of International 
Narcotics and Law Enforcement Affairs (INL's) Latin American 
and Caribbean Program Offices, where he was responsible for 
over $800 million in programs, including the Colombia and 
Mexico/Merida operations and 19 Narcotics Affairs offices 
throughout the Western Hemisphere. Prior to his current 
assignment, he served as Deputy Executive Secretary in the 
Department of State's Executive Secretariat. We are delighted 
that you are here today.
    Our final witness is Juan Osuna. Mr. Osuna serves as 
Director of the Executive Office for Immigration Review (EOIR) 
at the Department of Justice (DOJ). Leading up to his 
appointment as Director, Mr. Osuna served the Department of 
Justice as an Associate Deputy Attorney General working on 
issues such as immigration policy, Indian Country matters, and 
pardons and commutations. Prior to this, he oversaw civil 
immigration-related litigation in the Federal Courts as Deputy 
Assistant Attorney General in the Civil Division Office of 
Immigration and Litigation. Mr. Osuna also teaches immigration 
policy at George Mason University of Law in Arlington, 
Virginia. We are delighted that you are here.
    Thank you all for your presence, for your preparation, for 
your testimony, and Craig, why do you not lead us off.

 TESTIMONY OF HON. W. CRAIG FUGATE,\1\ ADMINISTRATOR, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Fugate. Thank you, Mr. Chairman, Senator Coburn, and 
other Senators.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Fugate appears in the 
Appendix on page 61.
---------------------------------------------------------------------------
    Mr. Fugate. The timeline for FEMA's involvement in this 
actually started about mid-May. The Secretary had elevated the 
response based upon the number of children that were being held 
into detention at Customs and Border Protection. At that time, 
FEMA offered what assistance we could. We were not sure if this 
was commodities or technical assistance. The initial assistance 
we provided was mainly advisory technical assistance and help 
identifying some resources within the faith-based community for 
some immediate needs.
    Towards the end of May, about May 30, there was a Deputies 
meeting at the White House with the National Security Council 
on this issue that we participated in as FEMA. We were asked 
what else we could do. Based upon authorities that FEMA had 
received in the Post-Katrina Emergency Management Reform Act, 
as the principal advisor to the administration on emergency 
management issues, we felt that there would be some additional 
resources or assistance we could provide.
    Based upon that, we were asked by the President through the 
Secretary to coordinate--and again, I want to be very clear 
about this--a very narrow focus on supporting two lead 
agencies, Customs and Border Protection and the Administration 
for Children and Families, Office of Refugee Resettlement 
(ORR), focused on the humanitarian issues surrounding the 
children that were being held in detention, because there was 
not enough capacity to place them in beds.
    So, our focus has been using our authorities under the 
National Response Framework (NRF) through interagency 
agreements to coordinate across the Federal agencies' existing 
authorities and existing funding to meet the needs of the 
humanitarian aspect of these children that were, for days, 
being held in detention cells. We worked with everybody from 
the General Services Administration (GSA), Department of 
Defense, within our own Department of Homeland Security, Coast 
Guard and others for transportation resources. The focus of our 
assignment has been on what we could do to either bring 
additional services in the field at the level that CBP had or 
assisting the Administration for Children and Families on 
getting more capacity to house children and process children. 
Through the interagency and through the National Response 
Framework, that has been our role.
    We have not used our authorities under the Stafford Act, 
nor have we used any disaster funds in that manner. We have 
used existing funding that we have had. Most of the additional 
assistance that FEMA has provided has been done through 
interagency agreements. That is actually built into the 
National Response Framework when we respond to disasters where 
there is not a Stafford Act event. This is similar to what we 
did in Haiti, when, under direction from the United States 
Agency for International Development (USAID), FEMA provided 
additional assistance in Haiti. We did that through interagency 
agreements where the fund transfers were done so that we were 
performing work under existing authorities and funding that 
agencies were authorized to do.
    But, since that time, we have added, in cooperation with 
all the partners, about 3,000 additional beds for children and 
families. Numbers have come down, but we still faced a problem 
of too many children that are in detention for more than 24 
hours, and too many children that are still within the custody 
of CBP for more than 72 hours before they are placed. Although 
we have made progress, that progress is oftentimes disrupted 
when we see sudden influxes of kids coming in faster than we 
can discharge them and we back up. The last week, we have seen 
our numbers drop, but we have not been successful yet in 
ensuring that no child is in a detention facility for more than 
24 hours and no child is in CBP's custody for more than 72 
hours.
    We work diligently, particularly through the work of the 
Administration for Children and Families, to try to make sure 
we are placing all of the youngest children. There was a 
massive effort this weekend to make sure that children under 
five were placed, and then we went to children under 12, to try 
to get as many of those children out of detention, to a bed, to 
an appropriate level of care.
    But, the children continue to come across the border. It is 
a very fluid situation. Again, we will continue our role until 
such time as the system is stable and children are being placed 
in a timely manner, and we will then at that point consider our 
part of this completed, Mr. Chairman.
    Chairman Carper. Thanks, Mr. Fugate.
    And, Gil, please proceed, Gil Kerlikowske.

  TESTIMONY OF HON. R. GIL KERLIKOWSKE,\1\ COMMISSIONER, U.S. 
  CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Kerlikowske. Yes, sir. Chairman Carper, Ranking Member 
Coburn, distinguished Members of the Committee, thank you for 
the opportunity to appear before you and to discuss the role 
that the United States Customs and Border Protection is doing 
in addressing this influx of unaccompanied children along the 
Southwest Border.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Kerlikowske appears in the 
Appendix on page 61.
---------------------------------------------------------------------------
    The Rio Grande Valley (RGV) area of Texas has experienced a 
significant increase in illegal entrants, including increased 
numbers of unaccompanied children and family units. Most of 
these are from El Salvador, Guatemala, and Honduras.
    I was confirmed for the position on March 7, and less than 
2 weeks later, I was in the Rio Grande Valley, in McAllen, 
Texas, to see this for myself and to look at the challenges 
that the men and women of Customs and Border Protection were 
facing. I have since made two return visits and I am completely 
focused on this to make sure that we do everything we can to 
address this increased flow of children crossing the border.
    The recent dramatic increase is difficult and distressing 
on a lot of levels. And, to date, this fiscal year (FY), the 
number of unaccompanied children encountered by CBP is over 
57,000. It has more than doubled compared to the previous year, 
and as of July 1, there were just over 2,600 unaccompanied 
children in our custody.
    Well, we are working closely with our counterparts to surge 
every available resource--personnel, facilities, equipment, 
supplies--to quickly, safely, and humanely process these 
children in accordance with the 2008 Trafficking Victims 
Protection Reauthorization Act (TVPRA) and to support the 
transfer of the custody to the Department of Health and Human 
Services. We are also surging resources to maintain border 
security operations. In addition, 115 Border Patrol agents were 
recently added to the South Texas area, and Secretary Johnson 
has also just added an additional 150 agents on top of that.
    Unaccompanied children are an incredibly vulnerable 
population, and while in our custody, they are provided 
shelter, medical assistance, and basic necessities. These may 
be adequate for a short-term stay, but CBP's facilities are 
clearly not designed, nor were services put in place, to 
accommodate such large volumes for an extended period of time.
    We are working with ICE and Health and Human Services and 
FEMA and others in the Federal partnership to ease these 
current conditions through the utilization of alternate 
facilities, the Nogales Placement Center in Arizona and a 
facility recently secured by the GSA for Customs and Border 
Protection to use in McAllen to process and temporarily hold 
children that are awaiting transfer to Health and Human 
Services custody.
    The Border Patrol has established medical units at our 
busiest border stations. We are conducting public health 
screenings. We have the assistance of the United States Coast 
Guard Corpsmen and the Public Health Services so that all of 
these adult and child detainees can receive medical care. FEMA 
has provided hygiene items, shower services, and many other 
things, services that have improved the care for these 
detainees in the past several months.
    Assistance from non-governmental and charity organizations 
have had a big impact on the governmentwide effort to 
accommodate these children, and I could not say enough about 
them. The additional support has provided relief to these law 
enforcement agents and officers who have been taking care of 
these kids.
    I have ben down there and witnessed firsthand these 
employees going above and beyond their regular duties. They are 
absolutely committed to making sure these children are treated 
in the most respectful and humane way, and, frankly, heartfelt 
way possible, under really difficult circumstances.
    We are working around the clock to address this issue. I 
appreciate the opportunity to be here, and I would certainly 
invite all of you to tour and to visit these facilities and to 
see some of this firsthand, and I know that some of you already 
have. Thank you.
    Chairman Carper. Thanks, Mr. Kerlikowske.
    And, Mr. Winkowski, you are recognized, please.

TESTIMONY OF THOMAS S. WINKOWSKI,\1\ PRINCIPAL DEPUTY ASSISTANT 
   SECRETARY, U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Winkowski. Thank you, Chairman Carper, Ranking Member 
Coburn, and Members of the Committee, and thank you for the 
opportunity to testify today about U.S. Immigration and Customs 
Enforcement's role in addressing the rise in apprehensions 
along the Southwest Border, namely the Rio Grande Valley, and 
our response.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Winkowski appears in the 
Appendix on page 61.
---------------------------------------------------------------------------
    And, Mr. Chairman, I would like to thank you for your 
support and for taking the time this spring to visit Mexico, 
Guatemala, and El Salvador in order to better understand the 
underlying causes of this surge. Thank you, sir, very much.
    Through the whole government, we are determined to address 
the situation in a manner that is comprehensive, coordinated, 
and humane. On May 12, Secretary Johnson declared a Level 4 
condition of readiness, which was the first step to bring the 
full interagency resources to bear. On June 1, President Obama, 
pursuant to the Homeland Security Act, directed Secretary 
Johnson to establish a unified coordination group. Craig talked 
about that. This group includes DHS and all of its components, 
the Department of Health and Human Services, Defense, Justice 
and State, and the General Services Administration.
    When CBP encounters a child attempting to enter the United 
States, CBP begins the interview process to determine the 
child's status, review available documentation, and determine 
if the child is accompanied by a parent or legal guardian. 
Under the Trafficking Victims Protection Reauthorization Act of 
2008, an unaccompanied child who is a national of Canada or 
Mexico may be permitted to withdraw his or her application for 
admission and be repatriated immediately. However, this is not 
true for the vast majority of children encountered in the Rio 
Grande Valley, because almost all of them are nationals of 
Honduras, Guatemala, and El Salvador, and according to TVPRA 
are required to be processed by receiving a notice to appear in 
order to see an immigration judge.
    Upon determining that an unaccompanied child does not have 
the option under TVPRA to withdraw his or her application for 
admission, CBP notifies ICE and the Department of Health and 
Human Services Office of Refugee Resettlement. Once HHS 
notifies CBP and ICE that a shelter bed is available pursuant 
to requirements of the law, it is ICE's legal responsibility to 
quickly and safely transport the unaccompanied child from CBP 
custody to an ORR shelter facility.
    ICE transports unaccompanied children via ground, 
commercial air, and ICE charter flights. In order to speed up 
the safe transportation of unaccompanied minors to ORR 
shelters, ICE has leased additional charter planes and is 
working closely with the Houston Airport Authority to have ICE 
escorting officers fly to Houston rather than making the trip 
to the Rio Grande Valley, where both inbound and outbound 
flights are limited. ICE is also using reverse escorting for 
unaccompanied children, where ICE Enforcement and Removal 
Officers (EROs) from other parts of the country are assisting 
in supporting the transportation needs in the Rio Grande 
Valley, thus allowing for more escorting capabilities.
    All 24 of ICE ERO Field Offices have primary and back-up 
juvenile coordinators, each of whom receive annual specialized 
training with respect to the unique vulnerabilities of 
children. In addition, ICE has detailed around 200 officers to 
the Rio Grande Valley to assist with the increased children and 
transportation needs.
    In addition, ICE has surged criminal investigative 
resources for the prosecution of those who smuggle the 
children. In May 2014, there were 163 arrests of smugglers 
along the Southwest Border. The Secretary has directed a 90-day 
surge of ICE Homeland Security Investigation Special Agents, 60 
personnel, to offices in San Antonio and Houston to work with 
the Department of Justice to ramp up our prosecutions of 
smuggling organizations.
    ICE is also building additional detention capability for 
adults who cross the border illegally in the RGV with their 
children. Recently, we have established a temporary facility 
for adults with children in Artesia, New Mexico, and you are 
welcome any time to visit. The establishment of this temporary 
facility will help CBP process those encountered at the border 
and allow ICE to increase its capacity to house and expedite 
the removal of adults with children in a manner that complies 
with Federal law.
    Finally, we have worked with the government of Honduras, El 
Salvador, and Guatemala to repatriate the adults quicker, which 
has resulted in a prompt issuance of travel documents moving 
from what took normally 14 days now to 3 days. Within the last 
several months, we have, therefore, reduced the expedited 
removal time of this population. For those adults who fall 
outside the expedited removal process, the repatriation period 
has also dropped. Within the law, we are sending this group 
back, and we are sending them back much quicker than we ever 
have done before.
    So, with that, Mr. Chairman, I conclude my opening 
statement and look forward to answering your questions. Thank 
you.
    Chairman Carper. Thanks for your testimony.
    Mr. Greenberg, you are recognized. Please proceed.

TESTIMONY OF MARK H. GREENBERG,\1\ ACTING ASSISTANT SECRETARY, 
 ADMINISTRATION FOR CHILDREN AND FAMILIES, U.S. DEPARTMENT OF 
                   HEALTH AND HUMAN SERVICES

    Mr. Greenberg. Thank you. Chairman Carper, Ranking Member 
Coburn, Members of the Committee, thank you for inviting me to 
talk with you about HHS's responsibilities in relation to 
unaccompanied children. Today, I want to talk about the steps 
that we take to care for the children when they are referred to 
us, our responsibilities to identify appropriate sponsors with 
which the children can live while they are awaiting enduring 
immigration proceedings, and the challenges we are facing as a 
result of the increased numbers of unaccompanied children.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Greenberg appears in the Appendix 
on page 66.
---------------------------------------------------------------------------
    Under the law, when an unaccompanied child is in CBP 
custody, they refer the child to us. We fund shelters through 
grants to nonprofit organizations, a number of which are faith-
based service providers. When a child arrives at a shelter, the 
child is provided with a complete medical exam within 48 hours, 
conducted by a doctor or a nurse practitioner. All children 
receive vaccinations and screening for tuberculosis.
    Soon after the child comes to us, shelter staff conduct an 
initial interview with the child. The interview is used as a 
first round of screening to determine if the child may be a 
victim of abuse, a victim of a crime, or a trafficking victim, 
and to determine if the child has any immediate mental health 
needs. These screenings determine whether the child needs 
specialized services, a home study prior to release to a 
sponsor, and whether the child is a potential victim of 
trafficking.
    Children in our shelters receive medical, dental, and 
mental health services, education services, opportunities for 
physical activities, a legal rights presentation, access to 
legal services, access to religious services, case management, 
and clinical counseling.
    While children are in our shelters, we seek to place them 
with appropriate sponsors. Under the law, we have a 
responsibility to place children in the least restrictive 
setting that is in the best interest of the child. To date, in 
fiscal year 2014, about 95 percent of children who have left 
our shelters were released to a parent or relative or a non-
relative sponsor. If there is no appropriate sponsor, the child 
stays in our shelters until they turn 18, at which point they 
are remanded to DHS custody, or in some cases, the child may be 
repatriated or may qualify for immigration relief.
    Before we release a child to a sponsor, we verify the 
sponsor's identity and relationship, if any, to the child. The 
staff conduct an assessment of the child's past and present 
family relationships and the relationship to any non-relative 
potential sponsor. There is a background check, including a 
public records check for criminal history, interviews with the 
child to discover any criminal or domestic violence concerns, a 
written assessment of the child and the sponsor that is 
completed by case managers and clinicians. A fingerprint check 
is required if any concerns are raised, including if there are 
concerns about the child's safety or if the sponsor is not the 
parent or legal guardian.
    As part of the process, HHS notifies potential sponsors 
that they have a responsibility to ensure that the child 
appears at all appointments and court proceedings relating to 
their immigration case, that the sponsor has a responsibility 
to cooperate if there is a removal order. HHS also informs 
sponsors of their responsibility to notify DHS and the 
Department of Justice of any change of address. HHS also 
notifies DHS of the name, address, phone number, and 
relationship of the child to the sponsor prior to the release 
to the sponsor, and, again, notifies after the release has 
taken place.
    In recent months, the number of children arriving has 
increased markedly, straining our ability to place children in 
shelters in timely fashion. We are actively working with our 
colleagues at DHS, Department of Justice, and other Federal 
agencies through the coordination efforts of FEMA, both to 
identify additional efficiencies, to shorten the time the 
children can be with us without jeopardizing child safety, and 
to expand the number of shelters that can be used to receive 
children.
    Over the last 3 years, we have reduced the amount of time 
children are in our custody from 72 days to less than 35 by 
identifying a number of efficiencies that do not compromise 
child safety, but we are continuing those efforts to identify 
additional ones.
    We have also worked to identify additional facilities, 
including the temporary facilities that have been made 
available to us from the Department of Defense at Joint Base 
San Antonio Lackland, Ventura Naval Station, and Fort Sill in 
Oklahoma. We are continuing in our efforts to identify both 
public and private facilities.
    It is a complex situation with a number of challenges. We 
welcome working with the Committee and Congress in efforts to 
address it. Thank you, and I will be happy to answer questions.
    Chairman Carper. Thank you, Mr. Greenberg.
    Mr. Palmieri, you are recognized and we welcome your 
testimony. Thank you.

TESTIMONY OF FRANCISCO PALMIERI,\1\ DEPUTY ASSISTANT SECRETARY 
   FOR THE CARIBBEAN AND CENTRAL AMERICA, BUREAU OF WESTERN 
          HEMISPHERE AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Palmieri. Mr. Chairman, Dr. Coburn, Members of the 
Committee, I am pleased to be here to discuss the Department of 
State's response to the sharp rise in the number of 
unaccompanied children arriving at our border, the direct link 
between this activity and dire economic and social conditions 
in the region, as well as the influence of smuggling networks, 
and what we are doing to further the national security 
interests of the United States. I appreciate your interest and 
look forward to working with you on this important issue.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Palmieri appears in the Appendix 
on page 76.
---------------------------------------------------------------------------
    The Administration is deeply concerned by the substantial 
increase in the number of children from Central America who are 
leaving their countries and attempting unauthorized immigration 
to the United States.
    The Department of State is implementing a five-part 
strategy. We are working on a common approach to the problem 
with the source countries of El Salvador, Guatemala, and 
Honduras, and with Mexico in its role as a transit country.
    We are creating an updated public messaging campaign with 
El Salvador, Guatemala, Honduras, and Mexico to discourage 
families from sending their sons and daughters on this 
dangerous journey.
    We are helping El Salvador, Guatemala, and Honduras expand 
their repatriation and reintegration efforts.
    We are working with Mexico to stop migrants at Mexico's 
Southern Border and interrupt the well-known smuggling routes 
used in Southern Mexico.
    And, finally, we are leading a new whole of government 
effort to address the underlying causes of this migration, 
especially the security concerns and lack of economic 
opportunity in the region.
    We know that these children are primarily arriving from El 
Salvador, Guatemala, and Honduras. Central America faces 
daunting economic, governance, and security challenges which 
impact the citizens of the region and the choices they make.
    Our vision for Central America is a secure, well governed 
region that creates opportunities for its people within its 
borders. This is the only path to diminish the factors driving 
high immigration flows.
    The political, economic, and social conditions in El 
Salvador, Guatemala, and Honduras are challenging, with extreme 
violence, endemic poverty, declining farm incomes, and weak 
public institutions, all combining to create an environment 
that many people want to abandon. Aggressive smugglers seek to 
exploit the situation.
    My colleagues from the Department of Homeland Security, 
Justice, and Health and Human Services have described the scope 
of the enormous challenges that they face in processing 
unaccompanied children, adults with children, and adults 
arriving at the border. They are working tirelessly to protect 
our borders, enforce our laws, and meet the pressing 
humanitarian needs of migrants, especially the children. This 
effort not only serves to enforce U.S. laws, but is also the 
right thing to do to help these vulnerable children.
    Our diplomatic engagement in support of this effort has 
been sustained and intense. Last month, Vice President Biden 
traveled to Guatemala and met with the leaders to establish 
that we all must take steps to stem the flow of undocumented 
migrants.
    In Panama on July 1, Secretary Kerry obtained agreement on 
greater collaboration from the three governments. And, on July 
3, all three nations' foreign ministers traveled to Washington 
to meet with nine different U.S. Government entities at the 
Department of State. At our request, all three countries have 
increased consulate staffing levels at the U.S.-Mexico border 
to expedite processing of unaccompanied children.
    The President spoke to Mexican President Enrique Pena Nieto 
in June about Mexican efforts to improve the security at its 
Southern Border. We are working with Mexico to accelerate its 
Southern Border strategy that will increase Mexican inspection 
and interdiction capacities and reduce human smuggling across 
Mexico's borders.
    As part of the broader interagency effort, we are also 
working to increase immediately the migrant repatriation 
capacity for El Salvador, Guatemala, and Honduras so that these 
governments can accept more migrants from the United States 
each week.
    Finally, the Department continues to focus on a longer-term 
approach to address the systemic issues Central American 
countries face and that are creating the push factors behind 
this phenomenon. We are applying a more balanced regional 
approach to integrate prosperity, security, and governance 
assistance in order to reduce the root causes that are driving 
migrants to the United States. However, we must be realistic. 
In order to achieve the substantial transformative change in 
Central America that truly will stem migration flows, all the 
governments must demonstrate the political will and necessary 
commitment. As Chairman Carper noted, it must be a shared 
responsibility.
    We will continue to work closely with Congress on a 
comprehensive whole of government approach that provides the 
necessary resources to meet this migration challenge.
    Thank you, and I look forward to answering your questions.
    Chairman Carper. Mr. Palmieri, thank you so much.
    Mr. Osuna, welcome and please proceed.

 TESTIMONY OF JUAN P. OSUNA,\1\ DIRECTOR, EXECUTIVE OFFICE OF 
         IMMIGRATION REVIEW, U.S. DEPARTMENT OF JUSTICE

    Mr. Osuna. Thank you, Mr. Chairman. Good morning, Mr. 
Chairman, Senator Coburn, and other Committee Members. Thank 
you for the opportunity to speak with you today about the 
Justice Department's Executive Office for Immigration Review.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Osuna appears in the Appendix on 
page 81.
---------------------------------------------------------------------------
    Our agency is responsible for conducting civil immigration 
removal proceedings throughout our immigration courts around 
the country and our appellate level, the Board of Immigration 
Appeals. Our caseloads follow immigration enforcement patterns 
along the border and in the interior of the country. Every 
individual that the Department of Homeland Security formally 
charges with being removable from the United States results in 
another case for our immigration courts. With nearly 375,000 
matters pending at the end of June, we are facing the largest 
caseload that the agency has ever seen.
    Overall, we have 243 immigration judges in 59 immigration 
courts around the country. Many of our courts are located at or 
near the Southern Border, including in San Diego, CA, El Paso, 
TX, and Harlingen, TX. Many of our courts are also located 
within ICE detention centers for efficiency reasons, including 
the border locations of East Mesa, CA, Eloy, AZ, and Port 
Isabel, TX.
    The highest priority cases for EOIR have been those 
involving detained aliens, and the agency has focused on the 
efficient and timely adjudication of such cases, which often 
involve individuals that DHS charges with being removable from 
the United States because of criminal activity.
    The current situation along the border is prompting us to 
reset our priorities across the entire immigration court 
system, not just courts near the border, but across the entire 
system, as, along with our Federal partners, we respond to the 
President's request, or directive, to focus additional 
resources on the cases of recent border crossers.
    From now on, the following four types of cases will be a 
priority for the entire immigration court system: unaccompanied 
children; detained cases involving adults who arrive with 
children; adults who arrive with children who are not detained 
because of lack of detention space currently, but who are 
released on alternatives to detention, such as electronic 
monitoring; and regular detained cases. This means that these 
cases will go to the front of the line for adjudication, and 
immigration judges will be assigned to make sure that these 
cases are heard promptly and ahead of all others.
    While in most cases there are already sufficient numbers of 
immigration judges assigned to hear regular detained cases, we 
will be assigning a significant number of judges to bring to a 
priority the other matters I mentioned, especially those of 
unaccompanied children and families who--or, adults who arrive 
with children in recent weeks.
    This change has consequences for the broader immigration 
court caseload. Cases not considered a priority will take 
longer to adjudicate. However, given the seriousness of the 
situation along the border, it is the appropriate response by 
our agency, a part of the all-hands-on-deck response that you 
mentioned, Mr. Chairman.
    The utmost priority for every case, however, will remain 
that every fact is considered and every application of law is 
correct and that people appearing before our immigration judges 
receive due process of law. We will do these cases quickly, but 
we will do them right.
    In order to continue to meet its mission of the timely 
adjudication of cases, EOIR must be provided with the ability 
to properly staff our immigration courts with the judges and 
staff that we need to process cases effectively and 
efficiently. In 2010, the Department and our agency placed a 
great deal of emphasis on the hiring of new judges, and this 
met with significant success as we were able to ramp up pretty 
quickly. However, the effects of funding constraints over the 
last few years resulted in a hiring freeze in 2011, and that 
has had a worsening impact on EOIR's operations, increasing the 
number of cases pending and extending court dockets further 
into the future.
    Earlier this year, the fiscal year 2014 Appropriations Act 
included funds enabling the Department to lift the hiring 
freeze, and we are in the process of hiring more than 30 new 
immigration judges that will be coming on board over the next 
few months, and those judges also, if necessary, will be 
assigned to prioritize the cases of recent border crossers.
    In March, the President sent his fiscal year 2015 request 
to Congress for additional funding, and the President's request 
once again includes good funding for EOIR that will enable us 
to hire more than 30 additional judges, if that is approved.
    And then, finally, I would like to highlight the 
President's request yesterday for supplemental funding that was 
transmitted. That includes funding for additional judge teams. 
It also includes some funding for additional efficiencies that 
will make these cases move through the court system more 
efficiently, and I ask for your support for that request, as 
well.
    Mr. Chairman, Senator Coburn, despite the large caseload 
that we face, we continue to meet every challenge presented, 
and this situation at the border is no different. With your 
support, we will contribute to the governmentwide response that 
is called for.
    Thank you for your interest, and I look forward to 
answering any questions you might have.
    Chairman Carper. Mr. Osuna, thanks so much for your 
testimony. Our thanks to all of you for excellent testimony.
    I just want to start off by going back in time little bit. 
I want to talk about two guiding principles for me. All of us 
have our guiding principles that come from different places--
our experiences, our parents, and so forth, our faith. For me, 
one of the guiding principles, John, actually came from being 
in Southeast Asia, the place where John McCain spent a whole 
lot more time than I did.
    But, I remember going into the makeshift office of my 
commanding officer (CO) in the Navy, my squadron. He had a 
cartoon blown up and mounted on his wall behind his desk, and 
it was a cartoon of one person, a guy, looking pretty 
disheveled, and on a very small island with one tree and being 
surrounded by alligators who were trying to get him. And, the 
caption under the cartoon was, ``It's hard to remember that 
your job was to drain the swamp when you are up to your 
eyeballs in alligators.'' It used a different word than 
``eyeballs.''
    But, for me, one of my guiding principles is to figure out, 
do not just address the symptoms of problems, but let us go to 
the underlying causes. We need to address the symptoms. There 
is a lot to do, and a lot we are doing, and a lot more we need 
to do, and we need to be your partner in doing that. We also 
need to make sure that we are addressing the underlying causes.
    The other thing that has been helpful to me in my life is 
to, in trying to figure out how to deal with a problem or a 
crisis, to ask the question, what is working someplace else? 
Figure that out and do more of that. Find out what works. Do 
more of that.
    John McCain was good enough to bring me down to Arizona 
more than a year ago to visit the border with Mexico in his 
State. I have been all the way along our border from the 
Pacific Ocean all the way over to the Gulf Coast. And, we have 
seen a dramatic change, one, in the people that are coming 
across, and we have seen a dramatic change in where they are 
coming across. It has kind of moved from West to East.
    There was a time when most of the folks that came across 
were Mexicans, as you know, a lot of them. And, we still have 
Mexicans who try to get into our country illegally, as you 
know, but not nearly as many as before. In fact, I am told that 
the net migration might actually be going the other way, back 
from our country into Mexico these days.
    Here is the first question I want to ask in terms of 
finding out what works and doing more of this. Why this shift 
in Mexican migration, almost to maybe an out-migration? Why has 
this occurred, and what can we learn from that?
    Mr. Kerlikowske. We have seen those changes that have been 
very dramatic. By the way, I think every CO must have had that 
same cartoon.
    But, we have seen those changes, and I think because of the 
work that I did for the President on the drug policy issues, 
the safety and security that has increased within the 
government of Mexico, the fact that economic opportunities are 
better now within Mexico, and we know that in the three Central 
American countries that we have been talking about, neither of 
those--economic opportunity nor safety and security--have been 
something to write home about.
    Chairman Carper. Others, please. Mr. Winkowski.
    Mr. Winkowski. Yes. Thank you for that question. I agree 
with what the Commissioner has said and I think you just have a 
whole different dynamic when you look at flows. We know with 
Central America the difficulties they have down there with 
their economy and other challenges. As time goes on, you are 
going to see other parts of the world, for example, India, 
migration from India into the United States, and we have 
already seen spikes of that in the last few years.
    But, the whole flow is changing. I just read yesterday 
where Mexico has signed a billion-dollar deal with BMW to build 
a factory down in Mexico. Creation of more jobs in Mexico, and 
to the Commissioner's point, the economy is prospering there. 
It does come down to, I think, so much come down to 
opportunity, and the folks that we are encountering on the 
border from Guatemala, Honduras, and El Salvador do not have 
that economic opportunity. Gangs, violence, as well as family 
members here, and that is what is driving it.
    Mr. Palmieri. Mr. Chairman----
    Chairman Carper. Yes, sir.
    Mr. Palmieri [continuing]. Also, I think you talk about 
what is working, and the trade integration that has happened in 
North America between the United States, Canada, and Mexico has 
created a growing prosperity in Mexico that has contributed to 
that new migration flows there. We do have a trade agreement 
with Central America. We need to push these countries to more 
actively integrate their economies and to take full advantage 
of that trade agreement and to expand economic opportunity and 
job creation in their own countries as a way of stopping this, 
as well.
    Chairman Carper. All right. Thank you.
    A couple weeks ago, the Vice President was just back from 
Guatemala--I think Secretary Johnson is actually there today, 
is he not? And, I was talking to the Vice President and I asked 
him, trying to find out what he learned, and one of the things 
he told me is that 80 percent of the kids, the young people, 
unaccompanied minors who are coming to this country--come from 
the worst neighborhoods, the worst communities, the most 
violent and dangerous neighborhoods, about 80 percent of them.
    I put myself as a parent. I am the parent of some adult 
sons. But, I put myself as a parent in Honduras, Guatemala, El 
Salvador, and I live in one of those communities with a lot of 
violence, not much opportunity, much chance for an education to 
get a job, and I hear that there are some folks that are 
willing to, for a couple thousand dollars, to take one or more 
of my kids out of that, through Mexico, across the border, 
welcomed there by our Border Patrol, who are required by law to 
do that and to accept and receive them, to care for them, and 
to eventually replace them in a safe setting, in many cases 
with their families, a member of their families, who may be 
undocumented, who may be undocumented themselves. Now, that is 
a strong magnet to pull young people out of those three 
countries and to send them North, through hellacious 
conditions, in many cases.
    The idea of putting my kids, when they were 4, 5, 6 years 
old on top of a train and send them halfway across the 
country--not in a train, not in a passenger train, on top of a 
freight train, moving, for 1,500 miles--I mean, who can imagine 
doing that? These people are desperate.
    And, if I were in that situation, I might do the same 
thing. How do we get to the people and change that mindset? How 
do we change that mindset to turn off the flow so the parents 
will say, damn it, I want my kid to stay here, have an 
opportunity, have a future here. How do we do that?
    Mr. Winkowski. I think there are several steps. I think, 
for instance, Gil talked about some of those. I think we have 
to continue to work with Guatemala, El Salvador, and Honduras 
on capacity building. We need to stress to them the importance 
that they secure their borders. I know during my time in CBP 
that the Border Patrol and Office of Field Operations sent a 
lot of time in Guatemala stressing and showing different 
training and things of that nature. I have not been down to the 
border, but from what I have been told, it is very porous and 
it is wide open. So, we need to build capacity there and DHS is 
the best in the business there when you are looking at, whether 
it is the borders or the detention sites. So, we have to 
continue to focus in on that.
    I think the other area is Mexico. You talked about that. I 
think we need Mexico to continue to move forward here in 
helping us. As you mentioned, these people are just walking 
through Mexico, using Mexico as a transportation corridor and 
showing up on our doorstep. We are America, and we do the right 
thing for these kids and for these adults. But, nonetheless, it 
wears on the system.
    When you do apprehend, then you have to have a policy where 
these individuals are detained and brought through the system 
quickly and a decision is made whether the people get to stay 
here or they are removed, and if they are going to be removed, 
they have to be removed quickly so it sends a message, if you 
will, the deterrent factor. We are seeing that happening now, 
Mr. Chairman, in Artesia, our new facility that we have that we 
just opened up in Artesia, New Mexico, for family units. We are 
already seeing people saying that, ``I did not realize I was 
going to detention. I thought I was going to be released.'' 
With the Director's support and his judges, our removal 
hearings are moving much quicker.
    That begins that process of sending the deterrent message. 
If we are going to be successful, in my view, that is what we 
have to do, and I will tell you that Guatemala, El Salvador, 
and Honduras have been pretty good partners for us. I mentioned 
in my statement that we took removal from 14 days to 4 days, 
and a lot of that had to do with those three countries giving 
us travel documents much more quickly. So, they have been a 
good partner in that regard, but there is a lot more work to be 
done.
    Chairman Carper. OK. Thanks.
    With that, I am going to stop and yield to Dr. Coburn. 
Thank you all.
    Senator Coburn. Mr. Palmieri, what actually is Mexico doing 
to help us on this problem right now?
    Mr. Palmieri. Dr. Coburn, in the last year, Mexico has 
returned over 85,000 adults and children from its territory 
back to Central America. In the current calendar year, they are 
on pace to return over 90,000 adults and children back to the 
countries of El Salvador, Guatemala, and Honduras. On Monday, 
President Pena Nieto announced the launch of its Southern 
Border Strategy, which they hope will increase their ability to 
interdict and disrupt these smuggling networks.
    Senator Coburn. All right. Thank you.
    Mr. Winkowski, I have a question for you. I have recently 
spoken to a whistleblower, an ICE agent in a regional office, 
who shared with us over ten--if we could get those posters\1\ 
up--documented examples of terminated notices to appear for 
unaccompanied alien children (UAC), which you can see in these 
posters. The reason for these terminations therein resulting in 
any and all removal proceedings is listed as prosecutorial 
discretion. This term is written ``PD'' on these documents, 
transmitted back to the ICE agents.
---------------------------------------------------------------------------
    \1\ The posters submitted by Senator Coburn appear in the Appendix 
on page 88.
---------------------------------------------------------------------------
    Explain to me, if you would, prosecutorial discretion in 
the context of canceled notices to appear. Under what policies 
and procedures does the Office of Chief Counsel issue these? 
What is the reason that they are issued? What happens to 
illegal alien children once their Notice to Appear (NTA) is 
canceled? Is there followup? In the specific examples provided 
to us by this ICE agent, PDs were issued for minors. So, what 
is the status of a child given once their NTA is terminated 
through a PD? What followup is conducted to ensure the child's 
welfare? And, is the child able to attend school with no 
status?
    Mr. Winkowski. Well, obviously, we have prosecutorial 
discretion. We have the Morton memo that is really the document 
that guides what our priorities are and lays those out, I 
think, very clearly. I am not familiar with this particular 
case. I have learned in this business, in my short time over at 
ICE, if you look at one case--if you have seen one case, you 
have seen one case. I do not know all the details why the NTA 
was declined to be filed. I will be more than happy to look 
into it, but I am unfamiliar with this.
    Senator Coburn. Do you have any idea how often this 
happens----
    Mr. Winkowski. No, I do not.
    Senator Coburn [continuing]. With children?
    Mr. Winkowski. No, I do not. No.
    Senator Coburn. All right.
    Mr. Winkowski. I know that all the children, sir, are given 
NTAs and entered into removal proceedings.
    Senator Coburn. Well, I would appreciate any feedback you 
can give me on that.
    Mr. Winkowski. Absolutely, sir.\1\
---------------------------------------------------------------------------
    \1\ The response to the question submitted by Senator Coburn 
appears in the Appendix on page 131.
---------------------------------------------------------------------------
    Senator Coburn. Mr. Greenberg, once the Department of 
Health and Human Services releases an unaccompanied child to a 
sponsor with a notice to appear before an immigration judge, 
does HHS report to the Department of Homeland Security on the 
number of UACs who have been released on their own 
recognizance?
    Mr. Greenberg. Dr. Coburn, we do not release the 
unaccompanied children on their own recognizance. We are only 
releasing them to a parent or relative or other sponsor. At the 
time that we do the release to that individual, we provide the 
information about the whereabouts of the child to the 
Department of Homeland Security, both immediately prior to and 
immediately after the release.
    Senator Coburn. And the names of who they are placed with?
    Mr. Greenberg. Yes. We provide that information to the 
Department of Homeland Security.
    Senator Coburn. Do you, after that fact, track these 
children to ensure they appear at their immigration hearing?
    Mr. Greenberg. We do not play that role. After the time 
that we release the child, then the subsequent issues relating 
to the immigration proceeding itself will be the 
responsibilities of the Department of Justice.
    Senator Coburn. OK. In a June conference call with 
congressional staff, HHS stated they are not mandated nor will 
they be checking the immigration status of relatives or 
sponsors for the unaccompanied children. I am interested in the 
procedures HHS uses to verify the identity and immigration 
status of the individuals to whom the unaccompanied child is 
released. To clarify, does HHS verify the immigration status of 
the sponsors to whom the unidentified children are released?
    Mr. Greenberg. We verify the identity of the individual.
    Senator Coburn. Well, that was not the question I asked 
you. The immigration status.
    Mr. Greenberg. We do not verify the immigration status of 
the individual. Our focus in the release is, first, identifying 
the least restrictive setting in the child's best interest. As 
we do that, we also need to look at safety to the child, safety 
to the community, risk of flight. We go through the overall 
process of looking at the individual placement to ensure that 
it is a safe and appropriate placement for the child----
    Senator Coburn. OK. Let me ask you a followup question. Is 
it not true that if you place an unaccompanied child with an 
illegal alien sponsor, that the significant likelihood is they 
would not want to bring that child to a deportation hearing 
before an immigration judge for fear they would expose their 
own illegal status?
    Mr. Greenberg. As we go through the process of identifying 
sponsors, we ensure that the sponsor understands they have a 
responsibility to make the child available for proceedings, 
including removal.
    Senator Coburn. Again, that is not the question I asked 
you. The question I asked you was, would it not be likely that 
they would not comply, regardless of whether you tell them that 
is their responsibility? If, in fact, they are an illegal alien 
to begin with, why would they expose themselves in front of an 
immigration judge?
    Mr. Greenberg. For the child in those circumstances, this 
is about who the child should live with while they are awaiting 
the removal proceedings and during the removal proceedings, 
and----
    Senator Coburn. You are missing my point.
    Mr. Greenberg [continuing]. Again, the sponsor has the 
responsibility.
    Senator Coburn. My point is, I am all for having the 
children in the best place. Do not get me wrong. But, if you 
are not checking the immigration status of those that you place 
with them, and if, in fact, they are not here legally, the 
likelihood that they are going to show up before a judge is 
markedly diminished because it exposes them. So, the question I 
would ask you is why you all do not ask for status of the 
people that you place these children with.
    Mr. Greenberg. The specific aspects of what happens in the 
proceedings are, I think, best addressed by my colleague at the 
Department of Justice----
    Senator Coburn. No, I understand that. I am asking you the 
question, why you do not ask the status of the people with whom 
you are placing the child.
    Mr. Greenberg. The----
    Senator Coburn. Why do you not ask that question, because, 
in all likelihood, they are not going to show for an 
immigration hearing.
    Mr. Greenberg. For us, the focus needs to be on a safe and 
appropriate placement for the child.
    Senator Coburn. So, you are not going to answer my 
question. Why do you not ask that question of those people with 
whom you are placing these children?
    Mr. Greenberg. Even if we had the information as to the 
parent or other relative's immigration status, we would still 
at that point need to look at the totality of the 
circumstances.
    Senator Coburn. I do not disagree with that. I am asking 
you why you do not ask that question.
    Mr. Greenberg. Sir, the reason----
    Senator Coburn. Is it the policy of HHS not to ask the 
status of those people with whom you are placing the child?
    Mr. Greenberg. We do not specifically inquire as to the 
immigration status.
    Senator Coburn. Is that the policy of HHS of this country?
    Mr. Greenberg. Yes, it is----
    Senator Coburn. All right. Thank you.
    Mr. Greenberg. That is the case. Yes.
    Chairman Carper. All right. Let me just run through the 
order of those who came--my colleagues who have come into 
participate. Senator McCain was an early arriver. Senator 
Johnson, next. Senator Ayotte, next. She just left. She will 
probably be back. Senator Baldwin. Senator Heitkamp. Senator 
Landrieu.
    And, Senator McCain, I just want to say, thank you for 
encouraging us to hold this hearing. We have another next week. 
And, thank you very much, again, for hosting me down in your 
State a year ago. Thank you. And, for all the work that you 
have done on the immigration reform legislation. Senator 
McCain.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Thank you, Mr. Chairman, and thank you for 
holding this hearing and I thank the witnesses.
    Mr. Greenberg, the President of the United States, 
according to an article in the Atlantic, met with a group of 
advocates and others, the Coalition for Humane Immigrant Rights 
and others, and according to this article, ``He told the groups 
he had to enforce the law--even if that meant deporting hard 
cases with minors involved. Sometimes, there is an inherent 
injustice in where you are born, and no President can solve 
that, Obama said. But Presidents must send the message that you 
cannot just show up on the border, plead for asylum or refugee 
status, and hope to get it. Quote, `Then anyone can come in, 
and it means that, effectively, we do not have any kind of 
system,' Obama said. Quote, `We are a nation with borders that 
must be enforced.' ''
    Do you agree with that statement, Mr. Winkowski and Mr. 
Greenberg?
    Mr. Winkowski. Yes.
    Senator McCain. Then, I wonder why anyone would question 
the motivation for young people to come here, since the latest 
information we have, that in fiscal year 2013, 20,805 
unaccompanied children from El Salvador, Guatemala, and 
Honduras were apprehended by the Border Patrol. In that same 
year, 2013, 1,669 of these unaccompanied children were 
repatriated to their home countries. If you were one of these 
children and you were there in one of these countries, would 
you not think your odds are pretty good?
    Mr. Winkowski. Yes, but there is a legal process and that 
process takes time to make its way through the system, and that 
is part of the challenge that we have the Director talked about 
from the standpoint of staffing of judges and just the legal 
process that takes place. It takes time to get to a point of 
removal in some of these cases.
    Senator McCain. But, despite what you have to say, Mr. 
Winkowski, if you are sitting there in El Salvador today and 
one out of 10 do not even show up when they get the permiso 
slips--only one out of 10 show up actually before a judge, is 
that not true?
    Mr. Winkowski. I have heard that number, yes.
    Senator McCain. You have heard that number?
    Mr. Winkowski. Yes.
    Senator McCain. You do not know?
    Mr. Winkowski. I have heard various numbers, but that is 
one of them. It is----
    Senator McCain. Well, is that a valid number?
    Mr. Winkowski. That is a number----
    Senator McCain. You would not even know how many, what 
percentage do not show up with a permiso slip?
    Mr. Winkowski. Well, that is--for the judge?
    Senator McCain. Yes.
    Mr. Winkowski. For the EOIR? Perhaps the Chief Judge can 
help me on that.
    Mr. Osuna. Senator, if I may----
    Senator McCain. Yes.
    Mr. Osuna. I have heard the 90 percent number, and that 
number is actually not accurate.
    Senator McCain. Well, what is the accurate number?
    Mr. Osuna. The accurate numbers that we have is for all 
juvenile cases. Now, these are not subdivided unaccompanied 
minors. Our database----
    Senator McCain. It should be subdivided unaccompanied 
minors, Mr. Osuna. They are the ones that are coming.
    Mr. Osuna. We are working with our partners to try to get 
better data on the actual numbers. But, the numbers for 
juveniles that we have, and then we have overall numbers. The 
number that we have is that 46 percent of juveniles actually do 
not show up for their immigration hearings----
    Senator McCain. So, half the people. Only half the people 
do not show up.
    Mr. Osuna. That is correct.
    Senator McCain. I see.
    Mr. Osuna. Now, I should note, however, that not showing up 
for an immigration hearing carries considerable consequences. 
Whether you are an adult or a child or anybody that actually is 
issued a notice to appear and is required to appear before an 
immigration judge and does not appear, that judge then issues, 
essentially, an order of removal, and that order of removal can 
be enforced after them not showing up.
    Senator McCain. But, the fact is, in 2013, 1,669 out of 
20,805 were actually in that year returned. That is one out of 
20, roughly. So, I mean, the fact is that people show up and 
they have every reason to believe, according to these numbers--
and I will be glad to look at your numbers, even if it is only 
half--that there is ample incentive for them to come to this 
country.
    The President initially said that he believed that the 
Trafficking Victims Protection Act, which would provide the 
same status for Central America as we have for Mexico and 
Canada, that amendment would be supported. Do you support that, 
Mr. Winkowski?
    Mr. Winkowski. I support a system, whether it is----
    Senator McCain. I just asked if you support amending the 
bill. I am not asking what you support. I am asking if you 
support amending the bill.
    Mr. Winkowski. Yes.
    Senator McCain. Thank you.
    Mr. Winkowski, I have been representing the State of 
Arizona for many years, and I have never seen anything like 
your instructions to--signed by your name--Interim Protocol for 
Visitations and Tours to CBP Detention Facilities. Are you 
telling me when I visit a detention facility that I cannot 
bring a cell phone with me? Are you saying that? A U.S. Senator 
visiting a facility, these are the instructions that you have 
signed? Is that what you are saying?
    Mr. Winkowski. That the visitors cannot bring cell phones--
--
    Senator McCain. A visiting Member of Congress?
    Mr. Winkowski. I do not recall saying that. What I recall 
has been some time----
    Senator McCain. Let me provide you with a copy. It says, 
see distribution, R. Gil Kerlikowske, Commissioner, Interim 
Protocol for Visitations and Tours to CBP Detention Facilities. 
You did not see your own memo?
    Mr. Kerlikowske. That would be me.
    Senator McCain. OK.
    Mr. Kerlikowske. I did issue that memo, and we have had 
huge numbers of----
    Senator McCain. Am I allowed to bring a cell phone with me 
when I go onto a facility in Nogales, Arizona?
    Mr. Kerlikowske. Not to take photographs----
    Senator McCain. I am not allowed to take photographs.
    Mr. Kerlikowske. Not to take photographs inside the 
facility.
    Senator McCain. Why not? Why am I not allowed to do that?
    Mr. Kerlikowske. The children have a right to privacy and 
that is why we are not having their faces shown on media clips.
    Senator McCain. I may want to take a photo of something 
else. And also, in your----
    Mr. Kerlikowske. I think if you wanted to take a photo, we 
would certainly make arrangements for you to take a photo, just 
not of the children.
    Senator McCain. That is not the instructions that you have 
given, sir. Have any physical or verbal contact with detained 
children unless previously requested and specifically--oh, have 
any physical or verbal contact with CBP detainees and/or staff. 
Are you telling me that I cannot even speak to the staff there?
    Mr. Kerlikowske. Senator, I am not telling you you could 
not speak to the staff. We would make arrangements----
    Senator McCain. Well, why did you issue these instructions?
    Mr. Kerlikowske. We have had requests by hundreds and 
hundreds----
    Senator McCain. I am talking about Members of Congress, 
sir, which you said applies to Members of Congress. I am not 
asking about the hundreds. I am talking about the 
responsibilities I have in my own State.
    Mr. Kerlikowske. It does, and we would make special 
arrangements for special consideration, Senator.
    Senator McCain. But that is not according to your 
instructions, and when I was there, then the Border Patrol and 
the people there said that they did not want me speaking to any 
of the staff or children. I view that as a violation of my 
responsibilities.
    Mr. Kerlikowske. I am not familiar with your----
    Senator McCain. They were carrying out your instruction, 
sir. I want it fixed, and I want it fixed immediately, 
understand? If a Member of Congress cannot visit a facility in 
his own State, and the people of Arizona elected me and I am 
not supposed to even carry a cell phone with me, you have 
overstepped your responsibilities and your authority, sir, and 
I want those instructions revoked as far as Members of Congress 
are concerned and I want it done today. Do you understand?
    Mr. Kerlikowske I understand.
    Senator McCain. Thank you, Mr. Chairman.
    Chairman Carper. Our next Senator to be recognized is 
Senator Johnson.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Thank you, Mr. Chairman.
    I come from manufacturing, so root cause analysis is just 
in my DNA. And, Mr. Chairman, I think you asked the right 
question. How do we stop the flow?
    From my standpoint, what is causing all the illegal 
immigration in this country is we are actually incentivizing 
it. But, when we pass, I am sorry, a comprehensive immigration 
bill in the Senate that includes $262 billion in welfare 
benefits to non-U.S. citizens, that creates an incentive. When 
we are asking for $3.7 billion to beef up detention facilities, 
to allow a greater time for adjudication, that is creating 
incentive. As we are talking about, we are not turning these 
people back. We are actually incentivizing parents to put their 
kids at great risk coming across Mexico because they know if 
they reach the promised land, they are home free. We are 
creating incentive.
    And, of course, when President Obama 2 years ago issued a 
memorandum, Deferred Action on Childhood Arrivals (DACA), which 
basically codified the fact that we are not going to send 
people home, we are creating that incentive. And, we are trying 
to stop human trafficking. Are we actually increasing it, 
because we have smugglers earning $3,000 per child?
    So, I guess I would like to, first of all, if we are going 
to solve the problem, let us understand the numbers. Mr. 
Kerlikowske may be the best person to answer this, or somebody 
else. How many unaccompanied children, have come into this 
Nation since DACA was first issued 2 years ago? How many kids?
    Mr. Kerlikowske. I have the number of children that have 
been apprehended in this, or encountered in this fiscal year at 
57,000.
    Senator Johnson. OK----
    Mr. Kerlikowske. I can certainly give you the information 
on going back to when DACA----
    Senator Johnson. OK. I would like that.\1\
---------------------------------------------------------------------------
    \1\ The response to the question submitted by Senator Johnson 
appears in the Appendix on page 148.
---------------------------------------------------------------------------
    Mr. Kerlikowske. OK.
    Senator Johnson. Of those 57,000, how many have been 
returned?
    Mr. Kerlikowske. The United States Customs and Border 
Patrol is in the apprehension----
    Senator Johnson. OK. So, who would know the----
    Mr. Kerlikowske. We do not----
    Senator Johnson. Who would know the number of how many of 
those have been returned?
    Mr. Winkowski. The numbers I have that were talked about 
1,300, 1,500.
    Senator Johnson. OK. So, a very low percentage----
    Mr. Winkowski. Very low----
    Senator Johnson [continuing]. As Senator McCain was talking 
about.
    Mr. Winkowski. Yes.
    Senator Johnson. How many of those are from Mexico? Of the 
57,000, how many are Mexican citizens?
    Mr. Kerlikowske. The breakdown has been that Honduras, El 
Salvador, Guatemala contain about 78 to 82 percent of the 
people that we have encountered. The rest are from other 
countries, including Mexico. A smaller number from Mexico.
    Senator Johnson. OK. The point I am trying to get at is in 
the 2008 bill, we did create some expedited procedures for 
people from contiguous nations, right, Mexico and Canada. So, 
are we following those expedited procedures? So, if we have 
illegal immigrants coming from Mexico, are we actually 
expediting those procedures? Who can answer that? The 
Department of Justice? HHS? I mean, who is doing this?
    Mr. Winkowski. Yes. If I remember the numbers correctly, 
and I will stand corrected, I think last year, Border Patrol 
did expedited removal on 11,000 children, I believe, that made 
its way onto United States and did an expedited removal. Very 
little activity up on the Northern Border.
    Senator Johnson. I would not doubt that.
    Mr. Winkowski. Yes. Best of my recollection during my time 
there, Border Patrol was using expedited removal.
    Senator Johnson. What is the timeline for deportation? I 
mean, how long does it take to go through this adjudication 
process? Let us first talk about for the expedited procedures 
for Mexicans, and then I want to talk about other-than-Mexican 
(OTM).
    Mr. Winkowski. Well, my understanding on expedited removal 
for it is virtually immediate for people that come in that are 
eligible under expedited removal.
    Senator Johnson. Well, if there are 20 percent that are 
basically Mexican, which would be expedited procedures, 20 
percent of 57,000 would be roughly 10,000, right?
    Mr. Winkowski. Yes.
    Senator Johnson. Ten to 11,000. Why are we only deporting 
1,700----
    Mr. Winkowski. I remembered a number of 11,000 that Border 
Patrol executed from an expedited removal standpoint. But, 
under the expedited removal process, you have to determine a 
couple things, and then that person----
    Senator Johnson. So, how long does that take to determine 
those couple things?
    Mr. Winkowski. My understanding is, under expedited 
removal, it is very quick. It can be the same day, assuming----
    Senator Johnson. Again, so, if 20 percent of the 57,000 
unaccompanied children are Mexican, subject to those expedited 
procedures, it could be the same day. How come we have only 
deported, what is it, Senator McCain, 1,700, when the number is 
closer to 10,000 or 11,000?
    Mr. Winkowski. Well, I think the number that I was quoting 
was from the Central American countries. It did not include 
Mexico. I am trying to break them into different buckets here.
    Senator Johnson. OK. Mr. Kerlikowske.
    Mr. Kerlikowske. Senator, the vast majority of immigrants 
that are here illegally that are apprehended at the border from 
Mexico are returned almost within the same day, and that they 
move very quickly.
    Senator Johnson. So, are the unaccompanied children from 
Mexico not counted in your 57,000?
    Mr. Kerlikowske. A part of those 57,000 are those 
unaccompanied children from Mexico. Many of them are returned 
within the same day, and I will be happy to give you----
    Senator Johnson. So give me those. I want to know----
    Mr. Kerlikowske. I would be happy to give you those----\1\
---------------------------------------------------------------------------
    \1\ The response to the question submitted by Senator Johnson 
appears in the Appendix on page 150.
---------------------------------------------------------------------------
    Senator Johnson. So, I want to go to the Department of 
Justice, then. How long does it take in terms of other-than-
Mexico, other-than-Canadians, to actually go through the 
adjudication process and actually be deported?
    Mr. Osuna. So, Senator, our immigration court system has no 
direct role with the expedited removal process. So, let me talk 
about the process whereby somebody actually gets brought into 
the country and then put through removal proceedings through 
our court system.
    We break these down between detained and non-detained. If 
you are in a detained docket, in other words, about more than 
40 percent of our dockets currently are individuals who are 
detained while awaiting a hearing before an immigration judge. 
Those cases tend to move pretty quickly. I do not have a number 
for you, but they move within a matter of a few weeks to a few 
months. If they are on the non-detained dockets, those are the 
ones that take a long time.
    Senator Johnson. So, again, a few weeks, few months, but we 
have only returned a fraction of the 57,000 that we are talking 
about here. So, I mean, again, what you are saying does not add 
up with what the numbers are.
    And, let me just make my final point because I am running 
out of time. I have run out of time. I cannot think of a more 
humane thing to do, even though it maybe sounds a little cruel, 
than to deter parents from sending their children to the United 
States, and I cannot think of a better way to deter parents 
from doing that as to literally take these minors, identify 
where they came from, I have gone online. It costs $207 on a 
one-way trip in terms of a plane flight.
    Put them into a hotel, feed them, and return them to the 
country of origin, because I cannot think of a better signal to 
parents in Guatemala, El Salvador, and Honduras to say, do not 
subject your children to the beast. Do not subject your 
children to rape and murder. Do not send them to the United 
States, because when they get here, they will not be allowed to 
stay.
    There are seven billion people in this world that do not 
live in America. Many of them would like to come. And, we have 
to come to a decision in this country whether we are going to 
have totally open borders or we are going to have a legal 
immigration system, which I want to fix this. But, we have to 
address the root cause in this, and the root cause literally is 
we have to stop incentivizing parents and other immigrants 
coming into this Nation.
    Thank you, Mr. Chairman.
    Chairman Carper. OK. Next in the questioning, Senator 
Ayotte would be next, but she stepped out for a moment. Senator 
Baldwin, you are up, and then Senator Heitkamp, when she comes 
back, and if she does not, then Senator Landrieu. Senator 
Baldwin.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you, Mr. Chairman. I appreciate our 
witnesses for being here today for a very important hearing.
    I want to start with a little questioning on what data and 
statistics we do have available. I know there are a lot of 
questions about why, and how long this has been going on. We 
have some very recent statistics that have been shared, but I 
would like to get a better sense of what is out there and what 
you can furnish to us as a followup to this hearing.
    And, so, I start with I know you are fairly new to the post 
Mr. Kerlikowske. You talked about 57,000 unaccompanied minors 
this year. In terms of border crossings of unaccompanied 
minors, can you give us month-by-month, year-by-year data, 
going back over several years? We have sort of declared crisis 
in recent months, but it seems to me that this is of some 
duration this trend began.
    Mr. Kerlikowske. You are absolutely right, Senator. The 
increase this year, so far--and we still have 3 months left in 
this fiscal year--has doubled from the year before, and that 
year doubled from the year before. In early 2013, a number of 
interagency colleagues, Department of Homeland Security, 
Department of Justice, Health and Human Services, all met to 
begin to address this issue, particularly in the Rio Grande 
Valley. We can give you details going back, month-by-month, 
year-by-year.
    Senator Baldwin. OK. And, I would appreciate that.
    And then, Mr. Winkowski, I am curious to know, also, what 
sort of data you could provide us. We heard testimony in an 
order of border crossings and then issuance of notices to 
appear, and then, of course, unaccompanied minors referred to 
HHS. Mr. Winkowski, can you provide us with year-by-year and 
month-by-month data on the issuance of notices to appear to 
unaccompanied minors?
    Mr. Winkowski. Absolutely. Yes.
    Senator Baldwin. OK.
    And then, Mr. Greenberg, you receive referrals from 
Immigration and Customs Enforcement. Can you also provide, and 
would you characterize for us, before providing that specific 
and more granular data, the numbers that you have been seeing 
recently?
    Mr. Greenberg. Yes, and we would be able to provide, for 
the children that are referred to us, country of origin, sex, 
the age of children, and then when the child goes to a parent, 
relative, or other sponsor, what the nature of that placement 
is.
    Senator Baldwin. OK. That will be appreciated.
    And then, Mr. Osuna, you gave us some very recent 
statistics on record levels of cases pending, but I would also 
appreciate, again, a longer timeline and more granular data for 
us to get a greater understanding than your testimony provided.
    Mr. Osuna. I will be happy to provide that, Senator.
    Senator Baldwin. I am not sure who to direct it to, but I 
think I would start with Mr. Palmieri--about what do we know 
about migration of unaccompanied minors from Honduras, El 
Salvador, and Guatemala to other Central American countries or 
South American countries? What sort of anecdotal or statistical 
information could you share on that?
    Mr. Palmieri. It appears the primary route that Salvadoran, 
Guatemalan, and Honduran migrants and unaccompanied children 
are taking are north. There are reports that some do seek to 
stay in Mexico, if they can. Part of the Mexican effort at the 
border with Guatemala is they are trying to issue better 
documentation of people who are entering their country so that 
they can track those visitors in a better way as they move 
through the country and to see where they are ending up. It is, 
without a doubt, the large numbers end up at our border.
    Senator Baldwin. Absolutely.
    For Mr. Osuna, we know that many of these unaccompanied 
minors have fled violence. We also know that many have arrived 
in the United States in the hand of human traffickers and may 
have been further victimized on the route to the U.S. border. 
Under the Trafficking Victims Protection Reauthorization Act, 
and understanding that asylum officers operate under a 
different department than you, could you still tell us the 
standards by which those officers and immigration judges, upon 
review, will determine which children qualify for asylum or 
Special Immigrant Juvenile Status and, therefore, can remain in 
the United States under the 2008 law.
    Mr. Osuna. Senator, the rules for asylum that our 
immigration judges apply in children's cases, in terms of the 
legal standards, are the same as all other asylum applicants. 
They are set in statute and regulation and interpreted over the 
years by case law. That is not any different whether the person 
appearing before a judge is an adult or the child. What is 
different is the process.
    If a child is eligible for, or appears to be eligible and 
wants to apply for asylum or Special Immigrant Juvenile Status, 
the initial jurisdiction over those cases actually rests with 
U.S. Citizenship and Immigration Services (USCIS) at DHS. So, 
what the judge has to do is basically suspend adjudication of 
that case for the moment, refer the case over to DHS, USCIS for 
adjudication, and they make the initial call on, again, asylum 
or Special Immigrant Juvenile.
    Senator Baldwin. You mentioned that the standards were the 
same regardless of being a minor or an adult.
    Mr. Osuna. Generally speaking----
    Senator Baldwin. Remind us.
    Mr. Osuna [continuing]. An individual applying for asylum 
has the burden of showing that he or she fears persecution--has 
a well-founded fear of persecution is the legal standard--based 
on one of five grounds: Race, religion, nationality, political 
opinion, or membership in a particular social group. And that 
is law going back to the 1980 Refugee Act and our international 
obligations.
    Senator Baldwin. Thank you.
    Chairman Carper. Senator Baldwin, thanks so much.
    Senator Heitkamp would be next. She is not here just now. 
Senator Landrieu, followed by Senator McCaskill.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman. First, let me 
thank you for calling this hearing. It is extremely important, 
very timely, given that the President is asking for a $3.7 
billion supplemental, which came to Congress and the 
Appropriations Committee members, of which I am one and the 
Chair of the Senate Appropriations Committee's Subcommittee on 
Homeland Security. The Appropriations Committee will have to 
really carefully consider as to how we are going to allocate 
these dollars to solve the problem.
    No. 2, I cannot think of two better people, literally, who 
have calm thinking about how to figure this out and to get to 
the root of the problem and then to help us to allocate the 
dollars wisely and then hold people accountable for doing the 
job. You two have proven yourselves, and both Senator Carper 
and Senator Coburn, you have particularly been strong on 
accountability, which is what I would like to join both of you 
on.
    But, I think, first of all, I want to make sure--and it was 
just said, finally--the laws that are governing this, because 
there is some confusion. And, I just want to submit to the 
record\1\ what my staff and I have been researching about the 
laws, because I think we should start there, and then policies 
and rules that may need to be adjusted or changed, or perhaps 
some laws need to be changed.
---------------------------------------------------------------------------
    \1\ The information submitted by Senator Landrieu appears in the 
Appendix on page 89.
---------------------------------------------------------------------------
    But, the basic law--you just said it--is the Asylum Law of 
1980. Could somebody talk for 30 seconds--about the Asylum Law 
in 1980 and what it said. Go ahead.
    Mr. Osuna. The 1980 Refugee Act, which is enshrined in our 
statutes these days, implemented our international obligations 
with regard to refugees.
    Senator Landrieu. Adults and children show up at our 
borders. Talk about that.
    Mr. Osuna. And it is, by the way, the same law that our 
colleagues at the State Department apply overseas for refugee 
processing overseas. But, if anybody who arrives at our 
shores----
    Senator Landrieu. Since 1980, anybody that arrives at the 
shores--go ahead----
    Mr. Osuna. That is right can apply----
    Senator Landrieu [continuing]. Seek asylum----
    Mr. Osuna [continuing]. Can seek asylum----
    Senator Landrieu. And they have to say that they are 
fearful. And that was passed in the Reagan Administration?
    Mr. Osuna. I think it was right at the tail end of the 
Carter Administration----
    Senator Landrieu. The Carter Administration. OK. So, and 
that is the law today.
    Mr. Osuna. That is correct.
    Senator Landrieu. There was a second law when the 
Department of Homeland Security was created. Senator Feinstein 
had a stand-alone law. Does anybody want to comment about what 
that law is, because it has a bearing here. It was incorporated 
in the creation of the Department of Homeland Security. Is 
anybody familiar with that law?
    Mr. Winkowski. The Homeland Security Act of 2002----
    Senator Landrieu. Correct.
    Mr. Winkowski. If I recall correctly, it had to do with the 
expedited removal----
    Senator Landrieu. It divided the responsibilities for the 
processing and treatment of unaccompanied minors----
    Mr. Winkowski. To HHS.
    Senator Landrieu [continuing]. Between the Department of 
Homeland Security----
    Mr. Winkowski. Yes.
    Senator Landrieu [continuing]. And the Department of Health 
and Human Services.
    Mr. Winkowski. Right. Yes.
    Senator Landrieu. And then, in 2008, in the Trafficking Law 
in 2008, which was sponsored by Senators Biden and Brownback--
all of these are bipartisan--there were further additions to 
this law, which basically said children from contiguous 
countries, Mexico and Canada, would qualify for immediate 
repatriation, and children that came from non-contiguous States 
could go through this process. Now, that was passed in 2008 
under the Trafficking Law.
    I think it is important for this Committee to, before we 
start getting opinions, et cetera, to try to get to the basis 
of the law. Do you agree?
    Chairman Carper. Amen.
    Senator Landrieu. So, if this is not correct, I would like 
to know before the end of the day, because I do need a plan.
    Senator Coburn. That is what needs to be fixed.
    Senator Landrieu. Yes.
    Senator Coburn. That needs to be changed in order to solve 
this problem.
    Senator Landrieu. Yes. So, this is the law and we should 
talk about what the law says, what we think the law should say, 
and then figure out how we are going to deal with this problem.
    But, let me ask you, Mr. Fugate, because I have had a lot 
of experience, and you know, a lot of experience with FEMA and 
how much I believe in you, in your leadership and your ability 
to solve emergencies. So, I am glad that the President asked 
FEMA to step into this situation and try to sort out and give 
immediate assistance for the immediate crisis on the border, 
which is in Senator McCain's State primarily, and Texas. I 
understand why he is very upset.
    But, let me ask you, Mr. Fugate, do you have budgetary 
authority over this $3.7 billion? Where does your authority 
begin and where does it end, in your mind now?
    Mr. Fugate. Currently, and not in the supplemental will I 
have any budgetary authority or----
    Senator Landrieu. You have no budgetary authority in the 
supplemental?
    Mr. Fugate. No, Senator.
    Senator Landrieu. OK. So, do you have any budgetary 
authority for the money that is being spent now?
    Mr. Fugate. No, Senator.
    Senator Landrieu. So, who does have budgetary authority for 
the money that is spent now?
    Mr. Fugate. The agencies. As the budget was passed, the 
authorizations and appropriations for those agencies. So, with 
the President's direction, I gained no new authorities. Unless 
an agency was authorized to do the work they were doing or they 
had funds, or Congress had granted transfer authority within 
those funds to address this issue, I had no new authority and 
no new money.
    Senator Landrieu. So, why did the President give you the 
authority? Why did he not give them the authority? What is it 
in your authority that enabled you to do things that they 
cannot do?
    Mr. Fugate. Well, in the Homeland Security Act, the Post-
Katrina Emergency Management Reform Act, you gave us 
authorities not only for Stafford Act-related disasters, but 
also designated the FEMA Administrator as the principal advisor 
to the Secretary of Homeland Security the National Security 
Council, and the President, as well as Congress, on emergency 
management matters. We took the approach, when asked to assist, 
that this was a humanitarian issue and that we have the ability 
to convene across all the agencies to work together. We have 
authorities within the national framework to set up and operate 
under interagency agreements, to transfer funds from one agency 
to another who may have capabilities, but not authorization or 
funding. Again, this is what we did in the earthquake in Haiti, 
where we used Federal resources to support USAID.
    Senator Landrieu. OK. But, let me ask you this, though, 
because my time is short and I want to get to HHS, because this 
is what I am very concerned about. I agree that the children 
need to be handled, potentially, differently than other 
immigration issues and that Health and Human Services has a 
role. But, my concern, Mr. Chairman, is that I am fairly 
current and up to date on the very mediocre job that is being 
done in our own foster care system in the United States today, 
and let me just give you some statistics.
    On any given day, we have 500,000 kids that are in foster 
care in the United States. Six-hundred-and-ninety-one new 
children come into our foster care system in 50 States. So, 
with a high caseload, by Casey and Pew, high turnover rate of 
social workers, not enough judges anywhere, we are getting 
ready to add to this system that is not the strongest this 
group of children that have no paperwork, or little paperwork. 
Many have no birth certificates.
    So, I am really concerned about this, as all of us are. So, 
I am going to end, because I have gone over my time, with just 
saying that what I am going to be focused on is accountability, 
who is in charge, what the plan is, who is going to be held 
responsible, before we spend $3.7 billion in addition to the 
$2.5 billion that is already in four appropriation bills that 
are moving their way through the process. So, we have a lot 
more questions to be answered before I think we run too far 
ahead, let me just speak for myself. I want to be helpful. I 
absolutely want to be helpful. But, I do have quite a few more 
questions.
    Thank you.
    Chairman Carper. Those are great questions. Let me just say 
that we are fortunate on this Committee not only to have 
Senator Landrieu serve as a member of this Committee, but she 
Chairs the Appropriations Subcommittee that has jurisdiction 
over the Department of Homeland Security and she is a great 
partner in that regard, as well. But, thank you for--especially 
for your caring. She has been down to Guatemala probably more 
times than all of us put together and we applaud you for your 
concern and for being here today.
    Senator McCaskill, please.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you.
    I would like to talk a little bit about the push factors 
that are causing families--and, by the way, all these cultures 
are very family centric, and the notion that they are sending 
their children off on a very dangerous proposition speaks to 
the real problems they have in their countries. And, obviously, 
the root of the problem is the lack of rule of law in these 
countries.
    Now, back in 2010, we began a program called the Central 
American Regional Security Initiative (CARSI), and I know some 
of you should be familiar with this. From 2008 to 2011, U.S. 
agencies have allocated $350 million to help the exact 
countries that these children are coming from with the problems 
of corruption, gang activity, lawlessness, all of the things 
that are causing these families to be ripped apart.
    Now, I am assuming, and please confirm for the record, that 
both DOJ and State use contractors for this program, the CARSI 
program.
    Mr. Palmieri. Yes, that is correct.
    Senator McCaskill. All right. I have looked, and I cannot 
find any Inspector General (IG) reports on any of these 
programs. Are you aware of any analysis that has been done 
about the effectiveness of these programs?
    Mr. Palmieri. Yes, I am aware that there have been. There 
was a GAO report that was prepared on CARSI. There have been--
--
    Senator McCaskill. I did find the GAO report. I did not 
find the IG reports. Are you aware of any IG reports that have 
been done?
    Mr. Palmieri. I am not aware, but I will check for you, 
Senator.
    Senator McCaskill. OK. Now, the GAO report found that the 
State Department had not provided adequate in-country oversight 
in other programs that we have looked at. I guess I would 
consider ommitting my question is, how many in-country 
contracting officers representatives do you have for these 
contracts?
    Mr. Palmieri. I will have to get that number for you, 
Senator.
    Senator McCaskill. I would also like to know, how many 
contractors we have overseeing contractors on these contracts, 
because what we found in the past is the contractors are 
watching the contractors, and sometimes the contractors are 
hired to come and testify about the contractors overseeing the 
contractors.
    Mr. Palmieri. I understand.
    Senator McCaskill. Can you provide us with a list of the 
contractors, the scope of the contracts, and the cost of each 
contract, as well as the oversight being conducted on each 
contract managed or co-managed by State, USAID, DOJ, in 
Guatemala, Honduras, and El Salvador?
    Mr. Palmieri. I will take that back, ma'am.
    Senator McCaskill. We do not have any real indicators that 
the money we are spending down there on these programs is 
working, and I would say tens upon thousands of children 
showing up at our border may be a performance metric that what 
we are doing is not working very well.
    Mr. Palmieri. There are some metrics that have been done, 
and in the limited areas where our assistance is operating, 
particularly the Model Police Precincts, the Community Policing 
Programs, Youth Outreach Centers that USAID is running, we have 
seen and been able to document with metrics a decrease in 
violence, a decrease in gang activities. The problem is the 
limited nature of those programs are not--the scope is not 
systemic enough.
    Recently, in Honduras, the new President who took office in 
January, has put up an additional $600,000 of Honduran money to 
begin replicating some of the USAID Youth Outreach Centers 
because they have had an impact. So, we do have some metrics 
that are showing that these programs are having an impact on 
some of the systemic conditions. The problem is replicating 
them quickly, and they have been limited in scope because of 
the amount of funds available for them.
    Senator McCaskill. Well, this is a real important issue, 
getting on top of what we are doing now and whether it is 
working in these countries, because, as my colleague, Senator 
Landrieu, just pointed out, these children--it would be much 
better for them to be reunited with their families in their 
home countries in an environment that is safe. I mean, that is 
the best possible outcome.
    So, if we have something that is working, it is time for 
you all to say, hey, this is what we are doing that is working, 
and it is working here and we can show that it is working here, 
and that is something--is the administration aware that you 
have programs that are working well in some areas, and is that 
part of their request of this money?
    Mr. Palmieri. Yes, Senator.
    Senator McCaskill. How much of the $3.5 billion is for 
replicating the programs that you maintain are working now?
    Mr. Palmieri. The supplemental request includes $295 
million for expanded Economic Support Fund Programs in the 
region. Most of that money will go to programs that we think 
are having an impact and that will have an immediate impact in 
the region.
    Senator McCaskill. I am very anxious to get into the weeds 
on this. I really want to understand what these contracts are, 
who has them, what they are doing day to day, what the metrics 
are, how we know they are working, and what the cost of 
replication is. And then I want to track that back to the 
President's analysis, because if we can do it in these host 
countries, as opposed to trying to absorb all these children 
into our systems that we have already heard is stressed, it 
would be a huge positive outcome for these children.
    Mr. Palmieri. We agree, and one other aspect of the 
President's request, though, while CARSI has been a security-
driven program, expanding Model Police Precincts, expanding 
Community Policing, providing some Youth Outreach Centers as 
part of anti-gang activities, the request also includes funds--
because we believe that we need to get more balance in the 
United States assistance approach to the region, that we have 
to help, also, on the economic growth and job creation side. 
So, there are funds in there that also, we think, will make an 
immediate impact on jump-starting the economies, because I 
think we will all agree, better job opportunities, better 
educational opportunities in this region is a way to keep 
people at home.
    Senator McCaskill. I agree, and balance is important. In 
2009, the United States was spending $4.4 million on police 
training in Guatemala, Honduras, and El Salvador combined. We 
were spending $327 million in Mexico, just to give you some 
sense of the imbalance that occurred at that time.
    And, finally, briefly, and I will take this for the record 
because I know I am over my time, but I think it is really 
important that we focus on the structural and systemic 
obstacles to the backlog of undetained. Ten years ago we had a 
year-long backlog of undetained, and we had 150,000 cases in a 
backlog prior to these thousands of children coming to our 
border.
    So, this is a long-running problem, and the notion that we 
cannot figure out the systemic things that we need to do, and a 
lot of it is fixing the laws that Senator Landrieu just went 
through--I think we are kidding ourselves that we are not going 
to be dealing with this kind of crisis on an ongoing basis 
until we finally get at the systemic problem, because this is a 
backlog that is a decade-long.
    Thank you, Mr. Chairman.
    Chairman Carper. Senator McCaskill, great points.
    Senator Ayotte, and then Senator Heitkamp.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Mr. Chairman.
    I wanted to ask about the conditions upon which these 
children are being brought up here by the smugglers. As I 
understand it, there are girls who are being raped, as I 
understand it, and boys, too, children being abused. What are 
the conditions upon which--we have talked a lot about the 
conditions in the countries and how bad they are, but what are 
these children being subjected to, and how much are they 
subjected to these criminal syndicates who are making money off 
this and are exploiting these children, and what are we talking 
about is happening to these children?
    Mr. Kerlikowske. Senator, a couple things that I think are 
important. One is that almost all of the children that are 
being brought into the country are being brought through 
smuggling organizations. Oftentimes, the smugglers are 
juveniles themselves. This is a money, a profit issue. It is 
often controlled overhead by cartels.
    There are two modes of transportation that we see right 
now. One, of course, has been cited as the train that comes up 
and people taking that dangerous journey on the train. But, 
also, a large number of charter buses, mom-and-pop charter 
buses driving up here. Then, the children, or the people are 
held in what are called stash houses on the Mexican side of the 
border until they can come.
    The dangers of abuse, including, just recently, the body of 
an 11-year-old boy found in Texas, are enormous.
    Senator Ayotte. So, a dead little boy, as I understand it, 
children being raped, correct?
    Mr. Kerlikowske. Yes, ma'am.
    Senator Ayotte. And exploited. And, so, one of the things 
that concerns me is that we are sending a dual message. So, we 
are sending a message--they have gotten an impression in those 
countries that if you send your child on that journey, that, 
yes, you are leaving, obviously, the conditions that we want to 
work more effectively to improve in those countries, but they 
are going on this deadly journey, in some instances, or just a 
journey that can change who they are for the rest of their 
lives because we have said--they are getting an impression in 
their countries that once they get here, they can stay.
    So, what concerns me is that our policies, that we are 
sending this message that they can stay, is also inhumane in 
the sense that these children are being put on this deadly 
journey. So, if you could comment on that in terms of how 
important it is that people understand from those countries a 
clear message from the United States of America not to send 
your child on this journey because of what is happening to your 
child, but also if they got the message that we are going to 
follow our laws and they will not be able to stay. As humane as 
we all want to be, it is inhumane to send them on this journey.
    Mr. Kerlikowske. Senator, if Senator Coburn would not mind, 
if we could also show the other poster.\1\ It is an example of 
one of the posters----
---------------------------------------------------------------------------
    \1\ The posters submitted by Mr. Kerlikowske appears in the 
Appendix on page 93.
---------------------------------------------------------------------------
    Chairman Carper. Please do.
    Mr. Kerlikowske [continuing]. That are going up all over in 
Central America. They are going up in bus placards and 
overheads on highways.
    This essentially says, ``I thought my son would be able to 
get his papers in the United States, in the U.S.A. That was not 
true.''
    There are other posters. There are radio spots. There are 
television spots being broadcast. And, these three countries, 
by the way, working with their embassies, are also very 
supportive and doing their own messaging. Two parts. It is 
dangerous to try and make this journey, and you will not be 
given a free pass upon arrival.
    Senator Ayotte. Well, I appreciate that we are doing this 
public information campaign, but our leaders need to be clear, 
and I saw that Secretary Johnson on the Sunday shows was 
pressed no less than six times if these minors, if they came 
here through this deadly journey, whether they would be 
returned to their countries, and he would not answer that 
question. And, so, in addition to that, the White House Press 
Secretary was asked that very same question, about the 
ambiguity in which these children would be treated, and he said 
that the law will be applied, but he would not answer the 
question.
    So, it is one thing for us to put up a public information 
campaign, but if the leaders of our country and the leaders in 
these positions are not clear as to what our intention is and 
that we intend to follow our law, and if we have a system where 
only, as Senator McCain asked, only one out of ten actually are 
going to show up for the proceeding and actually go through the 
process, then we are talking out of both sides of our mouths 
and we are doing a disservice to these children because we are 
sending this message to parents that, yes, please take this 
risk, send them on the deadly journey, and when they get here, 
they really will be permitted to stay, which is contradictory 
to these messages.
    So, I think we need to speak clearly, with one voice, and I 
would ask you to comment on that.
    Senator Coburn. Would the Senator yield for a second? The 
No. 1 message to stop this is planes arriving in Honduras and 
Guatemala with these children back home. That sends the 
message. This, as long as it is less than 10 percent, will not 
stop anything. When they see them returning after making this 
harrowing trip, that is when they are going to get the message. 
And, until that happens, it is going to continue.
    Senator Ayotte. Well, as a followup, I would ask, our law, 
as I understand it, one of the issues is the legal treatment is 
different between, for example, Mexican, Canadian, those 
children that would come, and the population we are talking 
about from El Salvador, Guatemala, and Honduras, and I guess I 
am not clear why we should make that distinction in the sense 
that one set of children--both sets of children, as we think 
about it, could be as vulnerable to trafficking. So, do you 
think that this distinction in our law should continue to 
exist, this one that is making it more difficult for you to get 
the option of returning these children more quickly, as soon as 
they return. I know we talked about it a lot at this hearing, 
but what is your position on it?
    Mr. Kerlikowske. Senator, I know the law was--from 2008--
was passed with all of the emphasis to prevent these children 
from being trafficked, particularly sex trafficking----
    Senator Ayotte. Well, now they are being trafficked.
    Mr. Kerlikowske [continuing]. And others. I think that what 
we are interested in is certainly the flexibility. I think it 
has to be carefully considered because of the reasons that 
Congress went to such trouble to spend that time and effort 
passing that original law.
    But, from our standpoint, from the Customs and Border 
Protection standpoint, the ability to have some flexibility 
would be very helpful.
    Senator Ayotte. OK. Thank you.
    Chairman Carper. Let me just make a couple of quick points 
before I recognize Senator Heitkamp.
    One, the term ``truth campaign'' is something you probably 
have heard about as a former Attorney General, but we mounted a 
truth campaign in this country about 12 years ago to try to 
convince kids to stop smoking, if they were, and not to start, 
if they were thinking of it. Hugely successful. A hard-hitting 
campaign. Actually, the messaging that helped was designed by 
young kids, in many cases.
    What we need here is, I think, a truth campaign. I was 
pleased to see this money in the President's supplemental 
proposal--I think it is $5 million--to mount a truth campaign. 
I think it has, like, four pieces to it, and you have mentioned 
a couple. You and Dr. Coburn have mentioned a couple of those 
pieces.
    One of those is to remind the parents down there of the 
perils that they subject their children to if they put them on 
that train to come up here.
    A second is to remind them of the kind of reception that 
they are going to get here, and it cannot be one with open 
arms. You are going to stay here for an indefinite point of 
time.
    The point that Tom raises, the idea that folks are going to 
be returned, including young people are going to be returned, 
in a number of cases.
    But, the fourth piece of the message is this. It is a 
message of hope in their own country, that they can have a 
future, that they can have a good life, be able to provide for 
themselves and live in safety. And, the fourth piece is 
important, as well.
    All right. Thanks. And, with that, Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman.
    I apologize for not having been here during some of the 
other discussion. I had to go sit in the chair. This is an 
issue that I am deeply concerned about on a number of levels, 
and you are hearing kind of a broad scope of concern for the 
children, the safety of the children, but also concern for the 
safety of our border and who are these kids.
    I know that Senator Baldwin asked for a number of metrics 
in terms of the age of the children. She asked a number of 
questions regarding who they are, male/female.
    And, I think that one of the things we need to be very 
careful about here is our assumption about why these kids are 
here and why the kids are coming to the border. A lot of us 
have talked about their parents sending them here for rescue or 
for safety reasons, for a better life. We need to be very 
careful that not every kid is going to fall into that category 
and that not doing the metrics on the front end is disturbing, 
because who are these kids--you have 72 hours to process them.
    And, I guess my first question would be to you, Gil, and 
again, I would like to thank you for coming to North Dakota. 
Your work as the Drug Czar has made just a very significant and 
important contribution to my State, and so I just want to 
publicly acknowledge you and I am grateful that you have taken 
on this new level of public service, kind of from the pot to 
the frying pan here, in crisis.
    But, I want to just ask you, what is your judgment in terms 
of percentages, looking at the numbers, and are your Border 
agents trained and sophisticated enough to create categories of 
kids, whether they are gang-bangers coming in here to seek a 
new level of contribution in terms of the underground and 
crime? Are they kids who are not just being smuggled, because 
there is a difference between smuggling and trafficking. So, we 
just need to make that clear. It does not mean that kids who 
are being smuggled do not eventually become trafficked. But, 
how many of these kids are actually initiated into this process 
in a trafficking category? And, then, what are their ages? And, 
so, can you just kind of give me what your sense is right now.
    Mr. Kerlikowske. My sense, having watched it pretty 
carefully in McAllen, Brownsville, Fort Brown, and other 
places, and watching these experienced Border Patrol agents 
interview and talk with these young people, is that they are--
and including--they are very sophisticated, these agents, at 
being able to determine information.
    Fourteen and above, they are all fingerprinted. Those 
fingerprints are run against the databases here in the United 
States, so that if it was somebody a little bit older that had 
been deported or had been arrested or was involved in a gang. 
We need better cooperation, better communication with those 
other three countries to make sure. The vast majority of what 
we are seeing are not in that threat category, but we have to 
be very careful.
    Senator Heitkamp. Well, as has been reported, and I do not 
have any personal knowledge of this, that the number of drug 
seizures on the border since this crisis has decreased because 
resources have been deployed to deal with the emergency of this 
crisis, is that correct?
    Mr. Kerlikowske. The number of drug seizures has decreased 
in that particular sector, but a couple of things, actually, 
having watched it pretty carefully for the 5-years I served as 
the President's Drug Policy Advisor. Those numbers fluctuate a 
lot, and now that we have two States where you can grow your 
own marijuana, I am not so sure that marijuana coming in from 
Mexico is going to continue at the amount that it did. So, I 
think there are a lot of things going on.
    But, I am also confident in Chief Kevin Oaks in the Rio 
Grande Valley and his determination that he will make every 
available resource. Rio Grande Valley, by the way, has had an 
additional 500 Border Patrol agents over the last several 
years. They will make every effort to make sure that we are 
also doing our due diligence in our border security, and I will 
watch it carefully.
    Senator Heitkamp. But, this would not be the first time 
someone created or helped augment a crisis so that they could 
run the border and seek access for other kind of illegal 
activity across the border.
    Mr. Kerlikowske. You are right. The smugglers are very 
smart. The people involved in drug trafficking work every day 
to try and beat the system, yes, ma'am.
    Senator Heitkamp. My point is, as we are trying to deal 
with this humanitarian crisis for those who truly are there in 
that category, we need to double-down on the law enforcement 
portion of this so that we know what, in fact, we are dealing 
with, and those of us who have been involved in law enforcement 
know that a juvenile can be just as dangerous as an adult, and 
we need to be very careful about who we are letting into this 
country undocumented.
    The final thing I want to point out, because I am running 
out of time, is I had the honor of going down to Mexico with 
Cindy McCain and Amy Klobuchar and we received a number of 
briefings about the kinds of activities that the Mexican 
government is engaged in on their Southern Border Strategy. 
Obviously, their Southern Border Strategy, in this case, is--it 
may be--their efforts to build out the Southern Border may have 
caused this surge. I do not know. We should be asking that 
question. But, where are the Mexican officials on pursuing 
their Southern Border Strategy and how do you see that as a 
tactic to, basically, dispel this crisis?
    Mr. Palmieri. Thank you, Senator. Mexican President Pena 
Nieto announced finally on Monday this long-awaited Southern 
Strategy that his government had been working on for some time. 
We expect that it will allow the Mexican government to improve 
its interdiction capabilities along the border, that they are 
going to be dedicating more resources to disrupting some of the 
alien smuggling networks and the traditional routes they use 
through Guatemala, through Southern Mexico. In addition, they 
are trying to also implement better documentation of people who 
are crossing their border so that they can track them better in 
the country.
    There is no question, it is a very big border with Mexico, 
with Guatemala and Belize, and it is open in a lot of places, 
so they have quite a job in front of them.
    Senator Heitkamp. I would suggest that there would be a 
huge incentive to continue that effort on the South Border if 
the refugees were stopped at our border, because one of the 
things that concerns the State of Mexico, or the country of 
Mexico, is having these refugees in their jurisdiction. So, 
everything that we can do to assist them in their border 
security, but also sending a message that safe passage--not 
being accusatory, but turning a blind eye to the movement of 
young children north will not be something that is in the best 
interest of the United States of America, the country of 
Mexico, and the children of Central America. And, somehow, that 
message needs to be a lot clearer than what it has been.
    Mr. Palmieri. President Obama has spoken with President 
Pena Nieto about this issue. Earlier, I mentioned that Mexico 
had deported over the year 2013 85,000 adults and children. The 
numbers I have of unaccompanied children are over 8,000 were 
deported last year. It is Instituto Nacional de Migracion. It 
is National Migration Institute, operates 35 detention centers, 
and they are committed to working with us to improve their 
detention rates and return rates to Central America, as well.
    Senator Heitkamp. I can tell you, just from having been on 
the border, unaccompanied minors, it is not a new issue. It is 
in crisis because of the numbers. But, we have not been dealing 
with unaccompanied minors very well in this country or in 
Mexico or all through, I think, the region. And, so, we need to 
have a regional response to this crisis, and it cannot just be 
the United States responding and processing. It has to be 
regional. And, then, obviously, all the discussion that you 
have had here today about prevention. How do you build a better 
society?
    But, again, I am very concerned that we not categorize all 
these kids in one basket, that it is critically important that 
we understand that this is more complicated than just a number 
of children being smuggled in for a better life in the United 
States of America.
    Senator Coburn [presiding]. Thank you.
    I have a question for those of you that work at Homeland 
Security, because I am getting a lot of reports of push-back 
from Homeland Security from the whistleblowers, so I have two 
questions for all of you that work in Homeland Security. Do you 
believe that employees at DHS have the right to communicate 
with us as Members of Congress?
    Mr. Kerlikowske. Yes, Senator.
    Mr. Winkowski. Yes.
    Mr. Fugate. Yes, sir.
    Senator Coburn. Do DHS employees have the right to 
communicate with the DHS Office of Inspector General?
    Mr. Kerlikowske. Yes.
    Mr. Winkowski. Yes.
    Mr. Fugate. That is the law, sir.
    Senator Coburn. Finally, will you make sure that that 
message is sent down the chain in your organizations?
    Mr. Kerlikowske. We will reemphasize it.
    Senator Coburn. Thank you.
    Commissioner, this past weekend, a Member of Congress in 
Oklahoma attempted to visit the site at Fort Sill. He was 
refused access. Would you comment on that.
    Mr. Kerlikowske. It is a DOD facility, so I actually could 
not comment. I would not be familiar with it, and it would not 
be under the jurisdiction of Customs and Border Protection, but 
I would be happy to work with people to find out exactly what 
occurred.
    Senator Coburn. All right. Does anybody else have any 
knowledge on that?
    Mr. Greenberg. Senator, it is a DOD facility that is being 
operated by an HHS grantee. We are making available tours for 
Members of Congress, but we do seek to get the tours scheduled 
in advance so that we can ensure that they are structured in a 
way that the needed tour guides are in place and that it is 
consistent with the set of responsibilities that the staff at 
the facility have.
    Senator Coburn. So, actually, it is HHS's jurisdiction to 
make sure that that accomplishes what you want to accomplish. 
But, the fact that a Member of Congress shows up to look at an 
acute problem for us that we have in Homeland Security under a 
supposedly humanitarian crisis, and he is denied access, can 
you explain that?
    Mr. Greenberg. We absolutely want to ensure that Members of 
Congress are able to visit the facility----
    Senator Coburn. Except when he showed up.
    Mr. Greenberg. We are structuring tours on a regular basis 
for Members of Congress and would very much want to ensure, for 
him and for any other Member of Congress, that we can 
facilitate making tours available.
    Senator Coburn. So, again, so I understand, so I can report 
to Congressman Bridenstine, it was because it was not 
structured is the reason he was denied access?
    Mr. Greenberg. It is, as I understand it, arriving at the 
facility without it being a scheduled tour. And, again, we 
would want to provide for a scheduled tour.
    Senator Coburn You would want Members of Congress to come 
on an unscheduled basis just as a good check.
    Mr. Greenberg. We want to encourage Members of Congress to 
take tours. We are actually very----
    Senator Coburn. But, only at your convenience.
    Mr. Greenberg. Excuse me, sir?
    Senator Coburn. Only at your convenience. I am saying, a 
random check by a Member of Congress is great for this country 
because they get to see what it is, not what is prepared to be 
the show.
    Mr. Greenberg. Senator Coburn, I should say, we are proud 
of the facilities. We encourage Members of Congress to come and 
see them. We believe that Members of Congress will be pleased 
by what they see if they come.
    Senator Coburn. I would just tell you, I think you made a 
grievous error in denying Congressman Bridenstine access to 
that facility. And, I do not know who made the decision, but I 
think it was illegal to keep a Member of Congress from visiting 
one of these camps. Regardless if they come at three o'clock in 
the morning, they should have access.
    Mr. Kerlikowske, I want to cover a couple of areas with you 
on the demographics of the unaccompanied children. The 
Administration reports, in 2014, there has been an increase in 
the number of UAC who are girls and those who are under the age 
of 13. According to the Congressional Research Service (CRS) in 
a June 3 press release following an Administration press call, 
the Administration claims the demographic change of the UAC 
population has influenced the response to the increase in the 
UAC crossing the border. However, CRS was unable to find any 
data to illustrate the change. So, it noted, ``It is unclear 
whether the increase in girls and children under 13 is simply 
because the number of all UAC has increased or if the number of 
girls and children under 13 has increased as a proportion of 
all UAC.''
    According to a June 25 demographics report from the Nogales 
Processing Center, out of the total number of children in their 
custody at that time, the overwhelming majority were older than 
age 12, 887, and 557 were male.
    So, yesterday, an ICE memo reported that on June 3, it 
indicates that males between the ages of 15 and 17 comprised 47 
percent of all of the other-than-Mexican UACs, and nearly 30 
percent were 10 to 13.
    So, three questions for you. Why would the Administration 
claim the demographic of these children is increasingly young 
when, in fact, it is not, and female, based on their response 
to the situation on that data when, in fact, the demographic 
appears to be quite the opposite? That is the first question.
    Second, can you provide us with the actual statistics that 
show how much of this UAC population is actually female and 
under 13?
    And, according to the conference calls with the 
congressional staff, if a UAC turns 18 in the custody of HHS, 
he or she is turned over to DHS custody. What happens to these 
unaccompanied children who are returned to DHS custody after 
turning 18? Are they released on their own recognizance?
    Mr. Kerlikowske. I can respond to the first two questions. 
And, first, Senator, thank you for giving that question in 
advance, because it involves the calls from the White House, it 
involves CRS data, ICE data, data from us, et cetera. So, I 
tried very hard to drill down into that to make sure that I 
could find, with all of these different sources, exactly what 
was what and give you the information.
    So, what I can tell you is that in that group, we are 
seeing far more mothers and far more younger children than we 
have seen in the past, and then I will----
    Senator Coburn. But, those are not unaccompanied children.
    Mr. Kerlikowske. Both, families----
    Senator Coburn. I know, but I am saying, mothers with their 
young children are not considered unaccompanied children.
    Mr. Kerlikowske. Family units.
    Senator Coburn. Yes.
    Mr. Kerlikowske. We consider them family. You are right, 
Senator.
    Senator Coburn. Yes. OK.
    Mr. Kerlikowske. The other part, as far as when someone 
turns 18 in HHS custody, I think I would ask that you ask Mr. 
Winkowski, because I believe they would be turned over to ICE 
rather than back to Customs and Border Protection.
    Mr. Winkowski. Senator, thank you for that question. When 
they turn 18, they are handed over to us. We issue the NTA and 
put them in removal proceedings.
    Senator Coburn. OK. All right. One question for Mr. Osuna. 
What is the percentage, over the last year or the year before 
that, of those that do not show for their hearing?
    Mr. Osuna. The overall percentage for the entire population 
that is issued a notice to appear and is required to appear 
before an immigration judge is--the national rate is 17 
percent, one-seven.
    Senator Coburn. OK.
    Mr. Osuna. That means that 83 percent do show. As I 
mentioned earlier, the percentage is a little bit higher for 
juveniles.
    Senator Coburn. But, you said you did not know exactly that 
number, is that correct?
    Mr. Osuna. We do have the percentage of juveniles, meaning 
that the case is coded as a juvenile case in our database----
    Senator Coburn. Right.
    Mr. Osuna [continuing]. And that is the number I mentioned 
earlier. What we do not have a good handle on, because the data 
is just not there, is unaccompanied minors. Which ones of those 
juveniles are actually unaccompanied minors.
    Senator Coburn. And, you are going to try to find that data 
out for us?
    Mr. Osuna. We are working with our partner agencies to try 
to get more specific data on that. That is a--yes.
    Senator Coburn. Mr. Kerlikowske, I have one more question 
to ask you, and I do not know if we sent this one to you. I 
think we did. We had asked for some information on an internal 
CBP memo on bottlenecks in the unaccompanied child transfer 
process. Several press reports reported on this memo on May 30 
from the Deputy Chief of CBP. Staff asked for this document.
    In yesterday's staff meeting with you, they objected, 
saying that it is pre-decisional material and an internal 
unsigned document, which is, according to the congressional 
rules, is not a legitimate reason to deny a congressional 
request. It is for a FOIA request, but it is not for a 
congressional request. The Washington Times and other news 
outlets have reported extensively on the contents of the 
document, potentially waiving any privilege, executive or 
otherwise, CBP is claiming over the contents of the document.
    At a minimum, I would request that the Department of 
Homeland Security explain the decision to me in writing, citing 
the actual legal authority that allows you to withhold that 
document from Congress, and I would appreciate it if you would 
do that.
    I have some questions on the basis of that, which I think 
most of them, we have covered, because we have asked for the 
statistics.
    One of the things that was concerning to me in the press 
reports on that memo by Mr. Vitiello, that the UAC crisis is 
compromising DHS's capabilities to address other trans-border 
criminal areas, and I think we have pretty well addressed that 
in your answer.
    And, I think my time is up, and the Chairman is back and he 
has voted, right?
    Chairman Carper [presiding]. I have, and they will be happy 
to receive your vote.
    Senator Coburn. I have other questions for the record I 
would like to submit.
    Chairman Carper. No problem at all.
    Craig Fugate, I just do not think you have been asked 
enough questions. Let me just say how much I appreciate your 
willingness, I understand, to rearrange your schedule in order 
to be here for the entire hearing.
    What I would like to do is I want to come back to this. One 
of our colleagues, I do not know if it was Senator Landrieu, 
had raised this question, but trying to understand your role 
and the appropriation of funds and the authorization for the 
appropriation of those funds. She thinks a lot about hurricanes 
in the Gulf of Mexico. We think about them on the East Coast. 
We are very mindful of the great work that you and your team 
did in response to Superstorm Sandy.
    One of the questions we would ask is, in terms of the 
expenses that flow from this all-hands-on-deck operation, how 
did that affect, if at all, FEMA's ability to do some of your 
other work in terms of disaster relief, whether it is 
hurricanes or Nor'easters and that kind of thing? How does it 
affect it, if at all?
    Mr. Fugate. There is always an effect, but, Senator, you 
built and you fund FEMA to handle multiple disasters 
simultaneously across the country as well as catastrophic 
disasters. So, we really used the tools that you have given us 
the authority and funds to build capacity to support the 
interagency effort. We have about 75 people that have been 
working on this, as well as our FEMA Corps teams, which we have 
surged to support Customs and Borders and the detention areas 
and in the processing facilities. We were able to manage the 
response to Hurricane Arthur as well as maintaining support 
here.
    So, we are very much aware that we have to be ready for the 
catastrophic disasters, but you have built capacity and 
capabilities into FEMA that allows us to support this as well 
as our other ongoing responsibilities.
    Chairman Carper. All right. Well, thanks for that response. 
Thank you for your willingness to take on, in addition to all 
your other responsibilities, the overseeing of this difficult 
challenge and our response to it.
    A question, if I could, for a man who goes by ``Paco.'' Mr. 
Palmieri, I was struck by a report from the United Nations not 
long ago that the United States is not the only country seeing 
a huge increase in migration of unaccompanied minors from 
Guatemala, El Salvador, and Honduras. I saw somewhere where the 
number of asylum seekers in Mexico, Nicaragua, Belize and Costa 
Rica, Panama, had grown by, I think, over 700 percent, if I am 
not mistaken. What does that say about what is happening in the 
three Central American countries that we focused on today?
    Mr. Palmieri. I think it just further confirms that the 
endemic violence in these societies, the street crime, the gang 
intimidation and forced recruitment, the lack of educational 
opportunity, the poor job prospects in these countries for 
young people, are driving people away and out of these 
countries and we have to do a better job working with these 
countries to address these basic systemic problems that they 
are confronting.
    The supplemental has $295 million that tries to get at a 
better prosperity agenda, that improves economic opportunity, 
but also, at the same time, maintaining our efforts to address 
the security conditions in the countries.
    I have to admit, I was not aware of the high increase in 
asylum requests in other countries.
    Chairman Carper. It is off of a low base, but it is a 
pretty substantial increase--very substantial.
    Mr. Palmieri. I will look into that and try to get 
additional data for you. I do know that the Mexicans have seen 
an increase, and I was aware of that.
    Chairman Carper. All right. In my opening statement, you 
may recall I mentioned we spent about a quarter-of-a-trillion 
dollars over the last decade enforcing our immigration laws, 
trying to strengthen our Nation's borders, especially on our 
Southern Border. We spent a whole lot less--far less--helping 
Central American countries like the three we are talking about 
today to address the root causes of immigration.
    As I understand it, during the same decade that we have 
been spending $225 billion to protect and strengthen our 
borders along Mexico, we have spent about $2 billion across all 
of Central America, not just in El Salvador, Guatemala, and 
Honduras, but roughly 1 percent of what we have spent just on 
the border, and most of that aid is focused on improving 
security in those three countries, not on broader economic 
development and job creation to help give people a reason to 
stay there and to want to live there.
    Let me just ask you to react to that.
    Mr. Palmieri. Senator, I share your views on the need for 
us to have a better balance in our assistance strategy toward 
the region. The security investments are important. We have to 
improve their abilities to control their own borders, to 
interdict all kinds of illicit activity that is both 
trafficking and smuggling people and other--and drugs across 
their borders.
    But, I think it is time for us to take a long look at if 
there is more that we can be doing on the economic growth side 
and in attacking the problems of corruption in these 
governments so that social service delivery is better, so that 
education is better in these countries, by holding these 
governments accountable.
    I think you had it right in your opening statement, 
Senator, this has to be a shared responsibility. The United 
States cannot fix this problem, but I think we can be a part of 
the solution with Mexico, with Colombia, as you mentioned, and 
we will do our part at the State Department, sir.
    Chairman Carper. All right. Thank you.
    A quick followup, if I could. Of the $300 million in the 
President's emergency supplemental request, any idea how much 
of that $300 million will go toward addressing some of the root 
causes that we have been talking about here today that are in 
part behind the surge in migration from Central America?
    Mr. Palmieri. Yes. All of the assistance is designed to 
focus on having an immediate impact. $121 million of it is for 
the economic growth side, which contains funds that do get at 
root causes, but also contain funds for the Youth Outreach 
Centers and for some of the vocational education that we think 
can help address immediate issues related to the immediate flow 
of people, as well as the longer-term solution. I believe there 
is an additional $70 million, more or less, for governance 
activities.
    And then the rest is in security, including, which we 
consider very important, and I know my ICE colleagues will 
agree, we have to be able to expand the repatriation capability 
of the three countries. That is, we have to expand their 
ability to receive more people as our process gears up to 
return them more quickly and more efficiently.
    Chairman Carper. I was in, I am not sure if it was El 
Salvador or Guatemala recently, where the center where they 
receive people coming back in--which country is it, El Salvador 
or Guatemala?
    Mr. Palmieri. The Guatemalans really have gotten it down, 
and it is a testament to the seriousness with which they 
understand the risks their citizens face in making that journey 
and wanting to welcome them back and helping them reinsert them 
into their country. But, it is Guatemala, Senator.
    Chairman Carper. All right. Thank you.
    We talked a little bit already about truth campaigns and to 
message clearly, repeatedly, particularly to the parents of 
these three Central American countries the perils that their 
children face in trying to send them north, the likely 
reception that they will get here, the likelihood that they 
will be returned, ultimately. But, the most important message, 
I think, is to convey a message of hope. There is not, frankly, 
in those countries, much reason to be all that hopeful. We have 
law enforcement officers that are corrupt in too many cases. In 
too many cases, the judges are corrupt.
    I remember sitting in a meeting with the President of 
Guatemala and his Interior Minister and talking about 
corruption in their prisons. And I said, Mr. President, some of 
your prisons here, the inmates run the prisons and they 
receive, or are paid for, indirectly, some of the guards, to 
bring in cell phones and they operate their illegal activities 
from the prisons using the cell phones provided by the guards. 
I said, Mr. President, there is technology that can be used to 
basically wipe out the ability to use cell phones from a prison 
and said, you have that capability in your prisons and you do 
not use it.
    There is a lot of work that needs to be done. We can do so 
much. They need to do their share, as well. The key to almost 
the success of any entity I have ever come across, whether it 
was government, business, athletics, church, schools, is 
leadership. Leadership is. And, we have a responsibility, 
certainly, to provide leadership as a Nation, but, frankly, 
these countries need some leadership of their own.
    And, fortunately, at a time when Colombia was on the ropes 
and it looked like they may be down for the count not that long 
ago, you will recall, I do not know, it was about 20 years or 
so ago, a group of gunmen rounded up the Supreme Court of the 
country of Colombia, took them all in a room and shot them to 
death. And, 20 years later, Colombia is, I think, by most 
people's judgment, is a successful country--economically 
strong, viable, great trading partner with us, great ally with 
us, and they are in a position now, having been helped by us 
through the Colombia Campaign, to turn north and provide the 
same kind of assistance to others, and I think they are willing 
to do that and we need to make sure that they do.
    I think what I would like to do here is I would like to 
close out. You all were good enough to give us an opening 
statement. I am going to ask each of you to take a moment to 
give us a closing statement, and sometimes I use closing 
statements--I think it is about a minute's worth from each of 
you, if you would--but I look at this as an opportunity to see 
where the consensus lies and where the consensus may lie in 
terms of what we should be doing, our responsibilities here on 
the legislative side, to address not just the immediate 
problems on the border, but also the underlying causes.
    And, I will say, Mr. Osuna, if you would please go first. 
Just give me a good minute, if you would, please.
    Mr. Osuna. Thank you, Mr. Chairman. I would like to just 
note that I have been doing this job for a while and being in 
this area for a long time, I have never seen an interagency 
effort coordinated the way that this effort is being done from 
the top down. It is pretty impressive, and as you said, it is 
an all-hands-on-deck approach.
    We are ready to do our part in the immigration court system 
by prioritizing these cases of recent border crossers. We think 
that that will have an effect over time. And, we ask for your 
support through the supplemental funding bill, as requested by 
the President.
    Chairman Carper. All right. Thank you.
    Mr. Palmieri. Mr. Chairman, I have an acute personal 
interest in the work that ORR is doing and HHS, FEMA, CBP, and 
ICE. My mother arrived as a legal immigrant, but was orphaned 
as a teenager in the United States. And, the work these people 
are doing to protect these children is really outstanding work.
    Chairman Carper. Thank you. Mr. Greenberg.
    And, Senator Johnson, what we are doing right now is I just 
asked them each to give us a one minute closing statement, just 
some guidance and advice for us as we are trying to put it all 
together. I will recognize you as soon as they respond.
    Go ahead, Mr. Greenberg, please.
    Mr. Greenberg. Yes. Thank you, Mr. Chairman. The children 
that are arriving are an enormously vulnerable group of 
children. While most of them are older boys, we have seen an 
increasing number of girls. We have seen an increasing number 
of very young children. They come with significant needs. It is 
important that we address those needs when they arrive, just 
as, at the same time, it is important that we enforce our 
Nation's immigration laws.
    Chairman Carper. Thanks. Mr. Winkowski.
    Mr. Winkowski. Well, first of all, Mr. Chairman, I would 
like to say thank you for holding the hearing. I thought it 
was, really, a great hearing.
    Just several issues that I think we need to be mindful of. 
No. 1, we are focusing on Central America right now for obvious 
reasons, but I believe it is important for the Committee to 
also realize that we have other hot spots around the world. 
This is not going to go away. Lots of people want to come to 
America, and the flows are all changing, as I had mentioned 
before. It was the flows of Mexicans coming in. Now we are 
seeing other-than-Mexicans. And, you see hot spots around the 
world--India, other locations. And, we have had some experience 
with that already. Those challenges are going to continue to 
get larger and larger and I think we really need to play a 
leadership role in that, not only from our standpoint but from 
the State Department's standpoint of capacity building and 
things of that nature. So, that is No. 1.
    No. 2, I think we have some tough choices to make. These 
are very difficult issues. I am a father. I understand why 
these children want to come. I have walked the halls of 
Lackland Air Force Base with Secretary Johnson. I have been 
down to McAllen, other locations. It is absolutely 
heartbreaking. However, if we want to make an impact here, want 
to make some inroads here, we have to make some tough 
decisions.
    We have to work very closely with Guatemala and others for 
them--Guatemala to shore up their Northern Border, Mexico to 
shore up their Southern Border with Guatemala. We have to 
continue to be very proactive from the standpoint of 
investigating the networks. And, when these individuals make it 
into the country, we have to make sure they have their due 
process, and once a decision is made to remove, be able to 
remove quickly.
    I think when you look at the issues that were faced in 2006 
with the Brazilians and years before that we had a rash of 
Hondurans, as I understand it, what changed the dynamic of it 
all was the ability to apprehend, detain, and deport quickly. 
And, I believe we need to have more discussion on that. I think 
that, to me, is the critical issue that we all face, and then, 
of course, needing the funding and supporting the supplemental.
    Thank you very much.
    Chairman Carper. Thank you very, very much. Gil.
    Mr. Kerlikowske. Having spent 5 years in the White House 
and now working for Secretary Johnson, I can tell you that we 
could not ask for better leadership, more heartfelt compassion, 
more support for the work that we are doing. It is very clear I 
am in the twilight of my career, and to be in this position----
    Chairman Carper. Hopefully, a long twilight.
    Mr. Kerlikowske. And, to be in this position and to be able 
to work with not only the people at the table, but, quite 
frankly, whether it was watching a Border Patrol agent or a 
Customs official who was encountering a child walking up a 
bridge from Mexico, to see the work that they are doing 
really--it makes you incredibly proud.
    And, I would last say that we appreciate the tough 
questions from the Members of Congress. We are prepared to 
answer them to the very best of our ability and to be as 
forthcoming with you all as we can be.
    Chairman Carper. Thanks, Gil. Craig.
    Mr. Fugate. Thank you, Mr. Chairman. I do not approach this 
as a set of acronyms. I do not approach this as this is a 
policy issue. I do not approach this as to why it is happening. 
It has happened. It is happening. We have very small children 
who early in this process were spending far too long in a 
detention cell, sharing a toilet and eating food that was 
microwaved because that is all the agents could provide in the 
initial push.
    Our focus has been on meeting the immediate needs of these 
children. We have to constantly remind ourselves, these are 
somebody's children, oftentimes trying to be reunited with a 
family member here, who took a journey that none of us could 
imagine. And, when they came here, we should have the 
compassion to be able to take care of their basic needs while 
we focus on the whys. But, I have to focus in on the now, and 
until we have enough capacity to ensure that these children are 
not kept in detention, that there is a bed, medical care, 
decent food, a shower, clean clothes until we have enough 
capacity, we fail these children.
    The President's supplemental request is very specific in 
ensuring that we have the capacity within the agencies, 
particularly within Custom and Borders, but more importantly 
within the Office of Refugee Resettlement, to ensure that these 
children are properly cared for while they are in our custody 
until final determination is made. That has been my focus and 
that will continue to be the focus until such time as we have 
stabilized this.
    But, we should never forget, these are children. They are 
now in our custody. It is our duty to make sure that these 
children are cared for properly.
    Thank you, sir.
    Chairman Carper. Thank you for that comment and thought.
    All right. Senator Johnson, and then I will say a few words 
and we will close it out.
    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Fugate, first of all, I think we all share your 
sentiment. I mean, we are a compassionate society. We 
understand these are children. We want to show true compassion. 
I think the point that a lot of us are making here today is 
true compassion really would be to prevent this from happening, 
to actually attack the root cause, which I will restate again 
is the incentives we are creating for parents to send their 
children on this arduous journey.
    And, I have to agree with Senator Coburn. As nice as those 
posters look like, they will do nothing, nothing in comparison 
to what planeload after planeload of children being returned to 
their families in Guatemala, Honduras, and El Salvador would 
do. That is the most important thing we could do to deter 
parents from doing this to their children.
    I do want to get back to--and, also, I understand that you 
folks are working hard, and we appreciate your service, and you 
are constrained by the laws which we much change expeditiously. 
And, you are also constrained by Executive Orders (EO) that I 
think were misguided. So, you are following the law. I 
understand that and appreciate your efforts. But, we have to 
change those laws. We have to undo some of these Executive 
Orders so that we have a more rational system to reduce or 
eliminate those incentives for illegal immigration.
    I want to go back a little bit to Mexico in terms of what 
they are doing to help stem the tide. If we have busloads of 
children, I have seen the pictures of children hanging onto 
trains, I am actually surprised that they have turned back 
85,000. I mean, are there any documented instances where Mexico 
officials have actually interdicted a bus and sent it back? I 
mean, where are we getting this from?
    Mr. Palmieri. The Mexican authorities regularly send 
busloads of interdicted undocumented migrants moving through 
their country to Guatemala, Honduras, and El Salvador. I do not 
have a specific anecdotal case of a bus of children that was 
perhaps on its way to the U.S. border having been stopped, but 
we do know that, on a regular basis, Mexico sends busloads of 
people back to all three countries.
    Senator Johnson. But, we are basically relying on their 
statistics in terms of how many people they send back?
    Mr. Palmieri. Their statistics, our ICE attaches at our 
Embassy in Mexico City. The State Department officials at the 
Embassy in Mexico City work with and talk to these people, as 
well. So, I do not think it is just a statistical base. They 
also have the direct personal relationships that I think are 
critical to making sure Mexico does follow through.
    Senator Johnson. One thing we have learned is Mexico does a 
pretty good job securing its Northern Border, as Marine 
Sergeant Tahmooressi found out. I am happy that he is actually 
going to get a hearing today. I am hoping he gets released 
immediately. If he is not released, what is the State 
Department, what is the Department of Justice going to do, what 
is President Obama going to do to secure Sergeant Tahmooressi's 
release?
    Mr. Palmieri. I know that the State Department has 
facilitated visits for him with his attorneys, with his family. 
We will continue to provide the full range of American citizen 
services that we would provide to any and every American 
detained in a similar situation.
    Senator Johnson. Is the State Department, is President 
Obama as outraged as I think most Americans are by the Mexican 
Government's mistreatment of Sergeant Tahmooressi? I have seen 
the videos. I have seen how easy it was for him to accidentally 
get into that lane. This is outrageous, as he has been held for 
over 100 days. Are we going to demonstrate that kind of outrage 
and demand his return if he is not returned today?
    Mr. Palmieri. I know that my colleagues at the American 
Embassy in Mexico City, in Tijuana, and in Washington are 
working vigorously on this case to expedite as speedy a 
resolution to it as we can.
    Senator Johnson. Well, I hope if he is not released, they 
act more vigorously. Let us put it that way.
    I just want to go back to, as long as we are talking about 
the State Department here, the $300 million request for, I 
guess, improving conditions in those Central American 
countries. We are finding we are not particularly good at 
improving our own economy. Is that not a pipe dream to spend 
$295 million trying to improve the conditions and expecting 
that is going to solve the problem, as opposed to sending 
planeloads full of these kids back to their families?
    Mr. Palmieri. I think we need to be doing everything we can 
on all levels, both promoting better economic growth, expanding 
repatriation, sending more people back. All of these things 
have to be done. This is a complex problem and there is no 
easy, simple solution----
    Senator Johnson. But, there are things that are going to be 
far more effective and far less costly. Again, let us just go 
through the numbers. The President is asking for $3,700 
million. You divide that by 57,000, that is $65,000 per 
unaccompanied child. Literally, if we would buy a plane ticket, 
put them up in a hotel room, give them some good meals, let us 
say we spent $1,000 per child. That would be $57 million to 
return the children to their families. Is that not far more 
effective spending? And, would we not be better off spending 
that $300 million to improve the immigration services in those 
countries so there is a place for us to return the 
unaccompanied children?
    Why do we not kind of reorient our thinking, realize that 
we cannot spend $300 million and really expect to even make a 
dent in improving the condition of those countries. And, as 
Senator Coburn said, the most effective message we can send, as 
opposed to a slick little poster there, is literally sending 
planeloads in a very humane fashion of these children back to 
their families.
    Mr. Palmieri. Part of the request will expand the capacity 
of these governments to receive additional repatriation 
flights, and so that is envisioned in the request. I think what 
we think, a more balanced approach that tries to address some 
of the underlying root causes is also essential, not just to 
stopping the current problem, but to creating the conditions so 
that in the future, these people have a better alternative in 
their homes----
    Senator Johnson. Have we not been doing that for years? I 
mean, literally, have we not been trying to do these things for 
years?
    Mr. Palmieri. We have, and the scale of how we have 
provided our assistance--the Youth Outreach Centers is an 
excellent example--it just does not reach a broad enough 
segment of these countries to make a difference, and expanding 
some of that assistance, we think, can make a difference.
    Senator Johnson. OK. I am out of time, Mr. Chairman. Thank 
you for your indulgence.
    Chairman Carper. No, I am glad you came back. Thanks, Ron. 
Thanks for those questions and for your participation.
    I think we have come to the end. Again, I want to say 
special thanks to Craig Fugate for changing his schedule to be 
with us and for your participation, for all of you for your 
participation. This is an extraordinary panel, good people, 
hard jobs. We are glad that you are willing to do them. We 
commend you and the teams you lead in service to our country.
    It is not an easy one, is it? And there, frankly, are not a 
lot of easy answers, but there are answers and we have had a 
chance to chew on some of those today. I think this has been 
called by me and by others the all-hands-on-deck moment, and 
all hands are on deck and we are finding out how well this team 
works, and I am encouraged that, given the magnitude of 
challenges, it is working pretty well.
    Everything I do, I know I can do better. I think it is true 
for all of us, and it is true for responses like this and we 
have to just focus on how to do better as we go along.
    As Senator Johnson has heard me say more than a few times, 
find out what works and do more of that. Somehow, something 
worked in Mexico. Something has worked in Mexico and, as we 
have seen, the tide, the surge of Mexicans coming across our 
border has largely stopped, not entirely, but largely stopped. 
We have a bunch of Mexicans now who want to go back to Mexico, 
and there are some lessons to be learned there. My hope is that 
we are going to learn those, not only in terms of our actions 
in the agencies that you are involved in lead, but also in 
terms of the laws that we pass and the appropriations that we 
make.
    I think I will close with a scriptural reference here, Ron. 
Believe it or not, we have a Bible study group that meets here 
in the Capitol. Democrats and Republicans about once a week get 
together and pray together, read the scripture together. We 
have a prayer breakfast that I do not usually get to because 
they meet early on Wednesday morning and I am usually on a 
train.
    But, our Chaplain here is always reminding us of the most 
important rules or commandments in the Bible, and one of those 
is found in the New Testament, to love the Lord thy God with 
all thy heart, all thy soul, all thy mind. And, the second one 
is to love thy neighbor as thyself. Those answers were given in 
response by Jesus to a bunch of Pharisees. They were trying to 
trick him up, always trying to get him into trouble with the 
Romans so they could get rid of him. And, he is a pretty smart 
guy, and so he responded with a question that they did not 
quite know how to handle.
    But, when he said, love thy neighbor as thyself, they asked 
him in response, well, who is our neighbor? And, you will 
recall, hee famously told the story or the Parable of the Good 
Samaritan. And, it is a good question for us to ask today. Who 
is our neighbor? And, if we really love our neighbor as 
ourselves, how do we treat them?
    The folks in Mexico and Canada and these three Central 
American countries, they are our neighbor, but so are the 
people on the other side of the world, and we have a reputation 
as a Nation of trying to treat others, not just in our own 
neighborhoods, not just in our own communities and States, but 
in other countries, as well, as neighbors.
    We have to be very careful here in making sure that we are 
responding in the way that the scripture would admonish us to 
do, that we do not create a situation where parents in Honduras 
and Guatemala and El Salvador literally take their flesh and 
blood and put them on top of a freight train or in one of these 
buses in the hands of people they do not know and to send them 
through all kinds of peril to get to the U.S. border.
    We have to change that dynamic, and there are a lot of ways 
to do that. We talked about some of them today, and a week from 
today, we are going to have a hearing on how we might do that 
further, how we might further change that climate, that dynamic 
in Honduras and Guatemala and El Salvador so that, hopefully, 
10 years from now, we are not going to have a hearing here that 
revisits this issue and says, why are we still wrestling with 
this problem? We want to be able to say, well, we learned 
something about Mexico a number of years ago. We did not 
entirely fix that, but we largely have. We had problems with 
Colombia. We helped solve that, largely. And, we can do this, 
as well.
    And, again, the last word I would say, this is not on our 
backs alone. We have a responsibility. We have a moral 
imperative, if you will, to try to do the right thing here. We 
have a fiscal imperative, because we do not have unlimited 
resources. We have a fiscal imperative to do it in a cost-
effective way. Find out what works, do more of that. And, 
frankly, we have to make darn sure that other countries that 
have a dog in this fight--Mexico, even Colombia, other nations, 
and, frankly, non-profit organizations and interdevelopment 
banks--that they are involved in this, as well, just with us, 
in harness with us. If we do this together, we will make great 
progress and we can feel good about what we have done somewhere 
down the road, and, hopefully, the folks that we are trying to 
help will feel a lot better, as well.
    With that, the hearing record is going to remain open for 
15 days, until July 24, 5 p.m., for the submission of 
statements and questions for the record.
    This has been a good hearing, a helpful hearing, and we are 
grateful for everyone who has participated in it to make it so. 
Thank you so much.
    We are adjourned.
    [Whereupon, at 12:46 p.m., the Committee was adjourned.]

                            A P P E N D I X
                               ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                       CHALLENGES AT THE BORDER:
      EXAMINING AND ADDRESSING THE ROOT CAUSES BEHIND THE RISE IN 
                  APPREHENSIONS AT THE SOUTHERN BORDER

                              ----------                              


                        WEDNESDAY, JULY 16, 2014

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SD-342, Dirksen Senate Office Building, Hon. Thomas R. Carper, 
Chairman of the Committee, presiding.
    Present: Senators Carper, Pryor, Landrieu, Baldwin, Coburn, 
McCain, Johnson, and Ayotte.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. The hearing will come to order.
    I want to begin today by thanking our witnesses for joining 
us.
    At last week's hearing, we examined the Administration's 
response to the current humanitarian challenge at our Southern 
Border with Mexico, where unprecedented numbers of undocumented 
Central American children and families are seeking to enter the 
United States. Today, we are here to discuss the root causes of 
this surge in migration from Central America, and it is my hope 
that all the witnesses will also talk about some things that 
they are working on and that they would think that we should do 
more of in order to address these root causes. We are really 
interested in what is working. Let us figure out what is 
working and do more of that. The converse of that would be 
true, as well.
    This is a humanitarian crisis, one that the Administration 
and Secretary Johnson are taking extremely seriously. Many of 
the Central American children and families arriving at our 
borders have heartbreaking stories to tell. We will hear about 
some of those stories shortly, but I believe they require a 
humane response and one that honors our obligations under 
United States and international law and is consistent with the 
admonition that we should love our neighbors as ourselves.
    It is not, in my opinion, a border security crisis. These 
Central American children and families are not somehow slipping 
past the massive amount of security technology and manpower we 
have deployed along the Southern Border of our country in 
recent years. They are being apprehended shortly after stepping 
on U.S. soil, often searching out Border Patrol agents instead 
of running away from them.
    But, it is obviously not an acceptable situation to have 
hundreds of unaccompanied children arriving at our Southwest 
Border each day. It is not acceptable to us as a country of 
laws, including immigration laws. And, it is not acceptable as 
a humanitarian matter, given the extreme risks that these 
people face trying to come to our country illegally.
    One of the factors that is pulling people to come to the 
United States is the perception in the region that they will be 
able to stay--even if it is just for a year or two--while their 
immigration cases are processed. In truth, that often has been 
the case for many children and families. People from Central 
America, unlike Mexicans, cannot be turned around at the 
border. They must be flown back to their countries. And, this 
process is even more complicated for unaccompanied children and 
families because our laws, appropriately, require different 
treatment for these groups. In practice, this has meant that 
repatriating children and families can take not days, not 
weeks, not months, but in some cases, years.
    In order to combat the perception that it is somehow 
possible to get a free pass to come and live in the United 
States, the Administration is taking extraordinary measures to 
speed up these cases. For example, it has surged immigration 
judges down to the border to expedite processing of cases, 
including cases involving families and children. It has greatly 
expanded its ability to detain families while their cases are 
heard.
    It has worked with the governments of El Salvador, 
Guatemala, and Honduras to expedite the issuing of travel 
documents for their citizens which are needed before someone 
can be repatriated. This process used to take more than 30 
days. Now, it takes as little as 4 days.
    And, senior Administration officials, including Vice 
President Biden, Secretary Johnson, and Secretary Kerry have 
traveled to the region in recent weeks to make clear that there 
is no shortcut that someone, even a child, can take to get 
permission to live here. In other words, those who are 
apprehended at the border will, in most cases, be returned to 
their home countries as promptly as possible.
    So, the Administration has clearly been fully engaged on 
this issue. Now, Congress needs to do its job and work in the 
near term to help stop this surge. Just last week, as we know, 
President Obama asked us for $3.7 billion in emergency funding 
to address this challenge at the border. Without this money, we 
have been told that the Border Patrol and Immigration and 
Customs Enforcement (ICE) could run out of money sometime this 
summer. It goes without saying that we cannot allow that to 
happen.
    As necessary as this money is, though, it is only one piece 
of a complex puzzle, and there are strong and entrenched 
problems in Central America that are driving so many to make 
the risky journey north. Unless we take a hard look at those 
underlying problems, we will keep spending money to repeat the 
heartbreaking symptoms at our borders. In fact, since 2003, I 
am told we spent almost a quarter-of-a-trillion dollars 
enforcing our immigration and customs laws and strengthening 
our borders along Mexico.
    Seeking a better life in the United States is nothing new. 
For some of these Central Americans, especially the children 
and the parents who often send them on their journey, the 
decision can be a desperate one. Everyday life in parts of 
Guatemala, El Salvador, and Honduras is more than just 
difficult today. It can be deadly, and some of our witnesses 
will speak to that today.
    Violence has been steadily increasing in the region, with 
homicide rates in all three countries among the highest in the 
entire world. Kidnapping and extortion are endemic. Meanwhile, 
these countries have stagnant economies that create too few 
jobs and opportunities for their citizens. Faced with this 
violence and lack of hope at home, it is no wonder that so many 
people are willing to risk their lives or the lives of their 
children on a nearly 1,500-mile journey to the United States.
    We need to help these countries help themselves, but we 
cannot do it alone and we should not do it alone. This must be 
a shared responsibility, first and foremost with the Central 
American governments, but also with the broad community with 
vested interests in the region. That includes Mexico, Colombia, 
the multilateral banks, the private sector, and institutions of 
faith.
    The steps we need to take are not easy; they are difficult. 
But, I believe that the road map is clear. We need to work with 
our partners to create a more secure and more nurturing 
environment for job creation in Central America, and I look 
forward to hearing from our witnesses today about what some of 
those steps might be.
    Based on my recent conversations and trips to the region, I 
believe that one of the critical needs there is to foster 
economic growth. How do we do that? Well, a number of ways, but 
by helping to restore the rule of law, to help lower energy 
costs, improve educational outcomes, to improve workforce 
skills, and improve access to capital.
    Now, I am not suggesting any of this is going to be quick 
or easy to do. It is going to require sustained investment and 
focus on the region by the United States and others. But, it 
can be done. In fact, we have already done it with two of our 
most important allies in the regions to our south.
    Twenty years ago, you will recall, Colombia was close to 
being a failed State. I remember when a bunch of gunmen rounded 
up the Supreme Court of Colombia, took them into a room, and 
shot them to death not all that long ago. And then there was 
the economic situation in Mexico was so bad that more than a 
million Mexicans were apprehended trying to cross our borders 
every year.
    Today, we are seeing record low numbers of Mexicans being 
apprehended at the border, with some researchers suggesting 
that more Mexicans may actually be leaving the United States 
each year than are coming here illegally today. And, Colombia 
has become a vibrant economy and a trusted democratic partner 
in the region.
    Of course, these two countries still face challenges. We 
all do. But, I believe we can all agree that there has been a 
dramatic turnaround in both countries.
    One of my guiding principles, as I said earlier, is to find 
out what works and do more of that. We need to figure out what 
worked in Mexico, or what is working in Mexico, what worked and 
what is working in Colombia, and do more of that. I look 
forward to hearing about that during our hearing today.
    One of the keys in both countries, I believe, has been 
economic growth the ability for people to have a job, find a 
path to a better life. In Mexico, the North American Free Trade 
Agreement (NAFTA), helped make it possible, its emergence as a 
middle-income nation. And in Colombia, one of the keys has been 
a sustained investment in improving security for their citizens 
through Plan Colombia.
    We need a similar commitment to Central America, and in 
making that commitment, we will not only prove ourselves good 
neighbors, we will ensure that we will not continue to face an 
expensive humanitarian crisis at our borders a decade from now. 
I am encouraged that the Administration has included $300 
million in its emergency supplemental request for the State 
Department, some of which will be used to deal with the root 
causes of the Central American migration. But, these funds 
should be seen as a downpayment. This cannot be ``one and 
done.'' If we are serious about improving conditions in the 
region, and I think we must be, we will need to do more, and, 
frankly, so will others.
    That said, I would normally turn to Dr. Coburn. He is in a 
meeting right now with one of our other colleagues, Senator 
Feinstein, on matters relating, I think, to their work on the 
Intelligence Committee. He will be joining us probably after 
this first vote, which is going to be underway just very 
shortly.
    Normally, after Dr. Coburn and I have made opening 
statements, we go right to the witnesses. In this case, I am 
going to ask if any of our Members would like to just make a 
brief statement for just, like, maybe a minute or two before--
anyone? All right. Fine. Fair enough.
    Let me, then, turn to our panel and make some 
introductions. To each of you, including Mr. Farnsworth, we are 
glad you made it. Nice to see you. I want to welcome all of 
you.
    Our first witness is Michael Shifter. Mr. Shifter is the 
President of the Inter-American Dialogue. In this position, Mr. 
Shifter advances the Dialogue's mission of bringing together 
public and private leaders from across the Western Hemisphere 
in order to advance a regional agenda of democratic governance, 
social equity, and economic growth. Prior to joining the 
Dialogue, Mr. Shifter directed the Latin American-Caribbean 
Programs at the National Endowment for Democracy. Good morning 
and welcome.
    Our second witness is Eric Olson. Mr. Olson is the 
Associate Director of the Latin American Program at the Woodrow 
Wilson International Center for Scholars. His research and 
writing have focused on the impacts of crime, organized crime, 
and violence on democracies along with ways to address these 
problems through judicial institutions and police reform. We 
really look forward to hearing what you have to say and asking 
questions of you. Prior to joining the Woodrow Wilson Center, 
he was a Senior Specialist in the Department for Promotion of 
Good Governance at the Organization of American States, from 
2006 to 2007.
    Our next witness is Eric Farnsworth. Mr. Farnsworth is Vice 
President of the Council of the Americas and the Americas 
Society. He is a recognized expert on hemispheric affairs and 
the Bureau's Foreign and Trade Policy and has testified before 
Congress many times. In the past, Mr. Farnsworth oversaw policy 
and message development for the White House Office of Special 
Envoy for the Americas. He also served at the U.S. Department 
of State beginning in 1990 and was awarded the Superior Honor 
Award three times and the Meritorious Award once.
    Next, we have Richard Jones. Mr. Jones is Deputy Regional 
Director for Global Solidarity and Justice in Latin America and 
the Caribbean at Catholic Relief Services (CRS). In this 
capacity, Mr. Jones is primarily responsible for work in peace 
building, migration, and solidarity and justice. During the 
past 10 years with Catholic Relief Services, Mr. Jones has 
developed innovative approaches to combatting gang violence and 
immigration in Central America. Before joining Catholic Relief 
Services, he served in a parish in El Salvador, helping 
refugees resettle after that country's 12-year civil war. 
Welcome.
    Our final witness today is Bryan Roberts. Mr. Roberts is a 
Senior Economist at Econometrica, Incorporated. Prior to this, 
Mr. Roberts was the Assistant Director for Border and 
Immigration Issues in the Office of Program Analysis and 
Evaluation at the Department of Homeland Security (DHS). He has 
also worked in the Department of Homeland Security's Office of 
Policy in the Science and Technology Directorate, where he has 
analyzed issues related to risk analysis, border security, 
immigration, and non-immigrant travel and trade, among other 
homeland security areas. He is also an adjunct lecturer at 
George Washington University's Trachtenberg School of Public 
Policy and Public Administration.
    With that having been said, we are delighted you all are 
here. We look forward to having a fruitful conversation. This 
is a timely hearing and I am happy that my colleagues are here. 
We have votes starting right now and we will be going in and 
out, tag-teaming here, to make sure we continue to go forward 
with your testimony so we do not waste any time, and hopefully 
not your time. This is going to be a good hearing. Welcome.
    Mr. Shifter, why do you not lead us off. Your entire 
statements, all of you, will be made part of the record, if you 
would like to summarize. Try to keep to about 5 minutes. If you 
go way beyond that, I will have to rein you in. Thank you. Mr. 
Shifter.

  TESTIMONY OF MICHAEL SHIFTER,\1\ PRESIDENT, INTER-AMERICAN 
                            DIALOGUE

    Mr. Shifter. Thank you very much, Mr. Chairman, and thank 
you, Members of the Committee. I appreciate very much the 
opportunity to share my views about the root causes motivating 
Central Americans, especially unaccompanied children (UAC), to 
leave their countries and enter the United States. This strikes 
me as the right focus and will help advance United States 
interests over the long term.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Shifter appears in the Appendix 
on page 336.
---------------------------------------------------------------------------
    President Obama's proposal of $3.7 billion in emergency 
funds will be debated in Congress and across the country. I 
believe it contains elements that are useful in responding to 
the urgent situation on this side of the border. But, the dire 
conditions in the three main sending countries, Honduras, 
Guatemala, and El Salvador, are mostly driving the crisis and 
need to be addressed. If they are not, whatever we decide to do 
in the United States now will not prevent another wave of 
migrants from these nations down the road.
    Today's crisis is complex and has no single cause or 
explanation. Each of these countries has its own particular 
features. Migrants are coming because they are facing a mix of 
extreme poverty, lack of opportunities, violence, criminality, 
and abuse. The data are well known. Today, more El Salvadorans 
are being killed than during the worst moments of that 
country's bloody civil war in the 1980s.
    What these countries all share, however, is a crisis that 
derives from weak institutions and governance. The capacity of 
these governments to protect its citizens and deliver basic 
services is very limited. Corruption is rampant.
    In thinking about the root causes, it is also important to 
consider the drug trade. Unfortunately, it continues to 
flourish and is a key dimension of the violence in these 
countries. Studies show that most migrants are coming from 
places where the homicides are committed, and many of these 
homicides are directly or indirectly linked to drugs.
    The role of the so-called coyotes is critical, also, in 
explaining the recent surge of unaccompanied minors to the 
United States. This criminal group profits from human 
trafficking and smuggling across the border. The coyotes are 
also a main source of misinformation about U.S. immigration 
laws, which is another factor in this mix which is creating a 
perception among the migrants who are coming to the United 
States.
    The U.S. Government has been concerned about these 
deteriorating conditions for many years. However, the response, 
as illustrated by the current crisis, has been inadequate. 
There have been good intentions, but scarce resources and 
little follow-through. A comprehensive approach is needed.
    United States assistance should prioritize key 
institutions, such as the police forces and the courts. This is 
the best way to help advance the rule of law. This is one of 
the lessons, I think, we can take away from Plan Colombia, 
which did turn around the capacity of the police forces in that 
country. It is also, in the long term, the best way to tackle 
the drug challenge. Fragile institutions cannot do the job, no 
matter how much support we provide for interdiction activities.
    Resources should also be assigned to community-based youth 
programs, which can keep children in their home countries. They 
should be targeted to those most likely to leave. Better-
targeted programs should be undertaken to strengthen education 
and school retention, as well.
    The United States should also encourage better use of the 
remittance flows to these countries. The focus on financial 
inclusion, which is a main program of the Inter-American 
Dialogue--we work a lot on financial inclusion in Central 
America and Mexico--should be given priority. This can be a 
powerful development tool to build assets for poor families 
over the long term.
    Just as important as where we direct resources to these 
countries is what our approach is. True partnerships with 
national and local governments, the private sector, and civil 
society groups are critical. Everyone needs to have a stake in 
this overall effort to turn around such a dire situation. That 
is the only way any approach can be sustainable.
    The same is true in Washington. One lesson we should take 
away from the United State's successful engagement with 
Colombia for nearly 15 years is that bipartisan support is 
fundamental. In the same way today, broad agreement on a 
sustained effort to help assist our closest neighbors so 
profoundly connected to the United States is crucial. There is 
no quick fix. Any serious effort will take a long time. But, 
the ominous conditions today require a swift, constructive, and 
bold response.
    Thank you very much.
    Chairman Carper. Thank you, sir.
    Mr. Olson, please proceed.

   TESTIMONY OF ERIC L. OLSON,\1\ ASSOCIATE DIRECTOR, LATIN 
   AMERICAN PROGRAM, WOODROW WILSON INTERNATIONAL CENTER FOR 
                            SCHOLARS

    Mr. Olson. Good morning, Chairman Carper and Senators. I am 
glad that you have invited me. Thank you for the opportunity, 
and I am pleased to appear before the Committee on behalf of 
the Woodrow Wilson Center.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Olson appears in the Appendix on 
page 341.
---------------------------------------------------------------------------
    I just returned from a 6-day trip through Central America's 
Northern Triangle--Guatemala, Honduras, and El Salvador--a 
couple weeks ago. It is the latest in a series of research 
missions we have carried out in that area to try to understand 
the context of violence and the desperation there and also get 
a better handle on what United States efforts have been to 
address these problems.
    I think this Committee hearing is appropriate and I think 
it is well targeted to try to get at some of these underlying 
drivers and push factors that are contributing to this overall 
problem. The push factors are real and overwhelming, suggesting 
that for many, the long odds of coming north are better than 
the impossible odds of staying in their countries.
    There are essentially three factors that we have identified 
and have already been mentioned. Obviously, the first is 
violence, and these three countries are now the most violent 
region in the world, Honduras having the highest murder rate of 
any country at 90 per 100,000. Salvador is in fourth place, and 
Guatemala is in fifth place, with just over 40 per 100,000 
being killed. And, by way of comparison, I would just point out 
that Colombia is at 31 and Mexico at 20, so double the rate of 
murders you have in Honduras.
    But, homicides tells only part of the story. It is not all 
about murder. The violence at the community level is 
overwhelming, and it is the result of the presence of criminal 
networks and gangs who extort, kidnap, threaten, and forcibly 
recruit young people into their networks. And, so, while murder 
is common, extortion and fear is constant, forcing people to go 
along with the criminals or to flee.
    Two weeks ago, I was in Honduras and visited a community 
outside of Tegucigalpa that I have been visiting since the mid-
1980s, when I lived there. I go back every time I am in 
Honduras to talk to the people in that community and try to 
understand what they are facing. They told me that there are 
roughly six criminal groups in their community extorting every 
kind of economic activity. They extort people on buses. They 
extort the taxi drivers. Anyone who tries to sell something 
from their house--tamales or tortillas--to make a little extra 
cash, has to pay the extortionists. So, this is the kind of 
violence at the local level that is really terrorizing people 
and driving some of this migration.
    We have also touched on the issue of poverty, and I will 
just add a couple points on that. Roughly two million Central 
Americans, or 23 percent of the population, between the ages of 
15 and 25 neither work nor have jobs. They are known as the 
``NiNis,'' people who have no involvement in the economic 
activity or in education. The dropout rate in Central America 
is roughly 50 percent after elementary school. And, Honduras 
has a poverty rate of nearly two-thirds, with that population 
living on $1.25 a day or less. In Guatemala, the poverty rate 
is around 54 percent, but chronic malnutrition is extremely 
high, about 50 percent for children under the age of five. So, 
all these factors together at the community level are playing a 
major role.
    In my written statement, I suggest a series of ``dos and 
don'ts'' for U.S. policy. I am just going to skip over those in 
the interest of time to focus on a few recommendations as the 
Congress moves forward.
    As my colleague, Michael Shifter, has said, we have been 
doing some of these things focused on building institutions in 
Central America for a long time, and they are essential and 
important. But, unfortunately, we really have not had much 
impact. In many cases, we have been funding these programs for 
up to 30 years. So, the question is, what do we want to do to 
turn that corner?
    I think I would put at the first, the front of the list, 
the issue of fighting corruption. Fight corruption by holding 
people accountable and strengthening the mechanisms of 
transparency and accountability in government. We do not always 
do that. We spend a lot of time training people.
    Second, I would put at the front of the line the issue of 
reducing violence, not focusing on drug trafficking. I think 
reducing violence at the community level, which is often not 
related to the transshipment of drugs, is a major priority.
    Third, I would demand more from the Central American 
political and economic elite. You said it yourself, Mr. 
Chairman. This is a situation where we need shared 
responsibility. The United States has a role to play, but so do 
the Central Americans, and oftentimes, they have not come 
through on their end of the bargain.
    And, let me just make two more points on what we should 
consider doing. Fourth, empower civil society. I think 
sometimes we do not have the partnerships in government that we 
need. Corruption has penetrated and taken over institutions of 
government. So, we need to focus more on the role of civil 
society in monitoring and holding governments accountable, and 
that includes nurturing independent investigative journalism.
    And, fifth, and I will end with this, we need to make 
economic opportunity part of the security strategy. We need to 
integrate these two in a way that are complementary. Too many 
times, we put security ahead of economic opportunity and the 
balance should really be between the two, working together to 
reinforce one another.
    Thank you.
    Chairman Carper. Thank you. That was excellent testimony, 
very helpful. I am anxious to get back to your five points 
there and ask our panel to kind of react to those.
    Senator Pryor has already voted. He has come back to allow 
me to go vote, and I think Senator Johnson, as well. So, the 
gavel is in your hands. I think Dr. Coburn may show up shortly, 
before I get back. I appreciate very much your doing this. 
Thank you. Senator Mark Pryor from Arkansas. Thank you.
    Senator Pryor [presiding]. Well, I want to thank all of you 
for being here and I will try not to do too much damage to the 
Committee while the Chairman is gone. [Laughter.]
    Mr. Farnsworth, go ahead. Thank you.

   TESTIMONY OF ERIC FARNSWORTH,\1\ VICE PRESIDENT, AMERICAS 
                SOCIETY/COUNCIL OF THE AMERICAS

    Mr. Farnsworth. Thank you, Senator Pryor and other Members 
of the Committee, for the opportunity to be here. It is a 
timely hearing and I appreciate very much the opportunity to 
participate.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Farnsworth appears in the 
Appendix on page 347.
---------------------------------------------------------------------------
    As has already been said, we are witnessing a heart-
rending, immensely difficult humanitarian drama on the 
Southwestern Border. Almost 60,000 unaccompanied minor children 
have been picked up there since last October, according to 
reports, and many of these migrant children are, in some cases, 
less than 10 years old, entrusted by their families to 
profiteers trading on tragedy to get them from Central America 
through Mexico into the United States.
    And, so, the question has to be asked why families believe 
their circumstances to be so hopeless or desperate as to 
consider that a better option for their children lies in 
sending them on a potentially treacherous journey to the U.S. 
border to an unknown future.
    The issues within Central America, and here, we are talking 
about primarily the Northern Triangle countries of El Salvador, 
Guatemala, and Honduras, have been building for some time, as 
has already been discussed.
    The root of Central America's problem, in my view, is the 
geographic reality that it exists between the world's largest 
consumer of illegal drugs, the United States, and the world's 
largest producer, South America. Under normal circumstances, 
this would be bad enough, but with the cessation of the brutal 
Central American wars of the late 1980s and early 1990s, 
insufficient attention was paid, I believe, to reintegrating 
former combatants, building professional apolitical police 
forces, reforming judiciaries, rooting out corruption, and 
creating economic opportunity with an intensive focus on broad-
based education and training.
    At the same time, natural disasters, including Hurricanes 
Mitch in 1998 and Stan in 2005 and others, caused immense human 
and physical destruction and wiped out significant economic 
production, and manmade disasters, including the Honduran 
political crisis in 2009, led to a vacuum in already weak 
governance that has been exploited by drug traffickers and 
other illegal actors.
    The United States has arguably contributed at some level to 
the problem by deporting hardened criminals back to the region 
without full coordination with receiving nation officials. Many 
of these folks have already been indoctrinated into the gang 
culture in the United States in its prisons, and at the same 
time, the export of weapons from the United States often falls 
into criminal hands.
    It is a potent mix, and regional governments have largely 
proven incapable of responding effectively, particularly at the 
community level, as has been discussed.
    One critical component of a solution, I believe, is the 
creation of realistic prospects for economic gain within 
migrant-sending nations, in other words, good, legal, 
sustainable jobs offering the prospect for a better life and 
stability at the local and community level that is currently 
lacking. For years, without such opportunities, the young and 
unemployed have generally pursued one of two options. They 
either attempt the dangerous journey to the United States or 
they throw in their lot with the criminal gangs who have 
proliferated and transformed the region into one of the most, 
if not the most, dangerous worldwide. And, it is these gangs 
and the mayhem they are creating in El Salvador and the drug 
gangs and gangs in Guatemala and Honduras that are creating the 
conditions of deep personal insecurity that are now pushing a 
new population of migrants to flee.
    Regional job creation is not a panacea, but it would 
provide options and possibilities that do not otherwise exist. 
The Central American Free Trade Agreement (CAFTA-DR) was a 
beginning, and statistics show that the region has benefited 
from this trade agreement that has been in effect for a decade, 
as has the United States. But, the agreement is a beginning 
point, not an endgame, establishing permanent market access to 
the United States and transparent rules of the game for private 
sector engagement. It is now incumbent on the other parties to 
the agreement, in addition to the United States, to take steps 
domestically and regionally in order to gain the full benefit 
of the agreement.
    Without an attractive business climate, including enhanced 
personal security, an educated workforce, improved 
infrastructure, and, critically, regulatory transparency and 
the rule of law, investors both foreign and domestic will 
concentrate elsewhere. A lack of investment means forgone job 
creation as well as tax receipts, technology transfer, and 
access to global supply chains, reinforcing an already 
difficult economic scenario.
    In the meantime, I believe we can do more to assist the 
nations in question to improve the business climate, and we 
must also be mindful of the potential unintended consequences 
in Central America of trade expansion efforts elsewhere, 
including the Trans-Pacific Partnership, taking steps to hold 
the Central American region harmless from potential impacts on 
regional competitiveness brought about through the impact of 
trade diversion.
    At the same time, we can work to improve regional 
competitiveness in other ways by encouraging the creation of a 
true regional Central American marketplace, increasing internal 
market size, and improving efficiencies and economies of scale. 
For example, we should higher prioritize, in my view, the 
cleaner energy agenda for the region, increasing energy 
security while lowering energy costs, improving environmental 
conditions, and reducing regional reliance on Venezuela's 
strategic energy initiative, Petrocaribe.
    We should promote regulatory convergence and infrastructure 
development, among other things, to build market size, and we 
should continue to work on a regional basis, not just 
necessarily on a bilateral basis only, on the security agenda, 
seeking multilateral cooperation with us and having the 
countries cooperate with each other. This must include the 
employment of all available and appropriate resources, 
including security forces, to recapture State control of 
lawless areas and restore order where it is lacking.
    Of course, the primary driver of investment and job 
creation must be the local business community, including 
entrepreneurs, and they should also be seen as a partner in the 
broader agenda. As our sister institution, the Americas 
Society, has found previously in collaboration with the World 
Bank and others, violence reduction also reduces security-
related costs and improves worker productivity while the 
private sector can provide training and labor market access for 
at-risk youth. A number of programs are ongoing and showing 
promise, although the issue of scalability does remain.
    The flow of unaccompanied migrants at the Southwestern 
Border of the United States is a symptom, I believe, tragic as 
it certainly is, of a broader crisis in personal security in 
the Northern Triangle, and that has already been discussed. In 
order to treat the symptoms effectively, we have to address the 
cause. That will require sustained high-level attention, 
resources, and a commitment to addressing some very difficult 
concerns, and in this regard, I really appreciated the 
Chairman's opening Statement where he talked about a longer-
term commitment and not a one-and-done approach. I thought that 
was quite appropriate.
    The United States has an immense stake in Central America's 
success, given our own history and engagement there, and 
perhaps it might be time now to consider a second Kissinger-
style commission to develop urgency and consensus for a 
comprehensive approach to Central American security and 
development, much as was done in 1983, including a focus on job 
creation and economic opportunity.
    So, I want to thank you again, Mr. Chairman, for the 
opportunity to testify and I look forward to any questions you 
may have.
    Senator Pryor. Thank you. Mr. Jones.

  TESTIMONY OF RICHARD JONES,\1\ DEPUTY REGIONAL DIRECTOR FOR 
    GLOBAL SOLIDARITY AND JUSTICE IN LATIN AMERICA AND THE 
              CARIBBEAN, CATHOLIC RELIEF SERVICES

    Mr. Jones. Thank you, Senator Pryor. I would also like to 
thank Chairman Carper and Ranking Member Coburn for the 
opportunity to call these hearings to look more deeply at the 
underlying causes of why so many children and families are 
fleeing to the United States.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Jones appears in the Appendix on 
page 396.
---------------------------------------------------------------------------
    My name is Richard Jones. I work for Catholic Relief 
Services as the Deputy Regional Director for Latin America and 
the Caribbean. I have been living in El Salvador for the past 
24 years.
    What we are witnessing is a refugee crisis due to violence. 
El Salvador, Honduras, and Guatemala rank among the top five 
most violent countries in the world. The homicide rates in 
Honduras are eclipsed only by Syria and maybe South Sudan.
    Last month in San Pedro Sula in Honduras, four young boys 
were assassinated and dismembered. They had refused to be 
couriers for the local gang to carry drugs throughout their 
community. The gangs and the drug cartels are recruiting 
forcibly young children as early as 8, 9, and 10 years old to 
be lookouts, drug couriers, and foot soldiers.
    Two weeks ago in El Salvador, I met with a woman and her 
two daughters who had recently been deported from Mexico. They 
had left El Salvador because one day the 18th Street Gang 
members knocked on her door and said, ``Your two daughters are 
now going to become the queens of our gang.'' She left that 
night. She was picked up in Mexico and returned and now has no 
safe place to go.
    An estimated 130,000 people in El Salvador have been 
internally displaced by this violence. My own son's soccer 
teammate last October was stabbed on the bus on the way home 
from practice. The gangs are enforcing a ``join or die'' rule. 
The following month, he left with his father for the United 
States. He was one month away from graduating from high school.
    These children and their families feel that they are 
trapped in a blind alley with only a fire escape, a rickety 
fire escape, to safety. They know that the risks of traveling 
north are high, but they feel that they have no other choice.
    What we know is that while this is a complex problem and 
requires multi-faceted solutions, there are solutions and they 
are scalable.
    First of all, we need to focus on primary prevention, that 
is, targeting the communities who are most violent with 
services that include day care, community centers for after-
school programs, like the Alcance Center supported by USAID in 
all three countries of the Northern Triangle, and school 
programs. Through the McGovern-Dole Food for Education Program, 
CRS in Honduras is working with 54,000 students in over 1,000 
schools of heavy out-migration, and we are having rates of 
attendance over 90 percent, which is well above the national 
average. In addition to that, in Mexico, we have started 
programs for listening centers and treatment of victims of 
violence, because what we have learned from Colombia and Mexico 
is that the quickest path to become a perpetrator of violence 
is to have been a victim. We need those kinds of services for 
primary attention.
    Secondary attention needs to be provided to adolescents 8 
to 15 years old who are at risk of joining gangs, and their 
families. We have started Strong Family programs to strengthen 
families' ability to deal with dysfunction, to improve their 
household communications, and these are showing a great deal of 
promise. Young people ages 16 to 24 need opportunities. Between 
2010 and 2014, CRS in El Salvador implemented a workforce 
development program with out-of-school and unemployed youth. We 
were able to reach 6,000 youth over 4 years, and 80 percent of 
them at the end of the program were able to get jobs, go back 
to school, or start their own business. These are very 
successful programs that are scalable and are being planned and 
the governments are very excited about it.
    Tertiary prevention schemes also need to be implemented. 
Working with kids in school or in prisons and those who are 
gang-involved to interrupt the violence is an absolute 
necessity. The gang members need to be part of the solution.
    Finally, in order to address the immediate crisis, the 
State Department should consider the implementation of an 
orderly departure program for children and their families who 
meet the requirements of refugee protection. We need to screen 
all the young people who are arriving at the border in order to 
find out, do they have a legitimate claim for protection and 
asylum. Those who do not and need to be deported, we need to 
support robust, safe, and secure repatriation programs like the 
ones that are run by the First Lady in Guatemala and the 
Government of El Salvador is planning one now to expand those 
programs. We need to be able to support those.
    We at CRS believe that youth, even in the most violent and 
poorest neighborhoods, have the power to change their lives and 
their neighborhoods. We need to support them to unleash that 
power.
    Thank you very much.
    Senator Pryor. Thank you. Dr. Roberts.

TESTIMONY OF BRYAN ROBERTS,\1\ SENIOR ECONOMIST, ECONOMETRICA, 
                              INC.

    Mr. Roberts. Thank you, Senator Pryor, and I would like to 
thank Chairman Carper, Ranking Member Coburn, and the 
distinguished Members of the Committee for inviting me to 
testify today on this very important topic.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Roberts appears in the Appendix 
on page 408.
---------------------------------------------------------------------------
    The testimony that follows draws in part from research that 
I have been conducting over the past several years with two 
distinguished colleagues. Edward Alden, John Whitley, and I 
published a Council on Foreign Relations study last year 
entitled, ``Managing Illegal Immigration to the United States: 
How Effective is Enforcement?'' This study evaluates the impact 
of immigration enforcement and also longer-run trends in 
economic and demographic factors that are influencing illegal 
immigration to the United States.
    I would like to make three primary points today. First, 
good data and analysis are an essential element of any strategy 
to improve immigration policy and border management. They 
improve our understanding of key outcomes related to illegal 
immigration, decisions on resource allocation and policy 
design, and the quality of public debate. It will be difficult 
to make progress on reform of immigration policies if there 
continues to be deep disagreement over the most basic facts and 
questions related to illegal immigration and border security. 
Both the U.S. Government and the research community, as well as 
colleagues who are working in the region, have essential roles 
to play in achieving that progress.
    My second primary point is that available data and analysis 
already provide useful insights into important questions on 
immigration and border issues. Some examples include, has U.S. 
border enforcement become more effective over time, and has it 
deterred people from migrating illegally to the United States? 
Is the fall in illegal migration from Mexico to the United 
States due to economic developments or to the border 
enforcement buildup after 2007? What are the key longer-run 
factors influencing illegal migration to the United States and 
how will they develop in the future?
    My third primary point is that it is essential that the 
Department of Homeland Security make data related to 
immigration enforcement available to researchers and permit 
them to publish their studies. This is a necessary step for 
achieving the progress that is possible with making use of data 
and analysis to inform decisionmaking. DHS should be commended 
for the remarkable progress that has been made with respect to 
the sharing of information on legal flows of people through 
ports of entry and immigration benefits processing. Similar 
progress could quickly be made on analysis of immigration 
enforcement issues if DHS adopted a similar approach with 
respect to enforcement data.
    I would now like to conclude my opening statement with a 
discussion of the surge in unaccompanied children to the United 
States. The number of unaccompanied children arriving at the 
U.S. Southwestern Border began growing rapidly in fiscal year 
(FY) 2012. My written testimony reviews the available evidence 
on these surges and identifies four key characteristics.
    First, the surges from El Salvador, Guatemala, and Honduras 
all began in fiscal year 2012.
    Second, there has been no sustained surge from Mexico.
    Third, the surge from Honduras has been much larger in 
percentage terms than those from El Salvador or Guatemala.
    And, finally, the surge in unaccompanied children has also 
been accompanied by a surge in apprehensions of other non-
Mexican nationals.
    Two hypotheses to explain the surges have received much 
public discussion in recent weeks. The crime-push argument is 
that underlying conditions in these countries, and in 
particular high levels of crime and violence, caused the surges 
to happen. The policy-pull argument is that U.S. policies have 
caused them.
    After reviewing the data and conducting some statistical 
analysis, I offer the following tentative conclusions, and I 
would stress that they are tentative. Underlying conditions in 
Central American countries and U.S. policies have both played a 
role in creating the potential for the surges. Underlying 
conditions, including crime and violence and lack of economic 
opportunity, create incentives to migrate, and U.S. policies 
encourage using the unaccompanied child channel if that is 
possible.
    When one considers the evidence across the three countries, 
changes in crime rates and other underlying conditions are not 
compelling as an explanation for why all surges began in fiscal 
year 2012. There are no changes in murder rates in 2012 that 
suggest an upsurge in violence in that year that would have 
triggered the surges. In El Salvador, the murder rate fell 
significantly in 2012 as the result of a truce between the two 
largest gangs, which held into 2013. Our colleague from El 
Salvador could speak more deeply to that. In Guatemala, the 
murder rate fell slightly in 2010 and has been very stable 
since then.
    In Honduras, there was a dramatic rise in the murder rate 
in 2009, followed by smaller increases in 2010 and 2011, with 
stabilization in 2012 at the highest murder rate recorded in 
the world. Given that the dramatic rise in Honduras' murder 
rate and other reported crime began in 2009, it is surprising 
that its surge did not start before 2012.
    I, thus, conclude that high levels of crime, violence, and 
lack of personal security thus likely play an important role 
for setting the stage for the surges, but they do not explain 
the triggering or timing of the surges in fiscal year 2012. I 
would also observe that there is no obvious economic 
development in 2012 that could have served as a trigger.
    The argument that the Deferred Action for Child Arrivals 
(DACA), administrative action that was implemented in June 
2012, played a role in initiating the surges cannot yet be 
evaluated due to lack of needed data, in particular, monthly 
data on the number of unaccompanied children for the period 
2008 to 2014. Subsequent research should also try to identify 
and evaluate other possible explanations in addition to those 
discussed here.
    I conclude by noting that challenges with understanding the 
causes of these surges and the potential effectiveness of 
various policy responses to them are a direct illustration of 
my opening points. There is disagreement about the causes of 
the surges and this is one cause of the disagreements over the 
best policy responses to them. Better data and analysis would 
help establish a more broadly accepted basis of facts upon 
which to have the policy debates.
    Thank you again for inviting me to participate in this 
hearing.
    Chairman Carper [presiding]. Good. Dr. Roberts, thanks so 
much.
    I apologize for having to miss, Mr. Farnsworth, your 
testimony and that of Mr. Jones. I had a chance to look at it, 
so, hopefully, we will have a chance to draw you out in the 
question and answer.
    I want to thank Senator Pryor for presiding while the rest 
of us went off to vote.
    My last job before I came here to serve in the Senate was I 
was Governor of Delaware for 8 years, from 1993 to 2001. For 8 
years, we focused on how do we strengthen the basic building 
block of our society, families. That was it. How do we 
strengthen the basic building block of our society, families? 
If we have problems with kids not doing well in school, high 
dropout rates, underachieving students in school, high rates of 
teen pregnancy, a lot of folks on welfare, all kinds of--we 
say, rather than just focus on the symptoms of those problems, 
why do we not figure out what is causing them. What are the 
underlying causes of those problems? And, that is what we 
focused on for 8 years, I thought to very, very good effect.
    One of the things we did, we had a statewide campaign on 
teenage pregnancy. It was actually helped developed by kids 
from every high school, I think, in our State who participated 
in the summit that focused on that. One of the billboards we 
had in our campaign was, ``The best contraceptive is a 
future.'' That is what it said. ``The best contraceptive is a 
future.''
    And I think that maybe the best antidote for what is going 
on in these three Central American countries--I have been down 
in El Salvador and Guatemala this year--we have been down to 
Colombia this year and Mexico, trying to understand how 
Colombia came back from the brink and how Mexico has gone on to 
surge economically. I understand they may graduate as many as 
300,000 engineers this year. It is about as many as we will. 
And, that the net migration, as I said in my opening statement, 
of Mexicans heading back into Mexico may actually exceed the 
number of their folks that are trying to come here illegally.
    So, trying to understand what went right in Colombia, what 
has gone right in Mexico, what can we learn from them, and how 
can they help. They can help. They have a dog in this fight. 
They have an obligation, having been helped by us and others, 
they have an obligation to help these three Central American 
countries.
    I want to go back. A long time ago, I was a Congressman, 
and I remember going down to a summit--hosted by the former 
President of Costa Rica, a summit of all the Central American 
presidents. I remember meeting, I think it was the President of 
Honduras--I told this to the Honduran ambassador to the United 
States yesterday--I said, your President told me at a summit 
hosted by the President of Costa Rica, gosh, 25 years ago, that 
in our country, every 4 years we elect a President. We expect 
that person to serve for at least 4 years, maybe 8 years. Then, 
there is another election and somebody else becomes President 
and we turn over the chain of command and that is the way it 
works. He said, ``That has never happened in our country.''
    There were some hellacious days back then. You all know 
about them, especially in the 1980s. And, yet, we never saw 
during those years--we saw some people come to our country to 
try to get in, but not anything like we are seeing now with 
unaccompanied minors coming, trafficked by and moved by these 
coyotes. Why did we not see the kind of surge in the 1980s when 
there was such violence in some of these countries as we are 
seeing now? Why did they not--just, anybody. You guys decide 
who wants to answer. Several of you can. Mr. Farnsworth, why 
did we not see the kind of violence then?
    Mr. Farnsworth. Well, thank you, sir. Both were 
multifaceted, but, I think, basically, the type of violence in 
the 1980s was political violence and the targets were political 
actors, whereas now the violence is widespread. It is 
extortive, or extortion. And, it is at the local and community 
level and everybody is subject to it. So, in the past, perhaps, 
if you had weapons, you might be subject to violence, but if 
you were just in the community, you may be able to escape it. 
Now, I know I am over-generalizing, but now, the sense is, at 
least from a lot of communities, that you are subject to it no 
matter what and there is nothing you can do to prevent that.
    Chairman Carper. All right. Fine.
    Another question. I mentioned I wanted to get to this 
before. Let us go back to Colombia, nearly a failed nation 20 
years or so ago, not so today. I was there a couple of months 
ago. I was very impressed. And, Mexico, a similar kind of 
turnaround. Even though the fact that you still have a lot of 
drug, narcotics, gang activity there, they are overcoming that 
with our help. What do we learn from Plan Colombia, if you 
will? What do we learn from our experience in Mexico? And, we 
will just take it from the top. Mr. Shifter, please.
    Mr. Shifter. Yes, thank you. Well, I think, Colombia, 
clearly, we had a very constructive partner in the Colombians. 
They said, the lights are going to turn out. The country is no 
longer viable because the violence----
    Chairman Carper. Yes. They were about to lose their 
country.
    Mr. Shifter. Absolutely.
    Chairman Carper. They were about to lose it.
    Mr. Shifter. And, so, that came together. They came 
together at the same time that the United States was--remember, 
the Plan Colombia happened just a year before 9/11, so we were 
in a much better situation. We did not have the commitments to 
Afghanistan, Iraq, and elsewhere. That did not exist. It was 
July 2000 when----
    Chairman Carper. Camelot. It was Camelot.
    Mr. Shifter. Right. So, it was a----
    Chairman Carper. It was good days.
    Mr. Shifter. It was a different moment. And, so, the 
Colombians came together. The United States was willing to 
support--there was political will in the United States. It was 
bipartisan support to work with the Colombians together. And, 
they had a plan to how to tackle this problem, and we worked on 
strengthening the capacity of the State to assert the authority 
of the government.
    The police turned around. The security forces, the army, 
the military, were able to protect people. There were no police 
presence in Colombia at the end of the 1990s. There are 1,300 
municipalities in Colombia and there was police presence just 
in 100 or two by the time of the United States support. Now, 
there were police presence in these communities.
    So, the violence has not disappeared, but, clearly, it is 
under control. The State has been key, and the key was the 
sustained support from the United States with a willing 
partner.
    Chairman Carper. When we were in Guatemala and El Salvador 
a couple of months ago, one of the folks we met with said to 
us, what is the problem here? What is the problem in terms of 
lack of economic activity? And, he said, ``People are afraid to 
be successful in business, because if you are, you will get 
extorted, and if you do not come across with the money, you 
will get killed.'' And, he said--I will never forget this guy 
said, ``We have policemen who do not police. We have too many 
policemen who do not police, too many prosecutors who do not 
prosecute, too many judges who do not sentence, too many 
prisons and they do not really provide punishment, if you will, 
or rehabilitation.''
    And we literally heard one story, I think it was in 
Guatemala, we were told that there was a prison where the 
inmates get cell phones from the guards and they conduct their 
nefarious business or criminal activity from inside the prison. 
I met with the Guatemalan President and I said, do you know 
this is going on in your prisons? And, I said, there is 
technology where you can actually shut off, put, like, a 
blanket over the prison so that calls cannot get in, cannot go 
out, and you have that capability and you do not use it. I 
mean, it is just very disturbing. Mr. Olson.
    Mr. Olson. Well, no. I was going to agree with you on 
several points. One is that on this issue of prisons, El 
Salvador has an over-populated prison rate of over 130 percent. 
And, the prisons are not only inhumane, which is bad enough, 
people in prison that the government does not even know who is 
there, but they have become a part of the criminal enterprise. 
As you suggest, people are actually in prison running their 
criminal enterprise from prison. So, it is a moral issue, it is 
a humanitarian issue, but it is also a crime fighting issue. We 
need to get at the bottom of that particular issue.
    The second issue you touched on has to do with a sense that 
even when I invest in an enterprise, even when I invest in a 
small business, I am going to face the kinds of extortion and 
threats that make it a disincentive. And, so, that is why I am 
saying that we need to focus not just on homicides and 
transnational drug trafficking--which are important, I am not 
saying they are not--but really at the community level, which 
is driving the kind of migration we see now. It is that 
extortion, that sense of you cannot do anything, you cannot 
even sell tortillas without people coming to extort you, and 
people give up, or they join, and that is the desperate choice 
they are trying to make.
    Chairman Carper. Good. I am going to hold it right there. 
My time has expired.
    Senator Baldwin is next, then Senator McCain, Senator 
Johnson, Senator Pryor, and Senator Ayotte. And, Senator 
Baldwin, why do you not lead us off, please.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you. I really appreciate this 
hearing and the one last week.
    Chairman Carper. Thank you for being a part of it.
    Senator Baldwin. And, thank you to our witnesses today.
    I want to just touch on a couple of topics, if we have time 
during this Q and A, and the first is relating to the 
supplemental request that we will be considering over the days 
to come. As many of you discussed in the testimony that you 
provided, there are enormous problems of violence and 
instability and endemic poverty in Central America that are, in 
part, driving the dramatic increase in unaccompanied minors 
that we are seeing come to the United States, despite the fact 
that, overall, the number of undocumented individuals coming in 
is at an all-time low. But, of course, the unaccompanied minors 
are what we are here to talk about.
    According to data from the Migration Policy Institute and 
further analysis by the staff of this Committee, the United 
States has spent about $223 billion on immigration and customs 
enforcement since 2003, but only about $2 billion on foreign 
assistance to the three countries, El Salvador, Guatemala, and 
Honduras. And, a majority of this aid has focused on drug 
interdiction.
    Now, we are having a debate here about the funds that the 
Administration is requesting and some of my colleagues are 
indicating that the Administration is requesting too much 
funding and that we should approve a slimmer package than the 
President has proposed.
    Mr. Shifter and Mr. Jones, I would like to start with you. 
Given your direct experience with the troubling state of 
affairs in these three Central American countries and the 
conditions that you have testified are driving, in part, the 
migration to the United States, do you believe that the 
Administration's request adequately addresses the root causes 
that you have been discussing, and what impact would cutting 
the funding for direct engagement with Central American nations 
have on our ability to prevent future migrations to the United 
States? Why don't I kick it off there?
    Mr. Shifter. Thank you, Senator, for the question. This, 
clearly is an emergency request, and it is focused principally 
on this side of the border. Three-hundred-million dollars is 
for the three countries that you mention. That is $100 million 
for each country, if you want to break it down that way. That 
is, given the magnitude of the problem that I think all of us 
are describing here, I think that falls short. I think it is 
inadequate.
    There is a question of how these countries can absorb and 
use the money well, but that is something that we need to focus 
on, as well. It is not just giving the money and more money. It 
is also accompanying that with support and assistance so that 
money is used well, there is transparency, as my colleague 
said, and there are other standards that are met.
    But, that means much more significant engagement than we 
have seen so far. We have good intentions. We have thrown some 
money at some programs. They have had some useful results. But, 
obviously, the problem is getting worse and there needs to be 
more assistance.
    Senator Baldwin. Mr. Jones.
    Mr. Jones. Thank you for the questions, Senator. I think 
the supplemental is just the beginning in the sense that some 
of the numbers that we are seeing--$35 million for workforce 
development for young people--we were able to reach, as I said 
in my testimony, about 6,000 young people over 4 years with 
$4.5 million. It is estimated in El Salvador alone that they 
need jobs for 50,000 young people each year. That would be 
between $35 and $40 million a year. So, this is just the 
beginning if we do that.
    I think if we do not do this, what we are going to see is 
continued numbers of young people arriving at our Southern 
Border, and the only people who are benefiting from this right 
now are criminal groups and smuggling organizations. It costs 
anywhere from $7,000 to $12,000 from El Salvador to get to the 
United States.
    Senator Baldwin. I want to stop you there, because that is 
a point I would love to hear further comment on. We have had 
some testimony regarding human traffickers, the folks engaged 
in this villainous activity. What would an all-hands-on-deck 
crackdown look like and how effective might that be an 
intervention in this crisis that is going on right now? Some do 
unspeakable things. We have had partnerships with other nations 
in terms of going after drug smugglers. We have engaged in law 
enforcement cooperation. What would be a short-range but 
expeditious thing that we could do to up our approach against 
the real villains in all of this? Again, I direct this both to 
Mr. Shifter and Mr. Jones, but would welcome other thoughts on 
this topic.
    Mr. Olson. Thank you for the question, Senator. I would say 
two things to that. One, focusing on violent reduction at the 
community level is absolutely essential, as Rick has pointed 
out. I think that is really the key driver here of what much of 
this exodus from these community levels, and trafficking, quite 
frankly, starts there, at the community level, where people are 
recruited, promised jobs in the United States, promised 
passage, and then find themselves caught up. So, I would have 
very much of a community-focused approach to lowering violence. 
Primary prevention programs are essential to that, and we can 
do more.
    But, I also am concerned that the United States has not 
engaged in direct intervention with gangs in those communities. 
We have been on the periphery of these issues, providing 
sports, providing community centers for those who would want to 
come in. But, we need to have a very targeted, focused effort 
with the criminal gangs themselves like we do in Los Angeles, 
like we do in Chicago, like we do in other big cities in this 
country, because they are the ones driving the violence and 
controlling the neighborhoods and causing this big problem.
    One last thing that there could be a very focused law 
enforcement approach to this problem of human trafficking, 
forced labor, sex trafficking, that runs through Central 
America into Mexico and on to the United States. There, we are 
not doing enough, as well.
    Mr. Shifter. If I could just add, Senator, I agree with 
what my colleague said, but I also think that whatever units 
that go after--that are engaged in this--have to be vetted very 
well. If they are not vetted, the chance of corruption is very 
high. And, even if they are arrested, if there are no judges or 
prosecutors, it is not doing the job.
    So, I think, going back to my other point about 
strengthening the justice system, the rule of law, has to be 
complementary to any effort to try to crack down on these 
smugglers.
    Mr. Jones. I would just add to that that we do know that 
repressive tactics alone do not work. They tried repressive 
tactics around 2004, 2005, in all three Central American 
countries around gang violence and the homicide rates rose in 
each country as a result. The gangs just got more clandestine, 
more sophisticated, and sending them all to prison was like 
sending them to graduate school.
    I think in terms of human trafficking, we need to target 
especially girls in rural areas, and we know that educating 
girls in rural areas can stop them from deciding to leave. They 
need to work with prevention programs that work with their 
families and strengthening families in those areas so that they 
have the means to survive, because a lot of this is an economic 
opportunity decision for the family, why girls decide to go. 
And, they are trafficked within Central America.
    So, I think we need to look at that, and there are 
experiences of the governments in Central America coordinating 
efforts between police, judicial systems, and social workers to 
try and address victims of human trafficking, because once a 
victim, it is likely that they are going to be a victim again, 
and so we need to interrupt that process.
    Mr. Roberts. If I could just add----
    Chairman Carper. Mr. Roberts, I am going to ask you to be 
brief as we wrap up and then turn to the next Senator.
    Mr. Roberts. U.S. assistance agencies have good capacities 
to run programs to strengthen court and justice systems. I have 
seen them in all countries where I have worked as an advisor. 
And, U.S. agencies, as well as international agencies, also 
have good capabilities in terms of working with police forces, 
and we have gained a lot of experience in that over the last 20 
years.
    Chairman Carper. Senator Baldwin, very good questions.
    Next is Senator McCain, when he returns. Senator Johnson is 
next, then followed by Senator Pryor, Senator Ayotte, and we 
welcome Senator Landrieu. Senator Johnson.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Thank you, Mr. Chairman.
    I think we can all agree, this is a humanitarian crisis. 
America is a very compassionate society. We all want to treat 
these kids with true compassion. But, I want to ask each one of 
you, in just one sentence--if you cannot do it in a sentence, 
just say ``pass''--to state, based on this problem, which we 
agree on, what should be the goal of U.S. policy? I will start 
with you, Mr. Shifter.
    Mr. Shifter. The goal should be to strengthen the capacity 
of governments in these countries so that they can protect 
their citizens.
    Senator Johnson. OK. Mr. Olson.
    Mr. Olson. Yes. I would say the same thing, that they are 
not wholly dependent on us, but that they can secure and 
provide safety for their own citizens.
    Senator Johnson. Mr. Farnsworth.
    Mr. Farnsworth. I would say economic and personal 
development in Central America.
    Senator Johnson. Mr. Jones.
    Mr. Jones. Strengthen the capacity of the governments to 
provide youth employment programs.
    Senator Johnson. Mr. Roberts.
    Mr. Roberts. I do not want to advocate for any particular 
policy.
    Senator Johnson. No, I am not talking about policy. I am 
talking about what should be the goal of policy. I mean, so, 
basically, we have four people saying the goal should be to 
improve the economies, reduce the violence in those countries. 
What do you think the goal ought to be?
    Mr. Roberts. To manage the surges and create orderly 
migration flows while also taking into account the impacts of 
doing that on the people going on those journeys.
    Senator Johnson. OK. I will state I think the goal should 
be somewhat what Mr. Roberts said. We have to stop the flow. 
And, we have 57,000 human disasters on our border. We do not 
want more. And, with Secretary Johnson talking about the fact 
that by the end of this fiscal year--in other words, September 
30--it could be 90,000. By 2015, 140,000. Should our goal not 
be to make sure that we do not have another 50,000, 60,000, to 
100,000 additional unaccompanied minors here at our border? 
Should not that be the goal?
    And, let me also make the point, we have not done a 
particularly good job at providing economic security in 
America. I really believe if we are going to improve the 
economies of Central America, the best way we can do that--
because it has been proven, we are the engine of global 
economic growth--if we get our own economy in order. If we take 
a look at the fact that we have an uncompetitive tax rate, an 
onerous regulatory environment, that we are artificially trying 
to drive up the price of energy, harming our own economy, that 
is doing far greater harm.
    So, I think, if we are really concerned about the economies 
of Central America, let us get our own economy moving forward. 
Let us actually engage in free but fair trade. Would that not 
make a whole lot more sense?
    Anyway, let me go on to the root cause analysis here, 
because I think we have to stop the flow. We have to deter 
parents in those countries from making that terrible decision 
to put their kids on the beast, subject them to potential 
sexual assault, maybe murder. We have to deter those people. 
And, I cannot think of a better deterrence than, literally, in 
a very humane and safe fashion, start returning those kids home 
to their parents and to those countries.
    We can spend millions of dollars on an ad campaign, pretty 
posters, but there is nothing going to be more effective than 
actually sending the kids home and having everybody realize, 
yes, I can spend $3,000, $4,000, $5,000, but in 2 weeks, you 
are going to be right back in your home country. I do not think 
there can be any stronger deterrence.
    Mr. Roberts, you have a graph in your testimony, Figure 
1,\1\ showing a real spike in the year 2005 on apprehensions of 
other-than-Mexican nationals. Do you have a theory on that one? 
We have a lot as time has gone by now, do you know what caused 
that spike, or do you have a theory on what caused it, because 
I do.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 424.
---------------------------------------------------------------------------
    Mr. Roberts. It was, in part, apparently driven by people 
realizing that they could come to the United States and be 
released into the interior, but----
    Senator Johnson. What was happening during that time 
period? What were we discussing policy-wise in this country?
    Mr. Roberts. Umm----
    Senator Johnson. Immigration reform.
    Mr. Roberts. I do not recall that being on the table that 
early.
    Senator Johnson. OK. I think it might have been. But, that 
is the point I am trying to make is, how do you stop the flow? 
What is incentivizing people? I have always said that the way 
to secure the border is, yes, we need to probably beef up 
fencing, we maybe need to beef up personnel. But, the No. 1 
thing we have to do is we have to reduce or eliminate, even 
better, all the incentives we have created for illegal 
crossings.
    So, Deferred Action on Childhood Arrivals, was one of those 
incentives, right? The Senate immigration bill that was passed 
that included in it $262 billion of welfare benefits to non-
U.S. citizens, that is an incentive, is it not? Whenever we 
talk about comprehensive immigration reform without first 
securing the border, that creates those incentives. I mean, you 
are an economist. Is that not what economics is all about, a 
study of what incentivizes certain human behavior?
    Mr. Roberts. Yes. People respond to incentives, and in 
terms of DACA, it would really be a question, first, of the 
perceptions people had about DACA, because, of course, the 
children coming today do not qualify for DACA. But, again, I 
want to not make any real statements on that because we do not 
have the data necessary to understand when the surges started.
    Senator Johnson. Some of these things are just common 
sense, though, are they not? I mean, what else would have 
caused that spike? I mean, you are talking about murder rates 
that actually declined in some of these countries or actually 
leveled off. What else is inducing people to take that risk? 
Would you send your kid on a train up to America if you did not 
think they had a pretty good chance of staying here?
    Mr. Roberts. I hope I am never in the situation of having 
to make that decision, but I, personally, would assess my 
alternative opportunities and the costs and benefits that go 
with that.
    But, if I could just say, if the surges began well before 
DACA, that suggests that there may have been something else 
going on. If they did start after June, that is more indicative 
that maybe DACA had something to do with it.
    Senator Johnson. Well, but understand, we have been talking 
about comprehensive immigration reform, and again, that does 
create incentives for people to get into this country before a 
law is passed with relatively loose controls in terms of 
eligibility for some of these deferred actions, that type of 
thing.
    And, by the way, we are hearing now, there was a published 
article that President Obama is talking behind closed doors 
about potentially deferred action on another six, seven, eight 
million immigrants in this country. Is that also going to 
produce an incentive or inducement for more people to get into 
this country?
    Mr. Roberts. I do not know. Going back to 2012, it is 
certainly possible. One thing I would also note, however, is 
that the Presidential election had not taken place, so it was 
not clear who was actually going to be in charge of the 
immigration policy at that point in the current term. So, I 
just want to caution, we do not really have strong answers I 
would feel comfortable saying at this point.
    Senator Johnson. Well, there may not be strong correlative 
data, because you have not run the numbers yet, and maybe 
enough time has not--but, I think you can just use common 
sense. I think most Americans look at that and go, yes, we are 
incentivizing people to come here. So, what we need to do is we 
need to beef up our legal immigration system, make it easier 
for people to come to this country legally, but enforce our 
laws, and we have to actually change our laws to stop those 
incentives.
    Thank you, Mr. Chairman.
    Chairman Carper. Thank you, Senator Johnson.
    Next is Senator Ayotte. Please proceed.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Mr. Chairman. I want to thank 
all the witnesses for being here.
    I have been looking at a chart that shows the number--the 
spike in unaccompanied minors coming from El Salvador, 
Guatemala, and Honduras. And then I was looking at it in 
relationship to the murder rate in those countries. And, as you 
look at the murder rate in correlation to the increase that we 
see in unaccompanied minors in 2012, where it seems to be the 
biggest spike that is going on an upward trajectory quite 
dramatically in 2013 and 2014, here is no correlation between 
an increase in murder rates in those countries and what we are 
seeing as a fairly dramatic increase in unaccompanied minors.
    And, so, I guess what I am trying to understand is these 
countries have had economic and criminal difficulties for 
longer than we have seen this spike, is that not true? I mean, 
these are existing economic conditions that have not been good 
in these countries even before what we are seeing in this UAC, 
unaccompanied children, spike in 2012 coming to our country. 
Would you agree with that?
    Mr. Jones. We published a report on unaccompanied minors in 
2011. The numbers have doubled every year since then. So, this 
has been growing ever since 2011 and before that. So, the 
numbers of minors have been growing for a long--of 
unaccompanied children arriving at the Southern Border have 
been increasing over time. It is not just that it just happened 
in 2012----
    Senator Ayotte. Well, although, I will tell you, Mr. Jones, 
as I look at this chart, I have the numbers, as well, in front 
of me, and they did not double between 2008 and 2009. They did 
not double between 2009 and 2010. What we saw is really in 
2011, if we had charted it out, it goes like this to like this.
    And, so, I guess my question I am trying to understand of 
all of you is we have no question in these Central American 
countries, difficult economic and criminal situations. But, 
they also existed before this dramatic spike, would you agree, 
or has there been some precipitating event in these countries 
that we can point to and say, wow, all of a sudden--I do not 
see it in the murder rate, because there is no correlation 
between the murder rate and these numbers, but I would like to 
hear from all of you, because you are experts in this.
    Mr. Jones. I would say that we have not seen any single 
event that is driving this number right now. What we have seen, 
even though my colleague, Dr. Roberts, mentioned that in 2012, 
El Salvador did have a decrease, the gang truce in that country 
has unraveled and those numbers have gone back up. The homicide 
rate is not the only factor that is influencing this.
    As I mentioned in my testimony, the gangs are now driving 
young people and children and recruiting more and more children 
into the gangs to become drug couriers. As the repression takes 
place against the gangs, they are using more children to be 
able to be couriers, and that is a change that I think we have 
seen in the last couple of years.
    Senator Ayotte. Right. They are finding a way. The criminal 
enterprises are finding a way to make money off this situation, 
basically. They are finding new ways to make more money that is 
causing the problem.
    I wanted to get your comments at the end of the table on my 
first proposition. Is there something we should understand that 
has happened in these countries that is dramatic enough to see 
this sudden spike, because we have to understand this problem 
from all sides.
    Mr. Shifter. I would just say, Senator, that I think that 
there is not a precipitating event, but there is a 
deterioration overall, and it is not only reflected in homicide 
rates, it is reflect in just the level of the capacity of the 
government and the traffickers that have become much more 
sophisticated and extortion----
    Senator Ayotte. So, let me get to this question of the 
criminal enterprises that are trafficking these children up and 
down. It seems to me that they have figured out that in 2008, 
we changed our laws in terms of how we are going to treat 
minors from a contiguous country versus a non-contiguous 
country. And, almost like criminal lawyers, but without the law 
degree, they have figured out how to manipulate this situation 
with these children, knowing that if you come from a non-
contiguous country, that there is a longer legal process and 
that that process can, I think the numbers show, benefit, 
because the minors are not showing back up for the legal 
proceedings.
    So, I guess I wanted to get your thoughts on the impact of 
that law change, and if we were to change the law to treat 
children from those countries in the same way we would, for 
example, treat children from Mexico, what would your positions 
be on that? What are your thoughts on that? And, so, if you 
could let me know what you think about that, I would appreciate 
it.
    Mr. Olson. One of the main organizations involved in 
trafficking of children and women is the Zetas, a group in 
Mexico. And, I, frankly, do not think they care whether minors 
arriving in the United States are immediately deported or let 
into the country for----
    Senator Ayotte. No, but the parents are getting a different 
impression, if you are a parent in Mexico versus a parent in 
Central America.
    Mr. Olson. But, again, I think the Zetas and other groups--
it is not just the Zetas--have determined that there is another 
business model here. There is another revenue stream. Not only 
are you bringing up children and charging for that service, but 
you are extorting them along the way. You are calling their 
family members in the United States----
    Senator Ayotte. Sure.
    Mr. Olson [continuing]. Or in Central America. ``If you 
want to see Maria or Jose again, you are going to wire me 
$500.'' That is one.
    Two, they force them to carry drugs, and I think somebody 
already mentioned that as an issue.
    So, I think, from their criminal enterprise perspective, 
not a humanitarian perspective, they see this as a new 
opportunity to make more money, and that is what is driving it 
from their perspective.
    Now, how the parents view it is quite different, and I want 
to point out one thing that, I think, that is lost here. Many 
of the parents sending their children on the way are actually 
in the United States already and they, themselves, have taken 
these trips. They know full well what the risks are to their 
children. And that is why it is so deeply disturbing, because 
the situation on the ground has to be that much worse for a 
parent to run that kind of risk with their own child, and they 
know what they are getting into.
    Senator Ayotte. My time has expired, but I certainly would 
like to hear the panel's opinion on this legal issue, because 
this is going to be an issue, I think, that will come up for 
quite a bit of debate here.
    Mr. Jones. I think most of the--one researcher, Elizabeth 
Kennedy, talked to over 300 children who were repatriated to El 
Salvador. Sixty percent of them cited violence as their primary 
reason for leaving. Only one out of those 322 mentioned 
anything relevant to a U.S. law and could actually recognize 
what that was. So, what we are seeing is while we have heard 
that the coyotes are encouraging people to leave, they are 
listening to that because they are desperate from the levels of 
violence.
    I would also like to reinforce what Eric was saying in 
terms of the dates that you are citing, 2008, 2009, they 
coincide with when the Zetas come into Guatemala and Central 
America, around 2007, and we are definitely seeing changes in 
the drug patterns and in the forcible displacement starting in 
those dates.
    Mr. Roberts. If I could offer some analysis on this, I do 
think that changing the law would produce some deterrence 
because it is going to change the incentives that the children 
and their families face, because it would reduce the chance of 
a successful entry. Instead of coming to the border and turning 
oneself into Border Patrol, you would take the chance of going 
through the processing and potentially being sent into 
voluntary return or voluntary departure, or you might qualify 
for humanitarian entry.
    But, at the same time, there are going to be other impacts. 
There is going to be potential substitution to clandestine 
illegal entry channels, the more traditional channels that will 
still be open to the children, and there are going to be 
impacts on resource expenditures by the U.S. Government and the 
welfare of the children that, I think, should be taken into 
account in considering that policy. But, I do think that it 
would likely produce a smaller size in the flow.
    Senator Coburn. Senator, I have a note that the Border 
Patrol in May interviewed 230 total migrants. Two-hundred-and-
nineteen cited the primary reason for migrating to the United 
States was the perception of U.S. immigration laws granting 
free passes, or permisios, to UAC and adult females, other-
than-Mexicans, traveling with minors. That is what we are 
finding at the border when they are encountered. So, we have 
all these other studies, but when you ask the people that are 
coming here when they are intercepted by the Border Patrol, it 
is 90 percent, they think there is a free pass.
    Chairman Carper. Senator Landrieu.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Mr. Chairman, I cannot tell you how 
important I think this hearing is, and this discussion back and 
forth just hit the nub at it. I think you and Senator Coburn, 
myself, and others on this Committee have a real obligation to 
try to really pinpoint, to the best that we can, what is 
actually causing this spike, and there are a lot of very strong 
feelings on both sides.
    But, before we craft a solution, I think there needs to be 
a real clear-headed consensus of what that is, because if one 
side that says the law is creating all the problems and that 
side prevails, you will be creating not a one-way torture and 
exploitation trail, but a two-way, because it will be up and 
back. If those on the other side say it is not the law and it 
is other things, we also have to be careful how this money is 
allocated or we will just be putting good money after bad in 
some of these countries.
    And, I really appreciate, particularly Mr. Jones, you are 
the first person that is before any Committee I serve on that 
has mentioned the word ``families.'' So, my question to you is, 
try to help us understand the condition of many families in 
Honduras, Guatemala, and El Salvador. And, Americans of all 
stripes recognize the importance of family, that a strong 
family is the best protection against traffickers. It is hard 
to get a child out of the arms of two loving parents, really 
hard, by any trafficker. But, describe the situation with some 
of these families in Honduras, El Salvador, and Guatemala.
    And then also comment just really quickly on, in your 
opinion, the aid that is sent there. And, I just want to remind 
this Committee, we send $30 million to El Salvador every year, 
$74 million to Guatemala, and $545 million to Honduras, and 
that does not count the military funding in addition.
    So, one question, what is the general condition of 
families? No. 2, how, in your opinion, is the money that the 
United States is currently sending--is it being well used, well 
allocated, what would you suggest?
    Mr. Jones. I think the general situation of the families 
right now, as one Honduran mother described to us, ``Watching 
my son sit here and waiting to be killed, I need to find 
another solution.'' And, so, the families there--they are 
generally in El Salvador--we have about 40 percent of the 
families that are now headed by single parents. There are 
similar conditions in Honduras----
    Senator Landrieu. And the reason is because many of the 
males have left to find work.
    Mr. Jones. That is right. They have left to find work. They 
have left that family. They have started another one. Some of 
them have emigrated. And, so, strengthening those families as 
families, young families get started, that is a critical piece 
to this.
    Senator Landrieu. And, how would you describe the strength 
of the juvenile courts, the family courts, social workers, and 
judges? Do they exist?
    Mr. Jones. They exist and they are completely under-funded 
and under-served.
    Senator Landrieu. And, so, a woman looking for divorce 
papers that would allow her to have title of property is 
virtually nonexistent for her because the courts do not 
operate----
    Mr. Jones. There are some, but often, people are not 
legally married and so that is an issue in terms of actually 
getting custody and looking for what----
    Senator Landrieu. So, custody of children, title to 
property, any kind of way to stabilize a family is virtually 
nonexistent in these countries.
    Mr. Jones. Less than 3 percent of property is owned by 
women throughout these countries. And, so, encouraging and 
empowering women is another piece to this, both economically, 
and there is an excellent program started in El Salvador to 
actually do that called Women's City, where women can get one-
stop shopping and they can get legal services, health services, 
assistance to start a job, to get job training, or to start a 
business, and what we are seeing is that that is being very 
effective. That is money well spent.
    Senator Landrieu. And, Mr. Farnsworth, would you like to 
add anything to that, and then, Mr. Olson, I am going to ask 
you.
    Mr. Farnsworth. Well, thank you, Senator, and I would agree 
with what has already been said and simply add that a focus on 
the head of household, which is oftentimes a woman, is very 
effective and money that is well spent. And, we saw, for 
example, in Colombia, which has been mentioned several times, 
that even in the conflictive zones, when programs and 
activities were targeted at women head of households, in terms 
of anti-violence, in terms of economic empowerment, in terms of 
opportunities for the children, that that strengthened the 
family unit to such a degree that there was a real reluctance, 
then, to allow the children, frankly, to either be taken into 
the guerrillas or enter into other illegal activities.
    It did not always work. It is not perfect. But, what we are 
seeing in Central America in some ways is that breakdown that 
you speak of. So, I think that is a very critical point. And, 
frankly, it goes to what others on the panel have been saying 
in terms of the community-level engagement, which I personally 
think is so critical in these countries, and, frankly, 
throughout Central America.
    Senator Landrieu. Mr. Olson, as an expert in the region, 
can you add anything to help us really understand what is 
precipitating the spike, particularly at this time, and what 
are the most effective ways that if we wanted to allocate some 
dollars to this, how would we do it?
    Mr. Olson. I wish there was some secret answer that would 
explain what has happened in the last couple years and explain 
this uptick. I agree with what my colleague, Michael Shifter, 
said. It is really a continued deterioration of the situation 
and people increasingly desperate, not any one particular event 
that, I think, has explained it.
    The criminal organizations have gained control of whole 
parts of government, whole neighborhoods, whole parts of this 
country, especially in Honduras, and people are seeing less and 
less opportunities. And, I think, the way we try to reverse 
that is by focusing on building the capacity of those 
governments to provide services at the community level, and it 
has to be very tailored to the needs of people in the community 
level.
    I would just add one other thing. We have good intentions, 
many times, with our money and our programs, and we have been 
doing some of these things for 20, 30 years. But, unless we get 
at the issue of corruption, lack of transparency, lack of 
accountability, I do not think we are going to get very far. We 
end up arresting people, throwing them in jail, and they are 
not held accountable. Government officials that are corrupt and 
taking advantage of our largess.
    I think, at some fundamental level, we have to crack this 
problem and make that the primary focus of what we do to reduce 
violence----
    Senator Landrieu. And, I would just add, my experience is 
that most of these governments are incapable of even the 
simplest processes when it comes to standing up courts, support 
of children, families, et cetera, that our money that we are 
considering allocating could better be spent going through 
reputable, strong nonprofit non-government organization (NGO's) 
that are responsible and accountable. Now, there are lots of 
NGO's. Some of them are, some of them are not. But, my 
experience with these countries and their ability to deliver 
anything are, I do not have a lot of confidence.
    Mr. Olson. If I might, just while the overall picture is 
bleak, is difficult, I do want to point out that there have 
been a couple of examples of success. I would point to the 
former Attorney General of Guatemala, Claudia Paz y Paz----
    Senator Landrieu. Yes, who they just escorted out of office 
who was the shining light of the Guatemalan Government, and 
they just pushed her aside.
    Mr. Olson. Yes, I totally agree with you, but at least we 
have seen when we have a good partner that is committed to the 
same things, and we back her in this case, there are some 
tangible successes in the context of Guatemala.
    I would just add one other shining star in Honduras which 
would be the Rector of the National University, Julieta 
Castellanos, who has transformed the National University, made 
it into a center of real thinking about crime and violence and 
the social needs of the country. I think those are the kind of 
partners we have to find and work with and hold up.
    Senator Landrieu. Thank you, Mr. Olson.
    If I could just have 30 more seconds to this Committee, 
because I am going to push this on Appropriations. My days of 
sending money to governments that cannot conduct the simplest 
measures of accountability are over. And, so, if I am going to 
support any dollars going to these countries, they have to be 
received by entities or individuals that have a proven record 
of transformation. Otherwise, our money is just wasted. And, 
the State Department does not seem to understand this, so I am 
going to help them understand it in the next couple of days.
    Thank you.
    Chairman Carper. Before I yield to Dr. Coburn, let me just 
say, first of all, thank you for your insight and your 
understanding of these issues, and those were really important 
questions.
    She mentioned a woman named Paz y Paz, which is Spanish for 
``peace and peace,'' who was nominated for, I think, a Nobel 
Peace Prize. She served as Attorney General for a term and was 
eligible for another term. She had to go through a vetting 
panel in order to be recommended to the president, and 
conveniently, she did not get through the vetting panel, if you 
can imagine all of that, and I talked to the President of the 
country himself about a week or two before this all took place 
and said, ``You have somebody good here. I do not think you 
want to let her go.'' And, boy, 2 or 3 weeks later, she was 
gone. Dr. Coburn.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. First of all, let me apologize for not 
being here during your testimony. I was meeting on a cyber bill 
with the FBI. And, I thank you for being willing to testify. 
This is, as everybody recognizes, not an easy problem.
    Mr. Shifter, it has come to my attention that there 
supposedly is a Mexican-Guatemalan agreement on a type of 
visitor visa for Central Americans, including unaccompanied 
minors, to enter the United States. According to a newspaper 
article, both countries have agreed on July 7 in a 
Presidential-level meeting in Mexico to make it legal and safe 
for Central American immigrants, including unaccompanied 
minors, to cross Mexico's border with Guatemala and transit 
Mexico en route to the U.S. border at the Rio Grande. Are you 
aware of this agreement between the two governments to 
facilitate the travel?
    Mr. Shifter. I am not aware of it, no.
    Senator Coburn. All right. If there is such an agreement, 
does it do anything to stem the tide of illegal alien children 
flowing to the United States?
    Mr. Shifter. I would just say that I think Mexico has an 
absolutely critical role to play in this, and there needs to 
be--and the Mexicans, I think, understand the seriousness of 
the crisis, and I think the Pena Nieto government is trying to 
respond and it is dealing a lot better with Central America 
than the previous government did. That is my sense.
    Senator Coburn. Thank you.
    Let me get you to each comment. One of the things I see 
happening in this process right now is the utilization of the 
older children in the cartels in this country. Have you heard 
of anything or read of anything or seen the investigations on 
anything to that regard, so that when they come here, they are 
now part of the cartel and saying, your family member in El 
Salvador will receive such if you are not doing this here? Is 
anybody aware of that?
    [Witnesses nodding.]
    So, what do we do about that? It is not just that they are 
here, it is now they are being forced through threat of 
violence at home to perform acts against our law, otherwise, 
family members are placed in jeopardy in their home country.
    Mr. Olson. There is evidence of it, particularly in the 
heroin trade, where people are forced to become distributors of 
heroin in the United States coming from Mexico. I would not say 
it is a vast majority of them. It is some, a segment of the 
population. But, it is a serious problem and I think it is 
absolutely something that our law enforcement and Mexican law 
enforcement have to be careful about. It is a reality.
    Senator Coburn. In your testimony, you state the agenda 
going forward should be to reduce violence, build community 
resilience, fight corruption, demand more from Central 
America's political and economic elite, empower civil society, 
and make economic opportunity part of the security strategy. 
Can we implement that policy in these countries at a cost that 
is affordable to the American taxpayer?
    Mr. Olson. I actually think we can, Dr. Coburn. I do not 
believe that more money always makes sense. Obviously, some 
resources are needed, probably more than are there now. But, 
with clear and decisive leadership, good partnerships, and a 
focused approach, not trying to do everything at once but 
focused on some of these key elements, I do think we can do a 
reasonably good job of beginning to change course and reverse 
what has been a pretty negative trend.
    It is not going to be simple, as Senator Carper said. It is 
not going to be a short-term thing. It is a long-term thing. 
But, I do think there is--I am not pessimistic. I would like to 
be optimistic.
    Senator Coburn. Do you happen to agree with what Senator 
Landrieu said, to make sure that if we are going to send money, 
it actually goes where it works instead of goes down the drain, 
like it has?
    Mr. Olson. Absolutely. I think there is no question and, in 
my written statement, I think I said clearly that more money is 
useful, but it has to be spent with a clear strategy in mind, 
with clear evaluation points.
    Let me give you an example. We have agreed for a long time 
that we want to strengthen the police, but what does that mean 
in practice? Mostly, what we have done to strengthen police in 
Central America is train more people. We are not dealing with 
the issues of transparency and accountability and building a 
professional force. And, so, I am suggesting training is good, 
but it is one of five or six things you would need to do to 
create a professional police force.
    So, I am saying, let us not just continue to do what we 
have been doing, which has not worked very well, and refocus 
our efforts on some of these more specific and underlying 
issues.
    Senator Coburn. Well, I think that is great. You would not 
be opposed to very tight parameters on the money that we would 
send down there, if, in fact, we do?
    Mr. Olson. I mean, it obviously depends on the details----
    Senator Coburn. Outlined in the way Senator Landrieu 
outlined it.
    Mr. Olson. Yes. I think one thing we have done well is this 
program Partnership for Growth in El Salvador that sets out a 
framework that both Salvador and the United States agree on, 
and there are very clear measures of progress on that--in that 
way. And, I would recommend a similar approach, not necessarily 
the same program, but a similar approach.
    Mr. Jones. I would like to comment on that last.
    Senator Coburn. Sure.
    Mr. Jones. The U.S. Government provided, through the 
Millennium Challenge Corporation, provided over $400 million to 
El Salvador for road construction and economic growth, and that 
is contributing. That money was well spent. There is not 
evidence of corruption to a large extent and the money is 
contributing positively to business development in that 
country. So, I think there are examples of using the money well 
with governments as well as with other organizations.
    Senator Coburn. Thank you.
    Mr. Farnsworth. Dr. Coburn, might I also make a comment?
    Senator Coburn. Sure. Please.
    Mr. Farnsworth. The word ``partnership'' has been used 
several times, and I think that is a fundamental issue that 
needs to get more attention in terms of who are our partners in 
these three countries as well as the national level themselves. 
What we saw, and again, Colombia has come up, so let me refer 
to that example, and is Plan Colombia, for example, a good 
example for Central America? In some ways, yes, but in some 
ways, no.
    In Colombia, we were dealing with one country. In Central 
America, by definition, there are seven, or if you define them 
differently, five, and the countries we are talking about are 
three. But, anyway, there are more than one, so just by 
definition, you are dealing with more than one government.
    No. 2, in Colombia, at times there was a government that 
was not necessarily open and receptive to some of the things 
that the United States wanted to do. So, we found people within 
the government, for example, the head of the national police, 
who were receptive, who we could work with, and even if we 
could not work with the military in Colombia at a certain 
point, we did work with the police and this was a very 
effective approach until there was a much broader national 
agenda. So, we have to find the right partners in these 
countries, people who are committed, who are not corrupt, 
people who have the vision that, frankly, is good for their own 
people and also willing to work with us in a very transparent 
and open way.
    But, I think the other thing--and we have not talked about 
it at all today, but I think it is a critical point--is the 
countries themselves really have to work better together, and 
this is--in some ways, this is a dream for drug traffickers or 
people traffickers or whatever, and it is simple arbitrage. If 
somebody is doing a good job preventing illegal activities in 
one country, the drug traffickers will go to another country. 
And if that country clamps down, they will go to a third 
country, and that is precisely what we have seen. So, that when 
the political conditions or the security conditions in Honduras 
have deteriorated, people go there. Or, if they have 
deteriorated in Guatemala, people go there and the Zetas come 
down from Mexico.
    One of the countries we have not talked about at all, and 
there are some democratic issues and institutional issues, et 
cetera, but the country of Nicaragua is not faced in many ways 
with some of these issues because the government is very 
effective in terms of working at the community level and 
keeping the drug traffickers out of the country. And so the 
drug traffickers do not need that hassle and they go further 
north to where the government really does not exist in the 
northern part of Honduras. It is a very permissive environment.
    And, until we get a more collaborative approach among the 
countries themselves working together, then I think a lot of 
this is you are going to be having hearings like this again 
later on and I think it is going to be a real frustration.
    It is not to say, though, that this is easy. Traditionally, 
that is the hardest thing to do in Central America, is for 
these countries to work together. I talked a little bit about 
it in my testimony in the context of economic development and 
economic coordination. But, in the security front, it is 
exactly the same thing, and you have countries like Costa Rica 
and Nicaragua which have border disputes and they do not want 
to talk to each other and they have problems working together. 
And, so, you have some real problems like that, but that, as a 
practical matter, impacts the ability to address some of these 
very serious issues that we are dealing with.
    So, as we are talking about supplemental assistance, which 
I think is essential, it really matters, and I completely agree 
with you and other Senators who have raised the issue, how that 
is spent, but also with whom we are spending it. Who are our 
partners in this context, and can we encourage those partners 
by the way we disperse the funds, by the way we talk about the 
programs, by the way we structure the programs, for these 
countries to work together themselves.
    And, the last point I would make, again, in the context of 
Plan Colombia, is Plan Colombia was not a program that was 
imposed or given to Colombia by the United States. It was a 
program that was developed by the Colombia Government and 
people itself, presented to the United States and Europe and 
other countries and said, ``Here is our plan. Would you be 
willing to fund it?'' And, the United States came alongside, 
the American taxpayers came alongside and were willing to fund 
a portion of it, and that contributed to the success.
    We have not really done that to the same extent in Central 
America, where we have worked together with the countries and 
said, now, what is your plan and how can we come alongside that 
and support your priorities? There have been efforts along 
those lines. There have been attempts, but they have not really 
been effective, and I think that is a really good place where 
we can start at a national level and say, what are your 
priorities? How can we work together, so that they are invested 
in the success of their own program? I think that is key.
    Senator Coburn. Yes. I quoted earlier from a recently 
released intelligence assessment from the El Paso Intelligence 
Center that was leaked. It is called, ``Misperceptions of U.S. 
Policy Key Driver in Central American Migrant Surge,'' and I 
quoted in there the Border Patrol's interview. Regardless of 
all our testimony, regardless of all the theories, when you ask 
people why they are coming. They are telling you why they came.
    So, the past is past. The fact is, how do we change those 
perceptions to slow down this very risky venture by thousands 
of people putting their lives and health at risk? Any solutions 
for that? Any recommendations for that? Regardless of what 
caused it, the perception by those coming across as interviewed 
by the Border Patrol would say, free ride, and I am not talking 
economically, I am talking about status. Any suggestions for us 
as legislators? Go ahead, Dr. Roberts.
    Mr. Roberts. If I could just make some observations on 
that. It seems that, there are three approaches that have been 
discussed today: Policies with respect to processing of 
unaccompanied children and others coming to the border; and 
then programs to develop rule of law, better court systems, 
better police forces, so we could say that that is 
strengthening security; and then programs to foster economic 
development.
    And, I think that policies related to processing could have 
impacts in the short-run. Now, there have been various policy 
proposals made along that line. One has been mentioned today, 
which is adjusting the Trafficking Victims Protection Act of 
2008. There have been some other policy proposals, including 
faster adjudication of unaccompanied children after arrival in 
the United States, which could require DHS to hold the child 
until a final decision is reached. That is an alternative. Or, 
it could be done together. Another is measures to facilitate 
making asylum claims in the home country of the child. And, a 
third is measures to facilitate legal family reunification. 
But, I think those policies would have short-run impacts.
    Senator Coburn. That goes back to the economic----
    Mr. Roberts. And, in terms of building security, I am no 
expert in this, but my brief understanding is that it is more 
of a medium-run strategy. Plan Colombia, for example, as 
reflected in the murder rate, the murder rate fell from 65 to 
35 from 2002 to 2007. So, if the program was really playing a 
role in that, it played out over several years.
    Economic development is another issue, and I do have to say 
that the evidence on convergence between the Mexican economy 
and the U.S. economy and the economies of El Salvador, 
Guatemala, and Honduras and the United State is not 
encouraging. There really has been no sign of economic 
convergence since the data were first collected. And, so, 
although I think we really would like to see that happen, that 
is really a long-run strategy. We talk about that in our 
Council on Foreign Relations (CFR) study of last year in more 
depth.
    Senator Coburn. I would quote an article which was 
published--I do not see where it was published--by Stephen 
Dinan. ``Little evidence suggests that the illegal immigrant 
children currently arriving at the U.S. border are victims of 
trafficking.'' I think that is true, trafficking in the sense 
of what the 2008 law was meant to diminish. And, since few can 
be described as unaccompanied alien children under Federal 
law--most are not unaccompanied alien children, most are 
mothers with young children and the rest are older teenagers, 
the trafficking law has limited applicability to the current 
border surge because of what we are seeing in terms of the mix.
    So, I take your point. There are three approaches. One is a 
short-term. The other two are long-term. And, we probably will 
have to do all three to address the ultimate problem. 
Otherwise, we are going to regardless of what we do in the 
short-term, we are going to be back here again, and I think 
that was what Mr. Olson implied.
    I have no other questions.
    Chairman Carper. We had some just really wonderful 
testimony today, and I just want you to know you are not 
finished yet. I have some more questions, and we may have 
another colleague or two that will drift in and ask some 
questions, as well.
    I want to talk a little bit about NAFTA and CAFTA. A lot of 
people look at NAFTA and they say, Mexico has done quite well, 
in part because of NAFTA. The United States, it is kind of a 
mixed bag. Canada, it may be a little better. But, most 
observers say NAFTA really did help the situation down in 
Mexico.
    I do not hear that kind of thing said about the Central 
American Free Trade Agreement and I would like to know if you 
agree with that and why that might be the case. I am interested 
in finding out what works, do more of that, and NAFTA seemed to 
work pretty well to lifting and stabilizing Mexico. CAFTA does 
not seem to have done the same thing for Central American 
countries. Does anybody have some ideas on that, please.
    Mr. Farnsworth. Well, Mr. Chairman, if I could start, and 
thank you for raising the question because I think it is a 
really important one and, obviously, timely. And, I would agree 
with your assessment in terms of NAFTA. It has been a success 
for all three parties to the agreement. All three countries, I 
think, in the 20 years that NAFTA has been in existence, have 
used it to contribute to their own economic well-being.
    Of course, it has not been the only aspect of economic 
well-being in any of the countries, and a country the size of 
Mexico compared to the size of the United States is much 
smaller. Therefore, the impact of NAFTA is actually larger in 
Mexico than it would be, for example, in the United States. 
But, I agree it is a very important aspect and provided a 
baseline, frankly, for cooperation and the ability for Mexico's 
own government and institutions to then use that as a link to 
the global economy and to take important reforms and steps that 
have now positioned Mexico, I think, very well for long-term 
success.
    And, that is exactly what Central America, in some ways, 
has not done. Now, if you look at the trade statistics, CAFTA--
along with the Dominican Republic, which is a party to it, too, 
so CAFTA-DR--has been a success based on increasing trade and 
investment, and that is what trade agreements are designed to 
do, increase trade and investment. And, so, based on that, in 
both directions, CAFTA has been a success.
    But, where it has fallen down in my personal opinion is 
that it has not generated the type of economic growth within 
Central America itself, not because the agreement was poorly 
designed or because it was the wrong countries as parties to it 
necessarily, but because the countries in some way said, OK, 
now we have our agreement, so our future is bright, rather than 
doing what other countries in Latin America have done, to say, 
now that we have the agreement, that is--we are at the starting 
blocks. We are now able to compete if we now go forward and do 
many other things that will improve our economy.
    And here, we see countries like Peru, Chile, and Colombia, 
which also have Free Trade Agreements with the United States, 
which, by the way, have not been in, at least with Peru and 
Colombia, have not been in place as long as the agreement with 
Central America. But, they explicitly and transparently said, 
we are using the trade agreement with the United States as a 
baseline to help us reform our own laws, transparency, improve 
the rule of law, give us access to global markets and global 
market chains, and using that to build out their own economies, 
and I think they have done that very effectively.
    One of the ways that I think Central America can take 
better benefit of the CAFTA agreement with the United States 
is, frankly, they trade with the United States, yes, but they 
should do a better job in terms of integrating among 
themselves, and their own economies are relatively small, so 
that means that you are not going to get the same bump-up if 
you would have a Free Trade Agreement, for example, with the 
United States and China or Europe, Transatlantic Trade and 
Investment Partnership (TTIP), or what have you. These are 
mega-agreements. We are talking about relatively small 
economies in Central America.
    But, it matters in terms of the relative size of the Gross 
Domestic Product (GDP), for example of Costa Rica, if they can 
do a better job, just to take one country, trading with their 
neighbors, and how can they do that? How can they be a bigger 
marketplace generally? How can they be a more effective 
marketplace? Well, they can start by doing things like 
harmonizing certain regulations that will allow the Central 
American region to be more of an economic unit that outsiders 
look at. Instead of seven relatively small countries, it is one 
relatively large unit that they can invest in.
    Or, they can reduce the time and delay and deficient 
infrastructure at borders. I mean, if you take a truck and you 
go from Panama to Mexico, you have to cross a number of borders 
and each one has its own delays and its own, sometimes, corrupt 
activities and things that you have to do to get your truck 
across the border. I have seen studies which is to say the 
average speed, for example, is 30 miles per hour or whatever of 
a truck going from one end of the Central American isthmus to 
another. That is important, because in terms of a time to 
market type of scenario, anything that delays your product is 
going to be really problematic.
    Now, obviously, we are talking about people moving here. We 
are talking about drug trafficking, too. So, you do not want to 
dismantle borders and the protections, perhaps, that they 
provide. But, you want to do a better job facilitating legal 
transit as well as keeping the bad stuff out, just like we need 
to do better at the U.S.-Mexico border.
    There are other things we could do. I could go on, perhaps. 
But, I think the bottom line, I would say, is the opportunity 
is there. But, I think, what I would encourage the Central 
American countries to do who are parties to the agreement is, 
frankly, work together, unify their markets more, and create 
more of a broader economic space that, I think, would really 
pay positive dividends.
    Chairman Carper. Anyone disagree significantly with what 
Mr. Farnsworth has said?
    [Witnesses shaking heads.]
    Chairman Carper. OK.
    Mr. Jones. I would just like to add that I think we need to 
remember that initially under NAFTA there were losers, and a 
lot of those people who lost their farms ended up immigrating 
to the United States, and that the economies of Central 
America, we are only talking about 35 million people with 
poverty levels that are at rates of 50 and 60 percent of the 
population. So, their capacity to engage CAFTA is much more 
limited, and I think we need to think about and consider 
investments into education and business development that were 
not as necessary in Mexico.
    Chairman Carper. Let me just think out loud here for a 
moment, and someone who wants to react just very briefly. If we 
are interested in encouraging collaboration, should we 
condition, at least in part, some of the assistance that we 
provide to these nations on their willingness to collaborate in 
certain ways? That would seem to be common sense. Does anybody 
disagree with that?
    [Witnesses shaking heads.]
    All right. In my last job as Governor, one of the things I 
did a lot was visit schools, from little kids, elementary, K 
all the way up to 12 and post-secondary, as well. A lot of 
times, when I go to elementary schools and do these assemblies 
with the kids, we have a lot of fun. I still do them. But, some 
of the kids, those little kids would say, like, ``What do you 
do?'' And I would say, ``I am a U.S. Senator.'' And they would 
say, ``What do you do?'' [Laughter.]
    And, I say, ``Well, a couple of things. I help make the 
rules for our country.'' And I ask them, ``Do you have rules in 
your school?'' ``Yes.'' ``Do you have rules at home?'' ``Yes.'' 
``Do you have rules on your school bus?'' ``Yes.'' ``Well, we 
have rules for our country. We call them laws and I get to, 
along with 99 other Senators, 435 Representatives, the 
President and the Vice President, I get to help make the rules 
for the country.'' And they say, ``Hmm.'' And, sometimes they 
will say, ``Well, what else do you do?'' [Laughter.]
    And I say, ``Well, my colleagues and I, we try to help 
people.'' And they say, ``Well, how?'' Well, I think the best 
way you can help somebody is make sure they have a job and make 
sure that they can support themselves and their family and have 
a future.
    And, as Governor, we created a lot of jobs in the 8 years I 
was Governor, from 1993 to 2001, a lot of jobs. But, I did not 
create them. Governors do not create jobs. Mayors, county 
executives, Presidents, we do not create jobs. What we do, 
though, in partner with others, is to create a nurturing 
environment for job creation. That is what we do. And, first 
and foremost among those is the rule of law.
    And, it is all well and good. We have vetted police units, 
as you know. We saw some of them down in Guatemala, I think, 
and El Salvador, too, where we actually try to make sure that 
the police that we are working with, that we are training and 
working with, are not corrupt. And, we do polygraph tests, 
multiple polygraph tests, all kinds of stuff to make sure that 
they are not corrupt and they are staying clean.
    But, if you have really honest police and they are trying 
to enforce the law and turn them over to prosecutors who do not 
prosecute and judges who do not sentence and prisons that do 
not do their job, it becomes rather dispiriting for the police, 
as we know.
    There has been a lot of conversation here today about the 
rule of law and what we can do to help foster a return to the 
rule of law. I think maybe when I was out of the room voting 
earlier, one of you, I do not know if it was Mr. Farnsworth or 
Mr. Jones, one of you may have talked about energy prices.
    When I think about elements that are part of the nurturing 
environment, I think rule of law, safety. People want to start 
businesses, grow businesses, where they feel safe, they are not 
going to be kidnapped, not going to be extorted. People want to 
be in a place where the workforce is reasonably well trained 
and brings something to the workforce. People want to make sure 
there is a reasonable tax burden, common sense regulation, 
access to capital, all of the above and more. They are also 
interested in affordable energy, and one of the reasons why we 
are seeing a rebirth of manufacturing in this country is 
because of the lowering of energy costs because of the 
abundance of natural gas.
    One of the things we heard when we were down in Guatemala 
and Salvador earlier this year was a lot of their electricity 
is generated from petroleum, maybe some from hydro, but a lot 
from petroleum, and it is not cheap. Meanwhile, you have Mexico 
sitting on a lot of natural gas and they are not all that far 
away, and we explored some ideas of public-private partnerships 
where Mexico, maybe some of the Inter-Development Banks, 
nonprofits, us, could help partner and make sure that the 
energy costs in those three Central American countries, maybe 
others, could be reduced by as much as half.
    Mr. Farnsworth, would you just comment briefly on that, 
please.
    Mr. Farnsworth. Mr. Chairman, thank you very much for 
raising that topic, and might I just say, you have just given a 
tutorial on economic development in terms of job creation and 
the things that people look for in terms of creating jobs.
    Absolutely, energy has to be part of that, and what we have 
seen from folks who are looking at Central America as an 
investment location is when they get to the energy question, 
two questions that they have to answer. One is the 
availability, the energy security question, for example, on 
electricity, No. 1. And, No. 2 is the cost. And, just as you 
have identified, both of those questions are sometimes not able 
to be answered in the affirmative.
    And, so, to the extent that the United States could assist 
through the export of natural gas or working with Mexico or 
doing things within the region itself to develop hydro 
resources or alternative resources, I absolutely agree. It 
would also improve the regional clean energy profile, because 
as you have indicated, a lot of what they are burning is 
actually dirtier fuel. And, so, to the extent that we can help 
substitute for their power generation cleaner fuel, I think 
that would be to the good.
    But, it is not just the manufacturing sector or the 
productive sector, if you want to put it that way, in terms of 
energy cost. Everybody, by definition, uses energy. And, so, to 
the extent that the availability of energy is available to 
everybody, including under-served populations, that, then, 
gives them access to a global marketplace in a way that many of 
them have not had before. But, that energy has to be provided 
in a cost-effective way or else people are, just by definition, 
priced out of the market.
    And, so, if your daily, or your monthly income is in the 
matter of, maybe, $200, if the cost of your electricity goes 
down by some percentage of that, perhaps to some observers, 
that does not seem like a lot. But, that percentage gain in 
disposable income is actually quite high, and that provides the 
ability, then, to begin--obviously, it is not the only answer--
but, to begin to engage more effectively in building the 
economy. And, I think, if you take that equation from 
individuals and build it out to the macro economy, it does 
begin to have a real and positive impact.
    I know the U.S. Government, the Inter-American Development 
Bank (IDB), some of the countries in question, have been 
working on those issues, but, as I mentioned in my testimony, I 
would encourage that the prioritization of that be raised much 
higher. I think there is more that can be done, and it can be 
done probably with a little bit more urgency.
    Chairman Carper. All right. Thank you.
    Mr. Jones. I would just like to comment on that, if I 
could.
    Chairman Carper. Please.
    Mr. Jones. Just two comments. First there are barriers to 
entry in Central America. I had a friend who set up a company 
here in the United States. It took him 2 days and $20. It took 
him 6 months and $12,000 to get the same company set up----
    Chairman Carper. How long in the United States?
    Mr. Jones. Two days.
    Chairman Carper. To start a business? To incorporate?
    Mr. Jones. To start a business, to incorporate, and to be 
legally incorporated.
    Chairman Carper. Do you think they probably incorporated in 
Delaware? [Laughter.]
    Mr. Jones. And in El Salvador, it took them over 6 months. 
We are providing young people----
    Chairman Carper. This is the paid political part of the 
hearing. [Laughter.]
    Or unpaid.
    Mr. Jones. We are providing services to young people to 
start up their own businesses as part of the programs that we 
run, and several of them have been able to start up small 
companies to install solar panels, to change municipal lighting 
to LED lights. And, so, we are encouraging young people to 
start businesses, because, like you said at the beginning as 
your job as Governor, one of the most important things is job 
creation. And, so, we need to continue to fund those kinds of 
programs so that young people have opportunities where they 
live.
    Chairman Carper. Thank you.
    I mentioned earlier, and some of you have, as well, the 
responsibility for helping these countries straighten 
themselves out and go forward with a brighter future is a 
shared effort. It is almost a team effort, and there are many 
members of the team. We are one of them. I do not know that we 
are the quarterback on this team, but we are certainly a key 
player on the team.
    But, there are others that need to play their role, 
including folks in these countries, including some of the 
elite, some of the folks that have a lot of money, and they are 
not paying much in the way of taxes and they have their own 
security forces, but they do not contribute much to make sure 
that we have a strengthened and well-qualified judiciary, a 
department of justice, police forces, and so forth.
    But, in terms of putting together a strategy and the idea--
I do not know if it was you, Mr. Farnsworth, but somebody said 
it is really important for us not to come in and say to these 
Central American countries, this is what is going to work for 
you. You have to ask your customer. What do you think is going 
to work for you? If they are not involved, forget it. They have 
to be involved from the ground up. They have to have a big role 
in making sure this is going to be successful, whatever we do.
    But, whose job is it to collaborate, to make sure that 
there is a collaboration here and a sense of cooperation? Whose 
job is that? Is it our job? Is it their individual jobs? Is it 
the jobs of, I do not know, development banks? Whose job is 
that? Mr. Shifter.
    Mr. Shifter. Ideally, it would be a regional organization 
that could perform that function. Unfortunately, realistically, 
that does not exist, and, I think, realistically, it is the 
U.S.'s role to facilitate, to be a catalyst, to consult, to 
engage in this process, not to dictate, to impose. But, I do 
think, without an active, constructive consultative U.S. role, 
it is not going to happen, frankly. So, I think the United 
States has to play a central role.
    Chairman Carper. OK. Anyone else? Mr. Olson.
    Mr. Olson. I would just add to that something that Michael 
said earlier, which is in addition to the United States working 
with Central Americans in partnership, Mexico has to play a key 
role. They are really the ones that have historically, 
traditionally viewed their relationship primarily with the 
United States and north, for good reason. They have benefited 
from that. There have been some downsides for them.
    But, they have not put the emphasis on Central America. 
Occasionally, there have been exceptions. During the Central 
American conflict years of the 1980s, they played more of a 
direct role in facilitating conversation and resolving 
conflicts. But, they need to do more of that. President Pena 
Nieto has said he will do more of that. He went there soon 
after his inauguration. But, it has to go beyond sort of good 
intentions and good words and they need to step up to the 
plate, as well, because they have an important role to play in 
that region.
    Chairman Carper. Anyone else? I have several more questions 
here. Anybody who is dying to say something, feel free.
    Mr. Jones. I would just like to add that I think the 
private sector is going to be critical in this. We are looking 
at agricultural value chains, and with our youth work, for 
example, in Nicaragua, we were able to provide 7,000 people 
with jobs in production because they were tied into value 
chains, some of which included producing for Walmart. And we, 
right now in El Salvador, work with over 400 companies who hire 
the young people from our program. So, they need to be a part 
of this conversation.
    Chairman Carper. Good. You raise a good point, and that is 
if a nurturing environment is created in one or more of these 
countries, there will be economic enterprises around the world 
that will want to invest there. They will want to invest there. 
And, they can be a big part of the solution.
    My wife is retired from the DuPont Company. She had a great 
career there in textiles, in the fibers business, and she now 
teaches at the University of Delaware in, of course, work that 
is related to that part of the business world. She was down in 
Guatemala about a year or so ago and told about being in a blue 
jean factory where, I forget how many blue jeans they made a 
day. I thought she said 30,000 a day. That is a lot of pairs of 
blue jeans. But, somebody found a way to make money there and 
avoid the extortion and the kidnapping.
    One of the questions that came to mind is one of my 
colleagues, I think it was maybe Senator Ayotte was asking a 
question, talking about all the surge of folks from Honduras, 
Guatemala, El Salvador north, and that sort of begs the 
question, well, how about going south? Are any of them voting 
with their feet and going south? And, as it turns out, they 
are. In fact, in terms of, like, actual numbers compared to the 
number that are coming north, it is not as large. But, in terms 
of the increase, the dramatic rise in--I am told, it was a 
half-dozen years or so, we have seen an increase as much as 700 
percent in the surge heading south. That suggests to me it is 
not just, like, the pull to come to the United States and find 
a better life, but there is an effort to get out of there, to 
get out of those places and to hopefully find a better life 
maybe closer to home.
    Anybody, in terms of energy costs, just very briefly, we 
talked about the prospect of some partnerships with Mexico, 
maybe the United States, in terms of helping to lower the 
energy costs in these countries. To what extent do they use 
hydro? Do they use any solar, any wind? Does anybody know?
    Mr. Farnsworth. They do use a combination. Their matrix is 
relatively clean in terms of utilization of hydro and wind. 
Utilization of geothermal actually is quite active in parts of 
Central America. I am not aware that there is a lot of solar 
utilization. There are imports of oil and natural gas, as well.
    Chairman Carper. OK. What role could a development bank, 
one of these Inter-American Development Banks, to what extent 
can they play a role in helping to fund something like that or 
help bring down the costs? Can they? Is that something that 
they are likely to be willing to do?
    Mr. Farnsworth. Well, they are. They are working in 
conjunction with, again, with the U.S. Government as well as 
other entities to try to provide technical assistance to 
increase and develop the energy grid across Central America. 
Ultimately, hopefully, it will go from Mexico to Colombia.
    But, here is a perfect example of where the countries 
themselves have to work together, because if you talk to 
anybody about energy in Central America, they say, well, we 
need to get the grid integrated and it needs to be done at low 
cost and there is real money there and there is private sector 
interest and there is public sector interest.
    What has happened is, what we have found is in certain 
countries in the region, the vested interests who continue to 
make a lot of money in terms of the current regime, economic 
regime, are not necessarily willing to open up the energy grid 
to the type of free-flowing dispersal of energy that most 
people would like or would need for broader development.
    So, again, going back to what I was saying in terms of the 
countries themselves, if they do not start working together as 
a more economic unit, as a more integrated economic unit, 
several of these basic building blocks of development and 
prosperity continue to go by the wayside, and energy is clearly 
one of them.
    Chairman Carper. OK. Thank you.
    In one of our visits in Central America, we learned that a 
significant part of their GDP, it turns out to be remittances 
from this country, where family members work and return money 
to their families in these Central American countries. I do not 
know that they turn money over to their government. I do not 
know that they send money down to charities. I do not know that 
they invest in microloan programs or bootstrap programs to help 
foster economic growth. I do not know. Maybe they do, maybe 
they do not. Maybe you could help us with that.
    But, the question is, these remittances, is there some way 
to leverage that to help foster economic activity, and are 
there some examples where that is being done, what is working 
that maybe we can learn from and spread the word? Mr. Shifter.
    Mr. Shifter. Absolutely. I mean, I think the whole question 
of financial inclusion and mobilization of assets is--there has 
not been enough work done on how to take advantage of these 
remittances. They are a very significant part of the GDPs of 
all these economies.
    Fortunately, we are getting--there are a lot of reports now 
that a lot of these remittances are being used for--precisely 
for to pay extortion and all the criminal activities, so all of 
the remittances are very much linked to this. But, I think 
there have been programs in El Salvador and elsewhere to try to 
really leverage these resources for development purposes, to 
promote the community strengthening and other institutions. So, 
I think we could do more of that.
    And, the other part that we could help do is try to lower 
the costs of remittances, as well, so there is not the extra 
cost that the immigrants have to bear. But, I do think there is 
a lot of potential in that.
    Chairman Carper. OK. Anybody else? Please.
    Mr. Jones. Yes. Most of the remittances come to Central 
America, about $100 to $150 a month, which are basically used 
for household consumption and keeping the families above the 
poverty line. There have been few examples, honestly, about 
successful investment. Some of the best ways to get those 
remittances into the economy is through savings plans that then 
lower the cost of capital and reduce interest rates so that 
people can provide loans. Those are some of the most successful 
programs and the easiest to actually implement.
    There is, however, an increase in--the Calvert Fund here in 
the United States is looking to reach out to diaspora 
communities here in the United States to find ways that they 
can do community investment with as low as $20, that they can 
pool those funds, and I think we need to support that kind of 
activity, where those funds can be pooled to then support 
businesses inside Central America.
    Chairman Carper. Anyone else? Please.
    Mr. Roberts. If I could just add, there is a big debate in 
the economics profession about whether remittances promote 
economic growth and development in the countries receiving them 
in large volume or actually hurt it, because remittances have a 
variety of impacts. And, I have seen with my own eyes in 
countries where I have lived and worked that are big remittance 
receivers how it causes what economists would call a reduction 
in the labor supply.
    So, the only other thing I would add is that in the early 
2000s, there was considerable enthusiasm about an approach to 
leveraging them called the Home Town Association, which, I 
think, was pioneered in Mexico, and I am not sure how that has 
worked out in Central America, but----
    Mr. Olson. Mexico probably has the most structured program 
to deal with this. It was called the Three For One Program, 
where the government--if you gave one dollar, the municipal 
government gave a dollar, the State government and the Federal 
Government, to leverage that for projects. The evaluation----
    Chairman Carper. Any idea what kind of projects we are 
talking about?
    Mr. Olson. Well, that was the thing, I mean, the evaluation 
of some of these projects and how much they contributed to 
economic development was mixed, and I have seen some of them 
myself. Some of them went back to helping people grow more 
tomatoes, process tomatoes, that kind of thing that you could 
assume would be helpful. But, in other cases, they went back to 
improving the local church and improving other kinds of things 
that might be valuable to the community, but not necessarily 
contributing to economic development.
    So, that program has been, I would not say phased out, but 
has not been seen as a panacea in Mexico. The Hometown 
Associations that we are talking about continue to send money 
back in a more organized fashion instead of as individuals to 
communities, and the idea there is that that would then help a 
municipality, a town, to invest in a school or something.
    Some of them are great humanitarian projects and a good 
thing. But, again, I think the jury is out as to whether it 
actually contributed to economic vibrancy in so many cases.
    Chairman Carper. OK. I like to say sometimes in trying to 
figure out how to solve a problem, there are no silver bullets, 
but there are a lot of silver BBs and some are bigger than 
others, and I think helping to establish the rule of law on the 
police beat, in the courts, in prisons and so forth, that is 
certainly a big BB.
    But, another BB that is worth mentioning here, and there 
has been some mention of it in our hearing, but the actual 
passage and implementation of immigration reform legislation, a 
kind of a bill, law, that has passed the Senate but not the 
House. And, just talk to us how that might be helpful in 
dealing with these challenges. And, I am going to ask you to be 
fairly brief, if you would.
    Mr. Shifter, do you want to go first.
    Mr. Shifter. Sure. Well, I would say the first, the most 
fundamental way it would be helpful is that it would create 
much better good will among the Central American governments to 
the United States. And, if you want to talk about collaboration 
and partnership, the best way to do that is to get a 
comprehensive immigration bill. That would help the most, 
because that is what is lacking and that is what is creating 
some distrust, that you cannot count on the United States 
because the system is broken, and that would be the fundamental 
thing. There are other things, but I would stress that.
    Chairman Carper. Thank you.
    Anyone else, just briefly? Mr. Olson.
    Mr. Olson. We have discussed this issue of why people are 
coming, and there are so many different complexities to it. Dr. 
Coburn referred to a survey of some 200 people at the border. I 
have no basis to dispute that at all.
    I do know that the U.N. High Commissioner for Refugees has 
also conducted interviews, and family and family reunification 
is one--is the biggest single reason given by a lot of the 
children coming up. This is in the CRS report that came out 
this week. My apologies. It is the Congressional Research 
Service report, not Catholic Relief Services.
    But, nevertheless, I do think that one of the drivers--I am 
not saying the most important one, but one of the drivers here 
is the desire for family reunification. And, the fact that, 
there was no progress on comprehensive immigration reform 
became a factor for some of the parents here that had hoped 
their children might be able to resettle legally or be brought 
up legally, even if there was maybe no realistic basis for 
that. But, the failure of this process, I think, became another 
element, another nail in the coffin, if you will, that 
motivated people to take this desperate gamble with their 
children.
    Chairman Carper. OK. Anyone else, just very briefly.
    Mr. Jones. I just think it would send a message that there 
is a legal, orderly way to get to the United States, and I 
think that is an important message to send. And, it would also 
send a message that it is taking away resources from organized 
criminal groups who are now filling that role.
    Chairman Carper. Good. Sometimes when we have--let me just 
say, this has been a great hearing. I am delighted with the 
participation of my colleagues, but really impressed by each of 
you and your thoughtfulness and, frankly, the way a lot of 
things you have done with your lives. I have read a little bit 
about your backgrounds, and there is much to commend you in 
what you have done with your lives.
    Sometimes, I get to the end of the hearing and we do 
opening statements, and we ask you all to do an opening 
statement. You had very good ones. And, then, sometimes I ask 
people to give a closing statement to help us come together. 
Thank you, John Lennon. [Laughter.]
    But, come together here at the end, and I will tell you 
why. This afternoon at 5:30, there will be a meeting of most of 
the Senators. We are meeting with folks from the 
Administration, including Jeh Johnson, our Secretary of 
Homeland Security, and Sylvia Mathews Burwell, the Secretary of 
Health and Human Services, several other folks, as well, and we 
are going to be talking about the administration's proposal, 
$3.7 billion supplemental proposal, that seeks to address some 
of these concerns that we are talking about, largely the 
resources that we have at the border, the way we deal with 
families, families with children and unaccompanied children, 
house them, detain them, send them home.
    But, there is one element, about $300 million in the 
proposal that is of special interest to me. I have an interest 
in all of it, but of special interest to me because it seeks to 
address the underlying cause. It seeks to address the 
underlying cause, and including some of the ways we have talked 
about here today.
    One of the ways we have not talked much about is what I 
call truth campaign. My last year as Governor, I was encouraged 
and became the founding, the Vice Chairman of something called 
the American Legacy Foundation. The American Legacy Foundation 
was created out of the tobacco settlement between the tobacco 
industry and the 50 States, and out of that comes a stream of 
money to the States to use for, among other things, health care 
purposes, and also a couple billion dollars came to the 
American Legacy Foundation to mount a truth campaign to 
encourage young people who are smoking to stop and to 
discourage young people who are not smoking from ever starting. 
Hugely successful.
    I met with the first founding Vice Chairman of the American 
Legacy Foundation. I have admired their work for more than a 
decade now. The head of the American Legacy Foundation came by 
my office this week and reported that we are seeing the use of 
tobacco by young people, teenagers to age 20, we have seen it 
drop from over 20 percent to under 10 percent. The use of 
tobacco by children in middle school and below, under 5 
percent. So, it generally believed to be very successful.
    One of the ways it works, and this is what we did, the idea 
of ask your custom. Basically, we involved young people in 
developing the truth campaign, hard hitting, frank, the kind of 
stuff that really grabbed the attention of kids. And, the ideas 
were developed largely by kids working with ad agencies, and we 
used all different kinds of media and used the TV shows, the 
films, the magazines, social media that actually get to kids. 
Boy, it worked.
    And, there is $5 million in this $300 million portion of 
the President's request that focuses on creating a truth 
campaign. Do you think this is of value? Any points you would 
have in your recommendation to make sure we get the most bang 
for our buck? Please, anyone. Mr. Farnsworth.
    Mr. Farnsworth. Mr. Chairman, I do think it is valuable, 
and as you and other Members of the Committee have said, 
perceptions matter, and whatever the reality may or may not be, 
the perception may be pulling some folks to the United States 
or to attempt to come into the United States. So, I think that 
type of an idea is a very valuable one that you are putting 
forward.
    I would take it a bit further, actually, and there are 
resources from within Central America itself that could be 
used, for example, if this $5 million were a downpayment or a 
leveraging of resources from in the region itself. And, there 
are entities--businesses, private sector, others--who, I 
suspect, would be willing to contribute to that type of a 
campaign, because it is tangible, you can measure its results, 
and it is having an important public policy impact. And, I 
think that that is the type of partnership--that is one example 
of things that can be done in partnership----
    Chairman Carper. That is a great idea. Use it to kind of 
leverage other resources.
    Anybody else on this, react to this idea? OK. Mr. Roberts, 
please.
    Mr. Roberts. I think its effectiveness is going to depend 
on the networks of people not really understanding fully the 
U.S. policies, the potential benefits and the potential risks 
and costs of making certain choices related to coming to the 
United States, and I, myself, would be somewhat skeptical that 
there is a lot of rationality there, because the stakes are 
very high for the people who are making these decisions. And, 
so, I would look very carefully at that in terms of its 
potential effectiveness.
    Chairman Carper. OK. I think I will mention one point, and 
then I am going to ask each of you to give me, maybe, a one-
minute closing statement.
    But, sticking with the truth campaign for just a moment, it 
cannot just be a message to parents and to kids in Central 
America that says, this is what you face trying to get through 
Mexico to the United States. This is what you may face when you 
get to the United States. It is not what you are told it is 
going to be necessarily. That is part of the message that be 
conveyed in a truth campaign.
    But the other part that is really important, too, is a 
message of hope. There has to be a message of hope and to 
encourage people to stay in their countries and to make a life 
there and to be productive citizens. You have to do both.
    Let me just ask you, maybe pick one or two pieces out of 
the President's supplemental appropriation proposal that you 
think makes the most sense, and that you say, for God's sake, 
if you only do one thing, one part of it, this is what you 
should do. And, let me hear that, and then I will ask you to 
give me a little closing statement, if you would.
    Dr. Roberts--OK, we have a roll call vote underway, so I 
will just take a minute on this. What is really good there that 
we absolutely should do, one or two things, please.
    Mr. Roberts. I am afraid I am not familiar with the details 
of----
    Chairman Carper. Fair enough. Mr. Jones.
    Mr. Jones. I think the youth workforce development is 
essential in this as part of the supplemental, as well as the 
improved income opportunities for families.
    Chairman Carper. All right. Thank you. Mr. Farnsworth.
    Mr. Farnsworth. I very much like the emphasis on job 
creation and creating the conditions within which jobs can be 
created. You have spoken to that yourself, Mr. Chairman. I 
think that is a critical part of the legislation.
    Chairman Carper. Mr. Olson.
    Mr. Olson. I completely agree with my colleagues, so I will 
add to that a continued focus on prevention programs at the 
community level, and also a need to tackle the problems of 
prisons in Central America.
    Chairman Carper. OK. Thank you. Mr. Shifter.
    Mr. Shifter. The justice system and police forces, as well. 
It is in there. It should be strengthened.
    Chairman Carper. OK. Thanks.
    I am going to ask each of you to give just a short, maybe 
no more than a minute closing statement, just kind of 
reflecting on what we have talked about here, just some parting 
advice for us, please. Dr. Roberts, please.
    Mr. Roberts. I do not really have a closing statement. I 
would just encourage, as we move forward in evaluating the 
alternative policies and programs that could address the 
situation, to look at them with clear eyes and a determination 
to understand what does objective analysis of the facts tell us 
about potential impacts.
    Chairman Carper. Thank you.
    Mr. Jones, just very briefly.
    Mr. Jones. Yes. I think youth workforce development 
programs and rural development programs are going to be 
essential to combatting this. And, I also think that it is 
essential that the focus include civil society, governments, 
and the private sector. All of them need to be encouraged to 
come together. It is a very complex issue, and without all of 
them, we will be sitting on a two-legged stool.
    Chairman Carper. Thank you. I have sat on those. It is not 
much fun. [Laughter.]
    Mr. Farnsworth.
    Mr. Farnsworth. Mr. Chairman, first, I want to thank you 
for putting the hearing together.
    Chairman Carper. I want to thank our staffs, both Democrat 
and Republican.
    Mr. Farnsworth. They did an outstanding job.
    Chairman Carper. This has been a wonderful hearing.
    Mr. Farnsworth. So, thank you and congratulations.
    Two very quick points. The first is, I do not think, if you 
ask most people who are making this treacherous trip from 
Central America to the United States, that they would say that 
is their first choice. There might be some, but most of them 
would prefer to stay in their local communities with their 
families, with their faith communities, with their schools, 
with their athletic teams, perhaps, and not be forced into, as 
they see it, this option. So, I think that is point No. 1. To 
the extent that the issues can be improved at the home, I think 
that can be a real service.
    No. 2, and we have talked a lot about perceptions. I think 
perceptions matter, and I would just highlight that.
    I said two, but there are actually three points--No. 3, the 
role of the United States in Central America cannot be 
overstated. We have a longstanding historical role in the 
region. We can debate the success of it, et cetera. I 
personally think it has been more positive than not. But, the 
fact of the matter is, we have a history there. There is a lot 
at stake here, and my personal view is the United States, in 
addition to helping the people of the region, have a real 
foreign policy and strategic policy imperative to remain 
engaged, and not just, as you said in your statement, which I 
completely concur with, is a one-and-done, but a long-term 
engagement. So, I would continue to encourage that. Thank you.
    Chairman Carper. Thank you. Sorry to have to cut you off.
    Mr. Olson----
    Mr. Olson. Yes. Along the same lines, I just want to thank 
you for organizing this and keeping the focus on the root 
causes, the long-term issues in the region. And, the fact that 
you have traveled there is really significant, because I am 
sure you have opportunities to travel elsewhere and these are 
difficult places to be. So, I would encourage a continued focus 
on these root causes, these issues in Central America that are 
drivers.
    I am convinced that these are non-partisan issues, that 
Republicans and Democrats can come together around 
strengthening the rule of law, strengthening the capacity of 
State, and focus on prevention issues. I think that is 
absolutely essential, and I congratulate you and the other 
Members of the Committee for being interested in that.
    Chairman Carper. Thanks so much.
    Mr. Shifter, just very briefly.
    Mr. Shifter. Thank you very much, and I also want to thank 
you and commend you for holding this hearing.
    I think all of us sitting here would probably want to 
increase resources and attention to these three countries. I am 
reflecting on 15 years ago when Plan Colombia was considered. I 
think one of the objections which has been voiced by some of 
the Senators is, are we throwing money down a rat hole? Is it 
going to be used effectively? And I just want to underscore 
that those same concerns were expressed 15 years ago. So, I 
think there are ways to do it. There are grounds for concern, 
but I think, also, if we do it right, and we are capable of 
doing it right, we have demonstrated that in the case of 
Colombia this could work, and I think the commitment is very 
important.
    Chairman Carper. You all have been terrific. Thank you very 
much for--this is a great collaboration and a shared 
undertaking. Thank you so much. You have given us a lot to 
think about and, I think, a lot to do. Timely, insightful, and 
we are grateful.
    And, again, I want to say thank you for all the good you do 
with your lives. I do not know all the good you do, but I am 
aware of some of it and we are grateful for that.
    The hearing record will remain open for 15 days, until July 
31, 5 p.m., for the submission of statements and questions for 
the record.
    With that, this hearing is adjourned. Again, thank you. Go 
in peace.
    [Whereupon, at 12:31 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                                 [all]
                                 
</pre></body></html>
